APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Montana Supreme Court,
Krakauer v. State, 396 Mont. 247,
445 P.3d 201 (2019) (Krakauer II )
(July 3, 2019)....................................................... 1a
Order on Motion for Release of Records by the
Montana First Judicial District Court
(October 19, 2017) ............................................ 33a
Memorandum and Order on Cross Motions for
Summary Judgment, Krakauer v. State, 384
Mont. 527, 381 P.3d 524 (2016) (Krakauer I ). 44a
Memorandum Order of the First Judicial District
Court of Montana, Krakauer v. State, 2014
Mont. Dist. LEXIS (September 12, 2014) ......... 81a
RELATED CASE OPINION
Opinion of the United States District Court for
the District of Montana, Missoula Division,
Doe v. Univ. of Mont., No. CV-12-77-M-DLC
(June 26, 2012) ................................................. 96a
REHEARING ORDER
Order of the Supreme Court of Montana Denying
Petition for Rehearing (August 6, 2019) ........ 107a
STATUTES AND REGULATIONS
Statutory Provision
Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g .......................... 110a
Regulatory Provisions
34 CFR arts A and D ...................................... 129a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Appellee Petition for Rehearing Filed in
Krakauer II (July 18, 2019) ......................... 170a

App.1a
OPINION OF THE MONTANA SUPREME COURT
KRAKAUER V. STATE, 396 MONT. 247,
445 P.3D 201 (2019) (KRAKAUER II )
(JULY 3, 2019)
SUPREME COURT OF MONTANA
________________________
JON KRAKAUER,

Petitioner, Appellee,
and Cross-Appellant,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

v.

Respondent
and Appellant,

JOHN DOE,

Intervenor
and Appellant.

________________________
No. DA-18-0374

Appeal from the District Court of the
First Judicial District, in and for the County of
Lewis and Clark, Cause No. ADV 14-117
Honorable Mike Menahan, Presiding Judge

App.2a
Before: Laurie MCKINNON, James Jeremiah SHEA,
Dirk M. SANDEFUR, Ingrid GUSTAFSON, Justices.
Opinion by: LAURIE McKINNON
¶ 1 The Commissioner of Higher Education,
Clayton Christian (Commissioner), and John Doe
appeal an order from the First Judicial District Court,
Lewis and Clark County, granting Jon Krakauer’s
motion to release Doe’s educational records. We reverse
and dismiss Krakauer’s original petition with prejudice,
and we affirm the District Court’s decision not to
award Krakauer attorney fees.
¶ 2 The Commissioner presents the following
issues for review:
1.

Did the District Court err in concluding Doe
had no expectation of privacy in his educational records?

2.

Did the District Court err in ruling the
futility of redaction issue was moot?

3.

Did the District Court err when it held
Doe’s demand for individual privacy in his
educational records did not clearly exceed
the merits of their public disclosure?

¶ 3 Because we conclude resolution of the Commissioner’s issues is dispositive, we do not reach the
additional issues Doe presents for review.
Factual and Procedural Background
¶ 4 Krakauer, a writer who chronicled instances
of sexual misconduct on or near the University of
Montana (the University) campus, seeks the release
of Doe’s educational records from the Commissioner.

App.3a
The records contain detailed information about student
disciplinary proceedings the University initiated
against Doe over highly publicized allegations of
sexual assault. In Krakauer v. State, 2016 MT 230,
384 Mont. 527, 381 P.3d 524 (Krakauer I), we reversed
and remanded the District Court’s decision ordering
the Commissioner to release Doe’s records. The instant
appeal arises from the District Court’s subsequent
order on remand; as such, we incorporate the procedural
and factual background from Krakauer I, ¶¶ 2-8, and
recite the additional facts that have arisen since.
¶ 5 In January 2014, Krakauer submitted a
request for the release of Doe’s educational records to
the Commissioner. The Commissioner refused to release
the records, asserting state and federal law prevented
him from doing so. Krakauer then initiated this action
and argued the Commissioner wrongly denied him
access to Doe’s records, citing the right to know under
the Montana Constitution. The District Court granted
summary judgment to Krakauer and ordered the
Commissioner to release Doe’s educational records.
The Commissioner appealed, and in Krakauer I, we
reversed and remanded the case to the District Court
to conduct an in-camera review of Doe’s records with
the following instructions: (1) determine whether there
was an adverse final ruling against Doe during his
student disciplinary proceedings, which would have
allowed for the release of certain, limited information
as an exception to the general prohibition against the
release of educational records under the Family Educational Rights and Privacy Act of 1974, as amended,
20 U.S.C. § 1232g (FERPA); (2) factor the enhanced
privacy interests of students into the analysis of
whether the Montana Constitution permits disclosing

App.4a
Doe’s educational records; and (3) determine whether
the potential for redacting Doe’s personally identifying
information affects the privacy analysis and the ultimate determination about what records, if any, can
be released.
¶ 6 Following our decision, the District Court
granted Doe a motion to intervene in the case. The
court then conducted an in-camera review of Doe’s
educational records. First, the District Court did not
make a finding about whether an adverse ruling against
Doe existed that would have permitted the release of
limited information from Doe’s records. Second, although recognizing students’ enhanced privacy interests in their educational records, the court found
Doe’s personal information in the records was already
substantially available to the public through unsealed
court records and significant media coverage of Doe’s
contemporaneous public criminal trial. Therefore, it
held Doe did not have a subjective or actual expectation
of privacy in the records at issue, which rendered the
issue of redaction moot. Third, the District Court
concluded that even if Doe had a privacy interest in
his records, his privacy interest did not clearly exceed
the merits of public disclosure due to Doe’s status as
a high-profile student-athlete at the time of the disciplinary proceedings, the scholarships he received
from the University, the attendant publicity of the
alleged sexual assault, and the public’s compelling
interest in understanding the disciplinary procedures
employed by a state university.
¶ 7 The District Court later denied Krakauer an
award of attorney fees. Both the Commissioner and
Doe appeal the District Court’s order to release Doe’s

App.5a
records, and Krakauer cross-appeals the order denying
him attorney fees.
Standard of Review
¶ 8 The Commissioner, Doe, and Krakauer raise
issues of constitutional law. “Our review of questions
involving constitutional law is plenary. A district
court’s resolution of an issue involving a question of
constitutional law is a conclusion of law which we
review to determine whether the conclusion is correct.” Krakauer I, ¶ 10 (quoting Bryan v. Yellowstone
Cty. Elementary Sch. Dist. No. 2, 2002 MT 264, ¶ 16,
312 Mont. 257, 60 P.3d 381).
Discussion
¶ 9 Article II, Section 9, of the Montana Constitution provides the public’s right to know: “No person
shall be deprived of the right to examine documents . . . of all public bodies or agencies of state government and its subdivisions, except in cases in
which the demand of individual privacy clearly exceeds
the merits of public disclosure.” We have accordingly
recognized “a constitutional presumption that all documents of every kind in the hands of public officials are
amenable to inspection. . . . ” Great Falls Tribune v.
Mont. PSC, 2003 MT 359, ¶ 54, 319 Mont. 38, 82
P.3d 876 (citation and emphasis omitted). The right
to know is not, however, absolute—it may be overcome
when the demands of individual privacy clearly exceed
the merits of public disclosure. Mont. Const. art. II,
§ 9; Associated Press, Inc. v. Mont. Dep’t of Revenue,
2000 MT 160, ¶ 24, 300 Mont. 233, 4 P.3d 5.
¶ 10 Article II, Section 10, of the Montana Constitution provides an individual’s right of privacy:

App.6a
“The right of individual privacy is essential to the
well-being of a free society and shall not be infringed
without the showing of a compelling state interest.”
The right of privacy is also not absolute—it may be
infringed upon with the showing of a compelling state
interest. Mont. Const. art. II, § 10.
¶ 11 The rights exist in tension with one another
and conflict when the public seeks to examine documents an individual asserts a privacy interest in.
Because neither right is absolute, we must balance
the competing constitutional rights when they conflict.
Missoulian v. Bd. of Regents, 207 Mont. 513, 529, 675
P.2d 962, 971 (1984). “Before balancing these interests,
however, [we must determine] more precisely what
interests are at stake.” Missoulian, 207 Mont. at 529,
675 P.2d at 971.
¶ 12 We first determine whether an individual
privacy interest exists. Missoulian, 207 Mont. at 529,
675 P.2d at 971. If a privacy interest exists, we then
balance “the competing constitutional interests in the
context of the facts of each case, to determine whether
the demands of individual privacy clearly exceed the
merits of public disclosure.” Associated Press, ¶ 24
(quoting Missoulian, 207 Mont. at 529, 675 P.2d at
971) (emphasis omitted). “[T]he right to know may
outweigh the right of individual privacy, depending
on the facts.” Missoulian, 207 Mont. at 529, 675 P.2d
at 971.
¶ 13 1. Did the District Court err in concluding
Doe had no expectation of privacy in his educational
records?
¶ 14 We first consider whether Doe has an
expectation of privacy in his educational records. To

App.7a
determine whether a person has a constitutionally
protected privacy interest with respect to certain
records, we inquire: (1) “whether the person involved
had a subjective or actual expectation of privacy”;
and (2) “whether society is willing to recognize that
expectation as reasonable.” Krakauer I, ¶ 36; Great
Falls Tribune Co. v. Day, 1998 MT 133, ¶ 20, 289 Mont.
155, 959 P.2d 508 (citing Missoulian, 207 Mont. at
522, 675 P.2d at 967).
¶ 15 The Commissioner and Doe argue the District Court erred when it concluded Doe has no subjective or actual expectation of privacy in his educational records because all students have an enhanced
privacy interest in their educational records. Krakauer
counters that Doe has no subjective or actual expectation of privacy in his educational records because:
first, the University’s Student-Athlete Conduct Code
put Doe on notice his status as a student-athlete
meant he would be “more visible” in the community,
more “scrutinized” by the media, and he may have
diminished “individual rights and privileges”; and
second, the public already knows many private
details contained in Doe’s educational records, and
thus, Doe cannot honestly assert an existing privacy
interest in them.
¶ 16 In Krakauer I, we recognized a student’s
privacy interest in his educational records was different
from “general privacy interests,” and “courts must
honor the unique privacy protection legislatively
cloaked around the subject records by factoring that
enhanced privacy interest into the balancing test.”
Krakauer I, ¶ 37. We recognized there was an
“increased burden that must be shown by a petitioner
in order to access protected student records. . . . ”

App.8a

Krakauer I, ¶ 37. We also noted in Krakauer I, federal
and state statutes affirmatively establish heightened
privacy interests for students in their educational
records as a matter of law. Krakauer I, ¶ 37. This
legislatively-cloaked, enhanced privacy protection is
an important factor to consider in an analysis of a
particular student’s privacy interest in his educational
records.

¶ 17 Although we recognized in Krakauer I a
student has a statutorily-protected, enhanced privacy
interest, that protection does not mean the interest is
absolute when balanced against a competing constitutional interest. Indeed, § 20-25-515, MCA, which requires a student’s permission before his records may be
released, provides an exception when a court has
issued a subpoena for the records. In requiring intervention and consideration by a court for issuance of a
subpoena, the statute ensures a court will make the
necessary constitutional inquiry and balancing when
a student does not consent to disclosure. Such an
inquiry would, for example, adequately address the
situation where a student published his educational
records himself or otherwise consented to their disclosure, thereby inviting a court to find the student—even
with the enhanced protection afforded all students
under the law—did not have an actual privacy interest
in his records. Accordingly, a court must still determine
whether a student has an actual privacy interest in
his records based on the facts of the case. Where the
court finds the privacy interest exists, the enhanced
protection creates a robust protection in favor of individual privacy when weighed against the merits of
public disclosure. See Mont. Const. Art. II, § 9; Krakauer I, ¶ 37.

App.9a
¶ 18 To determine whether Doe has an expectation of privacy in his educational records, we first
consider whether Doe has a subjective or actual privacy
interest in his educational records. See Krakauer I,
¶ 36. We begin by observing the Court recently held
in Raap v. Bd. of Trs., 2018 MT 58, ¶ 12, 391 Mont.
12, 414 P.3d 788, whether a person has an actual or
subjective expectation of privacy in certain records is
a question of fact informed by notice. If the person
had notice his records were subject to public disclosure or the public entity already made them publicly
available, then he cannot have an actual or subjective expectation of privacy in the records. Raap,
¶ 12; Billings Gazette v. City of Billings, 2013 MT
334, ¶ 18, 372 Mont. 409, 313 P.3d 129; Havre Daily
News, LLC v. City of Havre, 2006 MT 215, ¶ 23, 333
Mont. 331, 142 P.3d 864.
¶ 19 Here, the same statutes that provide students with additional privacy protections also provide
students with notice of the very limited circumstances
upon which a university may disclose their educational
records to third parties, including the public at-large.
Section 20-25-515, MCA, permits the public release
of educational records only through a student’s written
permission or through a court subpoena. FERPA limits
the non-consensual public release of educational records
to a few exceptions. For example, under 20 U.S.C.
§ 1232g(b)(6)(B), an institution may disclose limited
information about the final results of a disciplinary
proceeding against a student who is an alleged
perpetrator of a crime of violence or a nonforcible sex
offense, “if the institution determines as a result of
that disciplinary proceeding that the student committed
a violation of the institution’s rules or policies with

App.10a
respect to such crime or offense.”1 A court may also
order an institution to turn over educational records
or publicly disclose them through a court order or
subpoena.2 20 U.S.C. § 1232g(b)(2)(B).
¶ 20 The University of Montana Student Conduct
Code also guarantees all students a right to confidentiality with respect to disciplinary proceedings. The
Student Conduct Code notifies students that disciplinary proceedings are closed to the public; the University will not disclose related information to anyone
not connected to the proceeding; while the University
may disclose the fact that there is a disciplinary proceeding, the identity of individual students will remain
confidential; and the University will disclose the
results of the proceedings only to an alleged victim of
a violent crime and “to those who need to know the
results for purposes of record-keeping, enforcement
of the sanctions, further proceedings, or compliance
with Federal or State law.”
¶ 21 Taken together, these statutes and policies
indicate Doe did not have notice his educational records
would be subject to public disclosure by the University.
Quite the opposite, the statutes and policies provide
students like Doe with steadfast assurances that the
university system will affirmatively protect their
1 In Krakauer I, we noted the possibility that this exception
applied. Krakauer I, ¶ 26. The District Court did not consider it
on remand and, accordingly, we do not address it on appeal.
2 As we observed in Krakauer I, ¶ 27 n.6, FERPA and its corresponding regulations require courts to give advance notice to
students or parents before issuing a subpoena or order that might
release a student’s records so that the students or parents “may
seek protective action. . . . ” 34 C.F.R. § 99.31(a)(9)(ii); see 20 U.S.C.
§ 1232g(b)(2)(B).

App.11a
records from disclosure, just as the University and the
Commissioner have done here. Doe had notice the University could only disclose the results of his disciplinary proceedings to an alleged victim, essential University personnel, or other necessary individuals in
compliance with federal or state law, which would
include compliance with a judicial order or subpoena.3
See 20 U.S.C. § 1232g(b)(2)(B); § 20-25-515, MCA. The
University did not have a policy of disclosing educational records. In fact, absent Doe’s consent or a judicial subpoena, the University could only disclose specific information from Doe’s records in limited circumstances. Accordingly, Doe did not have notice his
educational records were publicly available or the
University would possibly publicly disclose them.
¶ 22 Krakauer points to the University’s StudentAthlete Conduct Code—a separate policy from the
Student Conduct Code that applies only to studentathletes—and argues language in the Student-Athlete
Conduct Code notified Doe of possible disclosure of
his records. In pertinent part, Krakauer points to the
following selections:
Being a student-athlete carries with it certain
expectations, many that you would not
3 An individual has notice of possible disclosure of his records only
when he knows the public entity holding his records may freely
disclose them to the public. For example, notice that a university may disclose educational records to other discrete entities,
such as an alleged victim or essential university personnel, is
not notice of possible public disclosure for purposes of the rule.
Similarly, notice of potential court-ordered public disclosure is
not sufficient notice of possible public disclosure where the university would not (or could not) disclose the student’s records,
but for the judicial order.

App.12a
experience if you were not a student-athlete.
Because of the public nature of competition,
you are more visible to the community than
a non-student-athlete.
[...]
Past student athletes have learned that
their actions are scrutinized more closely by
the press. You should conduct yourself with
that knowledge.
[...]
By virtue of becoming a member of an
athletic team, however, you become subject
to certain responsibilities and obligations
which could include the acceptance of loss of
some individual rights and privileges.
¶ 23 Krakauer’s argument that the StudentAthlete Conduct Code somehow diminishes studentathletes’ right of privacy is fundamentally flawed.
Section 20-25-512, MCA, forbids contracts between a
university and a student waiving the student’s right
of privacy and due process of law. Even so, nowhere
does the Student-Athlete Conduct Code notify studentathletes their educational records are subject to
public disclosure by the University, nor does it attempt
to minimize or eliminate their right of privacy. If anything, the passages from the Student-Athlete Conduct
Code serve only as a warning to student-athletes
that their status as an athlete may subject them to
greater scrutiny from both the University and the
public at-large. Moreover, neither Montana nor federal laws distinguish between types of students entitled
to a right of privacy. All students—regardless of their
success in academics or athletics, their involvement

App.13a
in campus or community organizations, or their general
prominence or popularity—have an enhanced privacy
interest in their educational records.
¶ 24 Krakauer further urges us to conclude, as
the District Court did, that the public’s knowledge of
a substantial amount of Doe’s private information in
his educational records weighs against Doe asserting
a privacy interest in them. Krakauer points to the
fact that Doe’s personal information contained in the
records was already substantially available to the
public through unsealed court records and significant
national media coverage of Doe’s public criminal trial.
¶ 25 The public’s independent knowledge of certain information contained in a student’s private educational records does not in any way diminish, let alone
eviscerate as claimed by Krakauer, a student’s actual
or subjective expectation of privacy in his records.
See Montana Human Rights Div. v. Billings, 199 Mont.
434, 441-42, 649 P.2d 1283, 1287 (1982) (holding, while
information contained in certain private records may
already be a matter of general knowledge, the records
may still contain “damaging information which the
individuals involved would not wish and in fact did
not expect to be disclosed”). An individual can maintain
an expectation of privacy in his private records even
in the face of the public’s knowledge of their contents.
See Missoulian, 207 Mont. at 525, 675 P.2d at 969
(“[N]early all private matters contain some component
of innocuous information or general knowledge. However, that component does not transform private
matter into public.”). Public knowledge of a student’s
private information cannot efface or diminish the
student’s expectation of privacy. To hold otherwise
would allow the public to defeat a significant privacy

App.14a
interest in certain records simply because the public
has learned of the records’ contents through other
means.4
¶ 26 Krakauer also contends our decision in
Svaldi v. Anaconda-Deer Lodge Cty., 2005 MT 17, 325
Mont. 365, 106 P.3d 548, indicates media publicity is
a proper factor to consider in the privacy analysis. In
Svaldi, a prosecutor told a newspaper about a potential
deferred prosecution agreement with a local teacher
whom the state accused of assaulting students, and
the prosecutor sent the newspaper the teacher’s
initial offense report. Svaldi, ¶ 10. The teacher sued
the county for damages, alleging the prosecutor’s conversation with the newspaper violated her privacy
rights under the Criminal Justice Information Act.
Svaldi, ¶¶ 11, 14. We balanced the teacher’s right of
privacy in the initial offense report with the public’s
right to know the report’s contents, ultimately
concluding the teacher’s demand of individual privacy
in the initial offense report did not clearly exceed the
public’s right to know the report’s contents. Svaldi,
¶¶ 28-31. We also noted how the public’s prior knowledge of the allegations against the teacher weighed
against her claim that her privacy rights were violated
in the first place. Svaldi, ¶ 32.
¶ 27 Svaldi, however, is distinguishable. First,
the public-school teacher held a position of public
4 However, if the person claiming a privacy interest was the one
who initially released the record to the public, a court may
conclude, after examining the facts, the person’s expectation of
privacy in the information is necessarily diminished. That is not
the case here. Doe did not disseminate information contained in
his educational records, and he neither initiated nor had control
over the media coverage of his case.

App.15a
trust and was accused of a crime that went directly
to her ability to properly carry out her public duties—
the care and instruction of children. Doe, as a student,
was not in a position of public trust, and therefore
society is more willing to accept his privacy interest
in his educational records as reasonable. Second, in
Svaldi, ¶ 32, our discussion about the fact that the
public already knew the information the prosecutor
disseminated explained our conclusion that the
prosecutor did not violate the teacher’s right of
privacy or negligently breach a duty owed to her
regarding that right. Doe has not sued the Commissioner over a violation of his right to privacy. Consequently, Svaldi ’s discussion about the public’s knowledge is distinguishable.
¶ 28 In this case, the public has already learned
substantial portions of Doe’s educational records
through other means—unsealed court records, the
media, and even Krakauer’s own investigation and
novel. However, information contained in a student’s
educational records is broader than that offered during
a public criminal trial, which is governed by rules of
evidence, burdens of proof, and constitutional protections not applicable to educational records. The
District Court fundamentally erred by holding the
public’s knowledge of the personal information in Doe’s
records negated his expectation of privacy in them.
Based on FERPA, § 20-25-515, MCA, the University’s
Student Conduct Code, and the facts of this case, Doe
demonstrated he had an actual expectation of privacy
in his educational records, and he did not have notice
of possible public disclosure of those records. We
accordingly conclude Doe had an actual or subjective
expectation of privacy in his educational records.

App.16a
¶ 29 Turning to the second part of the privacy
inquiry, we next consider whether society is willing
to recognize Doe’s expectation of privacy in his educational records as reasonable. See Krakauer I, ¶ 36.
We have long held society is less willing to recognize
as reasonable the privacy expectation of an individual who holds a position with a high level of public
trust when the information the public seeks bears on
that individual’s ability to perform public duties,
such as spending public money or educating children.
Billings Gazette, ¶ 49. Unlike a student’s enhanced
privacy interest, such individuals have a reduced
privacy interest. See Svaldi, ¶ 31 (concluding that a
public school teacher held a position of public trust
and the allegations against her—an assault against a
student—went directly to her ability to carry out her
duties; accordingly, there was no requirement to
withhold the allegations against the teacher from
public scrutiny); Bozeman Daily Chronicle v. City of
Bozeman Police Dep’t, 260 Mont. 218, 227, 859 P.2d
435, 440-41 (1993) (investigative documents associated
with allegations of sexual intercourse without consent
by an off-duty police officer were proper matters for
public scrutiny because “such alleged misconduct
went directly to the police officer’s breach of his
position of public trust . . . ”); Great Falls Tribune Co.
v. Cascade Cty. Sheriff, 238 Mont. 103, 107, 775 P.2d
1267, 1269 (1989) (“[L]aw enforcement officers occupy
positions of great public trust. Whatever privacy interest the officers have in the release of their names as
having been disciplined, it is not one which society
recognizes as a strong right.”).
¶ 30 The District Court found Doe was a highprofile student-athlete who enjoyed a position of prom-

App.17a
inence and popularity and who received “valuable
consideration for his skills in the form of an athletic
scholarship.” The court stated, “Although he is not a
public official or university employee, Doe is a public
representative of the University of Montana.” However,
even a student who is a “public representative” of a
university plainly does not occupy a position of public
trust. Doe was not, for example, a law enforcement
officer, teacher, or government official, nor was he
charged with performing public duties.5 Doe was a
student. Even if, as Krakauer suggests, his popularity
benefited both the University and himself (and even
though Doe was an especially prominent sports figure),
Doe simply was not a public official; as a student, he
was entitled to an enhanced privacy interest in his
educational records. Were we to expand the group of
public officials having a reduced privacy interest to
include, as suggested here, any student in whom the
public is interested, the enhanced student privacy
interest would be rendered meaningless. Statutes
enacted by our legislature embody public policy. The
federal and state statutes providing enhanced privacy
protections support the idea that society is willing to
recognize Doe’s privacy expectation is reasonable.
¶ 31 Accordingly, we conclude society is willing
to recognize as reasonable Doe’s actual or subjective
5 The District Court found Doe received an athletic scholarship
from the University. The record contains little evidence about
Doe’s finances, but even if he did receive an athletic scholarship,
and even if that scholarship was publicly-funded (the Commissioner asserts it most likely would not be), a student who receives a
scholarship—even a publicly-funded one—does not occupy a
position of public trust. Nor is the student charged with performing
public duties.

App.18a
expectation of privacy in his educational records. Our
decision is rooted in federal and state laws, the University’s policies safeguarding students’ privacy rights,
and our conclusion that Doe neither holds a position
of public trust nor performs public duties. The District Court erred when it held Doe did not have a
privacy interest in his educational records. We conclude
he does.
¶ 32 2. Did the District Court err in ruling the
futility of redaction issue was moot?
¶ 33 In the past, we have recognized redacting
individuals’ names while disclosing records to the
public can sufficiently protect their privacy interests
while still allowing disclosure of relevant public
information. Yellowstone Cty. v. Billings Gazette,
2006 MT 218, ¶¶ 24-25, 333 Mont. 390, 143 P.3d 135
(citing Worden v. Montana Bd. of Pardons and Parole,
1998 MT 168, ¶ 29, 289 Mont. 459, 962 P.2d 1157).
When appropriately employed, redaction offers a means
for disclosing relevant public information while protecting a privacy interest. However, in Krakauer I we
cautioned that redaction cannot adequately protect
privacy interests in every instance: “[W]hen an educational institution is asked to disclose education
records about a particular person, then no amount of
redaction in the records themselves will protect the
person’s identity because the requestor knows exactly
whom the records are about.” Krakauer I, ¶ 38 (internal
quotations and alterations omitted). Consequently,
on remand, we required the District Court to consider
whether redaction was futile and the impact it would
have on the court’s decision to release Doe’s records.
Krakauer I, ¶ 38.

App.19a
¶ 34 The District Court did not make a clear determination about whether redaction was futile. It
held the question was moot because it concluded Doe
had no privacy interest in his records. Nevertheless,
the District Court opined that if redaction was futile,
“then there are no practical differences between releasing redacted and unredacted documents.” Although
the District Court’s supposition is technically correct, we
disagree with any resulting implication that the futility of redaction weighs in favor of releasing private
records. Where redaction is futile—i.e., where redaction
cannot protect individual privacy interests—that
futility cannot weigh in favor of releasing the private
records.
¶ 35 Based on Doe’s educational records and the
District Court record before us, we conclude redacting
Doe’s personal information from his records is futile
and would not serve to protect the enhanced privacy
interest he has in those records. Krakauer asked for
Doe’s records by name. His request was to
inspect or obtain copies of public records that
concern the actions of the Office of the Commissioner of Higher Education in July and
August 2012, regarding the ruling by the
University Court of the University of Montana
in which [Doe]6 was found guilty of rape and
was ordered expelled from the University.
Krakauer could have requested information about the
process by which the University or the Montana University System generally handle sexual assault or
how the Commissioner reviews appeals of student
6 This alteration is ours. Krakauer asked for Doe’s records using
Doe’s legal name and not an anonymous pseudonym.

App.20a
disciplinary proceedings. He could have requested general information about all sexual assault complaints
over an appropriate, specified period of time, and he
could have requested information about the appeals
the Commissioner reviewed over that time. Had Krakauer done so, the Commissioner, under the appropriate circumstances, could have responded by supplying
the appropriate records with each student’s personally
identifying information redacted to protect his or her
privacy interests. But Krakauer requested information pertaining to one specific student, and now, no
amount of redaction can protect that student’s privacy
interests.7 Were Krakauer to receive Doe’s records,
there would be no doubt to whom the records pertained.
Therefore, Doe’s privacy interest in his educational
records, which is enhanced, reasonable, and weighs
heavily in favor of nondisclosure to begin with, receives
no protection at all in the constitutional inquiry and
balancing because redaction is futile.
¶ 36 3. Did the District Court err when it held
Doe’s demand for individual privacy in his educational
7 This is also the case under FERPA. FERPA prohibits institutions from releasing educational records or personally identifiable
information contained therein without written consent. 20 U.S.C.
§ 1232g(b)(1). In the definition of Personally Identifiable Information, the regulations include “[i]nformation requested by a
person who the educational agency or institution reasonably
believes knows the identity of the student to whom the education record relates.” 34 C.F.R. § 99.3 (Personally Identifiable
Information at (g)). Where the public requests a student’s records
by name, FERPA’s regulations assume the information sought
would allow the public to personally identify the student.
Therefore, the regulations prohibit universities from releasing a
student’s information, even redacted, when a requestor specifically asks for a student’s information by name. See 39 C.F.R.
§ 99.3(g); see also Krakauer I, ¶ 24.

App.21a
records did not clearly exceed the merits of their
public disclosure?
¶ 37 Having determined Doe has an actual privacy interest in his records which is reasonable but
redaction is futile, we now balance Doe’s privacy
interest with the public’s right to know the records’
contents to determine whether Doe’s “demand of individual privacy clearly exceeds the merits of public disclosure.” Mont. Const. art. II, § 9. Unlike in Krakauer
I, we now have Doe’s educational records before us.
We have reviewed Doe’s records and are prepared to
determine whether the District Court erred when it
held Doe’s demand for individual privacy in his educational records did not clearly exceed the merits of
their public disclosure.
¶ 38 Although the District Court held Doe does
not have an actual privacy interest in his educational
records, it nonetheless applied the balancing test to
the facts of the case. It held the four following factors
weighed against Doe’s right to privacy and in favor of
the public’s right to know: (1) Doe’s status as a highprofile student athlete; (2) athletic scholarships Doe
receives from the University, a public institution; (3)
the public’s knowledge about the details of the allegations against Doe; and (4) the public’s interest in
understanding the disciplinary procedures employed
by the University, especially where Doe is a prominent
and popular campus figure whose education is paid
for in-part by public funds. We disagree with the District Court’s balancing analysis.
¶ 39 After balancing the public’s right to know
the information contained in Doe’s records with Doe’s
right of privacy, we conclude the demand of Doe’s
privacy clearly exceeds the merits of public disclosure.

App.22a
¶ 40 The public’s Article II, Section 9, right to
know the information contained in Doe’s records is
weighty. The records are documents “in the hands of
public officials” and, accordingly, there exists a constitutional presumption that the records are amenable
to public inspection. See Great Falls Tribune v. Mont.
PSC, ¶ 54. Just as we did in Krakauer I, we recognize
the Montana University System’s policies in responding
to and handling complaints of alleged sexual assault are
matters of high importance and concern to the public.
Krakauer I, ¶ 35. The University’s compliance with
its federal obligations under Title IX is also a matter
of public import and interest. Key to our democracy
is the public’s ability to understand the process and
the reasoning employed by government officials like
the Commissioner. We accordingly recognize the strong
public interest in knowing how universities address
allegations of sexual assault.
¶ 41 However, Doe’s Article II, Section 10, right of
privacy in his records is also weighty—federal and state
law uniquely and affirmatively protect and enhance
Doe’s privacy interest in his educational records. Doe’s
enhanced protections establish an exceptional demand
of individual privacy. The student privacy laws do
not discriminate between subjective classifications of
students—all students have an enhanced privacy
interest. Doe’s status as a high-profile student athlete
does not diminish his enhanced privacy interest in
his educational records. Further, a student who receives
a scholarship, as alleged here8—even a publiclyfunded scholarship—does not waive or diminish his
8 The record before us does not indicate whether Doe received a
scholarship at the time of his disciplinary proceedings or how
that scholarship was funded.

App.23a
enhanced privacy interest in his educational records.
Doe has continuously asserted a privacy interest in
his records, even going so far as to intervene to protect his interest and proceed under an anonymous
pseudonym. There is no doubt that Doe’s enhanced
privacy interest touches every aspect of his records,
as the records themselves contain extensive details
about the allegations against him, the evidence the
University gathered, and Doe’s disciplinary proceedings.
¶ 42 Moreover, the University’s student disciplinary proceedings are confidential—each participant
swears to keep the proceedings private. Unlike a
public criminal trial, student disciplinary proceedings do not provide the same procedural due process
protections afforded to criminal defendants because
the proceedings exist to protect a university’s primary
function—the education of students—and regulate
the relationship between student and university. The
information presented in a student disciplinary proceeding is often broader than that in a public criminal
case and, thus, there is a greater need to keep the
information presented confidential. The confidential
nature of the proceedings also allows the University
to promote candor with the students involved and to
encourage victims to come forward where they might
otherwise feel reluctant to endure the public scrutiny
inherent in a public criminal trial.
¶ 43 We therefore recognize the strong merits of
publicly disclosing information pertaining to the University’s handling of sexual assault allegations, but
we must also “honor the unique privacy protection
legislatively cloaked around the subject records . . . ,”
Krakauer I, ¶ 37, Doe’s continued defense of his privacy

App.24a
interest, and the necessity to maintain confidentiality
for student disciplinary proceedings. Accordingly,
under the particular facts of this case, we conclude
Doe’s demand of individual privacy clearly exceeds
the merits of public disclosure.
¶ 44 A student’s privacy rights are not absolute,
and whether disclosure is warranted will depend on
the facts of each case. Where educational records
may be redacted to prevent disclosure of personally
identifiable information or other measures taken to
ensure that personally identifiable information remains
confidential, the demand for the student’s privacy
may not clearly exceed the merits of public disclosure.
Here, a more generalized request for information and
one in which the Commissioner could have redacted
Doe’s information in a manner that would have protected his privacy interest may have allowed for public
disclosure. However, as we stated above, redaction
will not sufficiently protect Doe’s privacy interest.
¶ 45 We do not foreclose the possibility that the
necessity behind a request for a specific student’s
educational record—even where redaction is futile—
could overcome the student’s privacy interest in the
record. For example, a party might require the information in an educational record because the information is essential for prosecuting or defending a
lawsuit where the primary issue is not public disclosure of the educational record itself. In Catrone v.
Miles, 160 P.3d 1204, 1207-08, 1210-12 (Ariz. Ct.
App. 2007), Andrew Catrone filed a malpractice suit
against medical providers alleging negligence when
his son, Patrick, was born with neurobehavorial
problems, sensory motor deficits, hearing loss, and
impaired cognitive functions. Patrick’s brother, Austin,

App.25a
was born of the same parents approximately one year
before Patrick and suffered the same learning disabilities. In support of the theory that Patrick’s
impairments were genetic rather than the result of
malpractice, the medical providers sought Austin’s
special educational records. Although the request for
educational records was specific to Austin, the court
allowed disclosure of Austin’s educational records
with redactions for privileged information and a
requirement that the parties agree on the terms of a
protective order. Similarly, in Ragusa v. Malverne
Union Free Sch. Dist., 549 F. Supp. 2d 288, 290, 29394 (E.D.N.Y. 2008), Ragusa, a high school mathematics
teacher, filed an employment discrimination action
and sought educational records to show special education students in her classes had increased and the
students reached their goals under her tutelage. The
court explained that the records were relevant to
Ragusa’s claim and ordered the records released with
personally identifiable information redacted.
¶ 46 Krakauer’s assertion of his constitutional
right to know must be seen for what it is: Krakauer
is only interested in Doe’s educational records because
Doe is a high-profile athlete. Krakauer wants to know
if the Commissioner showed favoritism towards Doe
in the handling of Doe’s sexual assault investigation
because of that status. Krakauer’s right to know the
records’ contents exists in direct tension and conflict
with Doe’s right of privacy in his educational records.
Krakauer’s request for Doe’s records is premised solely
upon Doe’s status as a high-profile athlete for the
University. By making a specific request for Doe’s
records, Krakauer made it clear that he is not interested
in the Commissioner’s handling of sexual assault

App.26a
investigations generally; he is interested in only the
Commissioner’s handling of Doe’s investigation because
Doe is a high-profile athlete. Were we to find this a
basis for disclosure, the right to know would always
subsume the privacy interest, making the student’s
enhanced privacy interest always subject to the whim
and caprice of public sentiment. Krakauer does not
overcome Doe’s enhanced privacy interest by
demonstrating the public has an interest in how the
Commissioner handled this particular investigation.
The Commissioner’s report is still about Doe, and
Doe, under the law, is entitled to be treated the same
as any other student.
Conclusion
¶ 47 Where a court finds a privacy interest exists,
the student’s enhanced privacy interest manifests a
powerful “demand of individual privacy,” when
balanced against the public’s right to know. See Mont.
Const. art. II, § 9. Furthermore, the public’s knowledge of portions of a student’s private records does
not justify public disclosure by diminishing or effacing
the student’s actual or subjective expectation of
privacy in the records. Finally, when redacting certain
identifying information is futile, the futility of redaction
does not favor public disclosure. The futility of redaction
leaves the enhanced and weighty privacy interest of
a student unprotected.
¶ 48 Doe has an enhanced privacy interest in his
educational records based on the federal and state
laws protecting his privacy rights. He has an actual
or subjective expectation of privacy in his educational
records because he did not have notice his records
were subject to possible release by the University,

App.27a
even if some of the information was already public
knowledge. His expectation of privacy is one that
society is willing to recognize as reasonable. Moreover,
Doe’s demand of individual privacy in his records
clearly exceeds the merits of public disclosure. Accordingly, we reverse the District Court’s decision ordering
the Commissioner to release Doe’s records and dismiss
Krakauer’s petition with prejudice. Because Krakauer
is not the prevailing party in this action under § 2-3221, MCA, we affirm the District Court’s decision not
to award Krakauer attorney fees.
¶ 49 Reversed in part and affirmed in part.
/s/ Laurie McKinnon
We concur:
/s/ James Jeremiah Shea
/s/ Dirk M. Sandefur
/s/ Ingrid Gustafson

App.28a
JUSTICE RICE CONCURRING IN PART
AND DISSENTING IN PART
Justice Rice, concurring in part and dissenting in
part.
¶ 50 I agree with the Court’s well-articulated
substantive analysis, but I partially disagree with
the Court’s application of the governing principles,
and in the final result. We remanded in Krakauer I
for the District Court to consider these principles,
and, procedurally, to conduct an in camera review of
the contested records. I would reverse in part and
affirm in part the District Court’s holding, and order
a release of limited information in response to the
Petitioner’s request.
¶ 51 I believe the Court correctly concludes that
Doe has a privacy interest in his educational records
that society would recognize as reasonable, and thus
I concur with the Court’s reversal of the District
Court’s contrary conclusion. I further agree that Doe’s
privacy right has been enhanced under state and federal law, beyond a “general privacy interest[],” which
is “an important factor to consider” in the constitutional balancing analysis. Opinion, ¶ 16. Indeed, protection of Doe’s privacy interest was the reason we
ordered an in camera review. Krakauer I, ¶ 39 (“We
have recognized the efficacy of an in camera review
of requested records by a district court to ensure that
privacy interests are protected. . . . On remand, the District Court should review the requested documents in
camera, and in the event it determines to release any
document after conducting the balancing test, every
precaution should be taken to protect the personal

App.29a
information about other persons contained in the
documents.”).
¶ 52 The Court recognizes that FERPA provides
students with notice that the privacy of their educational records is subject to exceptions that permit disclosure in limited circumstances, including through the
judicial process. Similarly, the Student Conduct Code
advises students that their records may be subject to
disclosure in compliance with state and federal law,
including release by judicial order. I thus disagree
with the Court’s conclusion that Doe did not have
notice that his educational records were subject to disclosure in circumstances such as those here. Opinion,
¶¶ 19-21.
¶ 53 Balanced against the privacy interest, “there
is a constitutional presumption that all documents of
every kind in the hands of public officials are amenable
to inspection, regardless of legislation, special
exceptions made to accommodate the exercise of constitutional police power, and other competing constitutional interests, such as due process.” Great Falls
Tribune v. Mont. PSC, 2003 MT 359, ¶ 54, 319 Mont.
38, 82 P.3d 876 (emphasis in original) (citations
omitted). Thus, going into the balancing test, the
public’s right to know is to be weighted with a presumption favoring release.
¶ 54 The reasoning of the U.S. District Court in
Doe v. University of Montana is worth noting:
[L]ost in all of this is the valid and compelling interest of the people in knowing what
the University of Montana is up to. It has
been established that the prevalent and
long-standing approach of the federal courts

App.30a
is to reject secret proceedings. There are very
few exceptions to this rule. The principle of
openness in the conduct of the business of
public institutions is all the more important
here, where the subject matter of the litigation is a challenge to the administrative disciplinary process of a state university.

Doe v. Univ. of Mont., No. CV 12-77-M-DLC, 2012 U.S.
Dist. LEXIS 88519, at *11 (D. Mont. June 26, 2012). I
agree, and believe the people of the state simply must
be able to learn about and know—in some degree—a
decision made by the Commissioner of Higher Education about a University matter, including a matter
involving a student. This itself is an important fact:
at issue is not a personnel matter before a human
resource officer in a small unit of government, but,
rather, a contested case before a high official in the
state government, exercising statewide authority. As
noted by the U.S. District Court, people must be able
to learn what their institutions are “up to,” and that
the government is not engaged in inappropriate
conduct. Did the Commissioner make a decision on
appropriate legal grounds? Did he exhibit favoritism?
Was he subject to outside influence? Doe’s enhanced
privacy right must be weighed and balanced against
the vital, democratic function of the public’s right to
know these answers. “[T]ransparency is crucial to the
legitimacy of a public institution.” Doe v. Univ. of Mont.,
at *11.
¶ 55 Troubling to me about the outcome here is
that it reaches an all-or-nothing result, largely turning
upon the wording of Krakauer’s request for the records.
The Court recognizes that a nonspecific request for
general information that did not name Doe would have

App.31a
rendered redaction a viable option, and the Commissioner “could have responded by supplying the appropriate records with each student’s personally
identifying information redacted[.]” Opinion, ¶ 35. But
the Court concludes that the wording of the request
sinks the request entirely, and no records whatsoever
can be released. In light of the critical importance of
the right to know, I believe that conclusion is error.
¶ 56 While we tend to think of the issue as a
yes-or-no, all-or-nothing decision, I don’t believe the
balancing test must lead to that result, either here or
in other cases. While it is true that the request here
may have made redactions about Doe futile, the
request should nonetheless be honored to the extent
it can be—that is, with a limited release of information
that discloses the decision the Commissioner made
and the grounds upon which he made it. Review of the
record convinces me that the public’s right to know
the basis for the Commissioner’s decision outweighs
even the enhanced right to privacy in this case. The
Commissioner’s decision makes clear that it is premised
on matters of process in the University’s handling of
the matter, and includes very little discussion of the
underlying facts. Redactions may be viable within
that document to ensure protection of any private
information, such as information provided by or about,
or the identity of, other parties, or of the nature of
specific evidence. I would remand for the District
Court to further consider any appropriate redactions.
¶ 57 Such a result is consistent with the process
under FERPA. As we noted in Krakauer I, FERPA
authorizes the limited release of information about
the final results of a student disciplinary proceeding
for certain crimes if the student is found to have com-

App.32a
mitted a violation. Krakauer I, ¶ 26. FERPA additionally authorizes release of information in compliance
with a judicial order. Indeed, the cases cited by the
Court lend authority for such limited, student-specific releases of documentation. Opinion, ¶ 45.
¶ 58 The Court emphasizes that it does not foreclose the release of student records in future cases,
and that it will “depend on the facts of each case.”
Opinion, ¶ 44. I agree with the necessity of case-bycase review, but I would hold that, under the facts of
this case, a limited release of information is required
to satisfy the constitutional right to know, and is
authorized under FERPA as necessary in response to
a court order. I would thus reverse in part the order
of the District Court and order a more limited release
of information setting forth the Commissioner’s decision and the grounds on which he made it.
/s/ Jim Rice
Chief Justice Mike McGrath and Justice Beth Baker
join in the concurring and dissenting Opinion of
Justice Rice.
/s/ Mike McGrath
/s/ Beth Baker

App.33a
ORDER ON MOTION FOR RELEASE
OF RECORDS BY THE
MONTANA FIRST JUDICIAL DISTRICT COURT
(OCTOBER 19, 2017)
MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
________________________
JON KRAKAUER,

Petitioner,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

Respondent.

________________________
Cause No. ADV-2014-117

Before: Mike MENAHAN, District Court Judge.
ORDER ON MOTION FOR RELEASE OF RECORDS
This case is before this Court on remand from
the Montana Supreme Court, which issued its opinion
in Krakauer v. State, 2016 MT 230, 384 Mont. 527,
381 P.3d 524, on October 5, 2016. Vivian V. Hammill
and Helen C. Thigpen represent Respondent State of
Montana, by and through the Office of the Commissioner of Higher Education (Commissioner). Peter Michael

App.34a
Meloy represents Petitioner Jon Krakauer. David R.
Paoli represents intervenor John Doe.
Statement of Facts
A more complete factual and procedural background of the case is set forth in Krakauer, ¶¶ 2-8. It
is useful, however, to recite several relevant points of
recent procedural history. Krakauer’s filed his petition
in the Montana First Judicial District Court on February 12, 2014, and the case was assigned to Judge
Kathy Seeley. On September 25, 2014, Judge Seeley
issued a memorandum and order granting summary
judgment for Krakauer and ordering the Commissioner to release all the documents he requested,
with all student names, birth dates, social security
numbers, addresses, and telephone numbers redacted.
(Memo. & Order Cross-Mots. S.J. (Sept. 25, 2014).)
Judge Seeley subsequently stayed her order pending
the parties’ appeals to the Montana Supreme Court.
Following extensive motion practice and appeals,
the Montana Supreme Court published its opinion in
Krakauer v. State, 2016 MT 230, 384 Mont. 527, 381
P.3d 524, wherein it remanded the case back to the
District Court with instructions for the Court to perform an in camera review of the requested documents prior to ruling on Krakauer’s petition.
Upon remand, the Commissioner filed a motion to
substitute Judge Seeley. The Honorable James P.
Reynolds assumed jurisdiction over the case on October
19, 2016. On November 17, 2016, Doe filed a motion
to intervene and a motion to substitute Judge Reynolds.
In a February 8, 2017 Order, Judge Reynolds granted
Doe’s motions. On March 3, 2016, the Honorable
Michael F. McMahon assumed jurisdiction over the

App.35a
case. On April 11, 2017, Krakauer moved to substitute
Judge McMahon. The undersigned assumed jurisdiction
of the case on April 11, 2017. This Court granted
Krakauer’s motion for an in camera review on August
3, 2017. The Commissioner provided the requested
documents to the Court on August 31, 2017.
Principles of Law
In Krakauer, the Supreme Court addressed the
following issues:
1.

Did Krakauer have standing to petition the
Commissioner for a release of documents
pursuant to Article II, section 9, the rightto-know provision of the Montana Constitution?

2.

Is the Commissioner prohibited from releasing the requested documents by the Family
Educational Rights and Privacy Act of 1974,
as amended (FERPA), 20 U.S.C.S. § 1232g,
or by Montana Code Annotated § 20-25-515?

3.

How does the right-to-know provision of the
Montana Constitution apply to Krakauer’s
request to release documents?

The Supreme Court first concluded Krakauer does
have standing to pursue his request. Krakauer, ¶ 16.
The Supreme Court next considered the application
of FERPA, which broadly prohibits universities from
releasing “Personally Identifiable Information” about
students. The Supreme Court determined the documents at issue could contain personally identifiable
information, and that FERPA would therefore bar the
Commissioner from releasing those records. Krakauer,

App.36a
¶ 19-24. However, the Supreme Court noted that
FERPA contains an exception which allows the release
of documents containing personally identifiable information when the documents are released pursuant to a
valid court order, as was issued in this case. Thus,
the majority concluded that, given a valid order from
a district court, the Commissioner may release
personally identifiable information about a student
without running afoul of FERPA. Krakauer, ¶ 25-27.
The Supreme Court then considered the application of Montana Code Annotated § 20-25-515, which
provides:
A university or college shall release a student’s
academic record only when requested by the
student or by a subpoena issued by a court
or tribunal of competent jurisdiction. A
student’s written permission must be obtained
before the university or college may release
any other kind of record unless such record
shall have been subpoenaed by a court or tribunal of competent jurisdiction. The majority
concluded the exceptions in the rule for
“subpoenaed” records were satisfied by a
valid court order releasing them.

Krakauer, ¶¶ 28-30.
Finally, the Supreme Court considered Article
II, section 9, of the Montana Constitution, which provides: “[n]o person shall be deprived of the right to
examine documents . . . of all public bodies or agencies of state government and its subdivisions, except
in cases in which the demand of individual privacy
clearly exceeds the merits of public disclosure.”

App.37a
The Supreme Court recognized that although
Montana law places significant emphasis on the public’s
right to know, the right is not absolute. Rather, the
public’s right to know is balanced by the right to individual privacy, also expressly preserved in the Montana
Constitution. The Supreme Court remanded the case
to the District Court with instructions to conduct an
in camera review of the documents and to reapply
the constitutional test balancing an individual right
to privacy with the public’s right to know.
Analysis
Balancing Privacy and Transparency
Article II, section 9, of the Montana Constitution
presumes that all records of public institutions shall
be available to the public, unless a compelling privacy
interest dictates otherwise. The Montana Supreme
Court has adopted a two-part analysis to determine
whether an individual privacy interest exists. A court
must determine (1) the individual involved had a
subjective or actual expectation of privacy, and (2)
which society is willing to recognize as reasonable.
Great Falls Tribune Co. v. Day, 1998 MT 133, ¶ 20,
289 Mont. 155, 959 P.2d 508. If both parts of this test
are satisfied, a court must then balance that individual
privacy interest against the public’s right to know,
and so determine whether any documents should be
released to the public.
In remanding this matter to the District Court,
the Supreme Court identified several “unique interests
at issue in this case,” and directed this Court to reconduct the constitutional balancing test “[a]fter
giving due consideration” to these interests. Krakauer,
¶ 42. The unique interests identified by the Court are:

App.38a
(1) the enhanced privacy interests of student records;
and (2) the potential futility of redaction. Having
taken these interests into consideration, and after
conducting an in camera analysis of the documents
at issue here, this Court essentially concurs with
Judge Seeley’s Order, though with narrower parameters on the documents to be released.
Doe’s Expectation of Privacy
The Supreme Court recognized that student
records are subject to an “enhanced privacy interest,”
which this Court must consider when weighing the
student’s privacy interest against the public’s right to
know. Krakauer, ¶¶ 37-38. In the present matter,
however, even when accounting for Doe’s enhanced
expectation of privacy, this Court concludes Doe does
not have a subjective or actual expectation of privacy
in the records at issue here.
Krakauer’s request for documents is not aimed
at gathering information about Doe’s alleged behavior,
but rather seeks information about the actions and
decisions of the Commissioner and university officials
regarding the disciplinary proceedings against Doe.
The Court acknowledges these records may still contain
information in which Doe retains a privacy interest.
However, having conducted an in camera review, this
Court concludes the personal information contained
therein has already been made substantially available
to the public through unsealed court records and
significant national media coverage of a public criminal
trial. In this circumstance, this Court concludes, under
the first prong of the Great Falls Tribune test, Doe
does not have an actual or subjective expectation of
privacy. Even where public policy ascribes an enhanced

App.39a
privacy interest, there is no expectation of privacy for
information that has already been made public, such
as Doe’s alleged conduct which led to the university’s
disciplinary proceedings.1
Futility of Redaction
Because Krakauer directed his records request
regarding a specifically named individual student, the
Supreme Court considered the possibility that
“redaction of records provided in response to a request
about a particular student may well be completely
futile,” thus affecting the balancing test. Krakauer,
¶ 38. Because this Court concludes that Doe does not
have an actual or subjective privacy interest in the
records to be released, the question whether redaction
would be futile is moot.
However, although redacting Doe’s name from the
records may be futile, this Court will order the Commissioner to redact from any record to be released, all
personally identifying student information, including
Doe’s. There are two reasons for doing so—first, Krakauer has repeatedly stated he is willing to accept
records with personally identifying student information
1 The Court reiterates this conclusion is made only with respect
to the documents to be released pending this Order. Some of the
records provided by the Commissioner for review, e.g., the
transcript of the University Court hearing, contain private
information that was not made publicly available through other
means, and would implicate Doe’s enhanced privacy interest
and the privacy interests of other individuals who participated
in the hearing. In the event this Court directed the Commissioner to release a transcript of the disciplinary hearing, a
thorough constitutional balancing test analysis, weighing Doe’s
enhanced privacy interest against the merits of disclosure,
would be warranted.

App.40a
redacted and, second, redacting the records at issue
here case can do no harm. It as the Supreme Court
suggests, redaction is futile, then there are no practical
differences between releasing redacted and unredacted
documents. To the extent redacting the records may
not be entirely futile, stripping the documents of
personally identifying student information will serve to
tailor the document production to the document request
—the stated aim of which is to reveal the disciplinary
procedures of the University system. As the United
States District Court for the District of Montana
explained in John Doe v. University of Montana, 2012
U.S. Dist. LEXIS 88519, 2012 WL 2416481:
The University of Montana is a public institution, and while there may be good reasons
to keep secret the names of students involved
in a University disciplinary proceeding, the
Court can conceive of no compelling justification to keep secret the manner in which
the University deals with those students.
Thus, despite the possibility that redaction
as a means of protecting Doe’s identity may
be futile, this Court will order all personally
identifying student information, including
Doe’s, redacted from the released documents.
Balancing Test
As set forth herein, this Court concludes that
previous public disclosure of the details of Doe’s
behavior preclude him from any expectation the details
of the activity would remain private. Nonetheless,
the Court will apply the constitutional analysis weighing the public’s right to know and Doe’s expectation
of privacy.

App.41a
When performing this balancing test, the district
court “must consider all of the relevant facts of each
case.” Krakauer, ¶ 40. The Supreme Court identified
a non-comprehensive list of factors to weigh, including:
the publicity that has followed this case, the
source of the original request, the reasons
behind the request, the named student’s
status as an athlete at a publicly-funded
university, and the prior litigation, all of
which may be considered and weighted by
the District Court when conducting the
balancing test.

Krakauer, ¶ 40.
Here, weighing favorably in Doe’s right to privacy
is his enhanced privacy interest in his student records.
On the other hand, a variety of factors weigh against
Doe’s right to privacy and in favor of the public’s
right to know. First, Doe’s status as a high-profile
student athlete weighs against his right to privacy.
Prior to the commencement of disciplinary proceedings
and criminal litigation against him, Doe was a wellknown individual in Montana and enjoyed a position
of prominence and popularity by virtue of his athletic
position. Second, the University of Montana is a public
institution, and Doe, while not a paid athlete, receives
valuable consideration for his skills in the form of an
athletic scholarship. Although he is not a public
official or university employee, Doe is a public representative of the University of Montana. Third, the
details of Doe’s alleged bad acts have been publicly
aired through national and local media coverage, a
publicly held criminal trial, and a nationally bestselling
book. Fourth, the public has a compelling interest in

App.42a
understanding the disciplinary procedures employed
by a state university, especially where the student in
question is a prominent and popular campus figure
whose education is paid for in part by public funds.
When taking these factors into consideration, this
Court cannot conclude that Doe’s privacy interest
“clearly exceeds the merits of public disclosure,” as
contemplated by Article II, section 9, of the Montana
Constitution.
ORDER
IT IS HEREBY ORDERED:
1. The Commissioner is directed to redact all
personally identifying student information from the
following documents:
From the disc entitled “OCHE Record”:


All files in folder #4 “Exhibits to Appeal Before
Commissioner.”



All files in folder #5 “Submissions of Parties on
Appeal before Commissioner”



All files in folder #6 “Counsel’s Responses to
Questions Posed by Commissioner”



All files in folder #7 “Commissioner’s Decision
on Appeal.

From the disc entitled “Remand Record”:


All files on disc.

This Court emphasizes that, when redacting information in these records, “[e]very precaution should
be taken to protect the personal information of third
party students.” Krakauer, ¶ 39.

App.43a
2. After preparing the files, the Commissioner is
directed to deliver the files to the Court for a final
review before release.
Furthermore, as the Supreme Court noted, “the
exception to FERPA that allows for release of documents pursuant to a court order requires advance
notice to the affected student or parents, and a district
court must comply with this directive before releasing
protected information.” Krakauer, ¶ 42. Following
the Court’s review of the redacted documents, but
prior to their release, the Commissioner is directed to
comply with the requirements of 20 U.S.C.S.
§ 1232g(b)(2)(B), and provide notice of this order to
Doe and Doe’s parents.
DATED this 19th day of October 2017.
/s/ Mike Menahan
District Court Judge
pc: Peter Michael Meloy,
PO Box 1241,
Helena MT 59624
Vivian V. Hammill/Helen C. Thigpen,
Montana University System,
Helena MT 59620-3201
David R. Paoli,
PO Box 8131,
Missoula MT 59802

App.44a
OPINION OF THE MONTANA SUPREME COURT
KRAKAUER V. STATE, 384 MONT. 527,
381 P.3D 524 (2016) (KRAKAUER I )
SUPREME COURT OF MONTANA
________________________
JON KRAKAUER,

Petitioner
and Appellee,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

Respondent
and Appellant,

________________________
No. DA-15-0502

Appeal from the District Court of the
First Judicial District, in and for the County of
Lewis and Clark, Cause No. CDV-2014-117
Honorable Kathy Seeley, Presiding Judge
Before: Jim RICE, Mike McGRATH, Beth BAKER,
James JEREMIAH SHEA, Michael E. WHEAT,
Justices., John C. BROWN, District Court Judge
Sitting for Justice Patricia COTTER.
Opinion by: JIM RICE

App.45a
¶ 1 The Commissioner of Higher Education,
Clayton Christian (Commissioner), challenges the
summary judgment order entered by the First Judicial
District Court, Lewis and Clark County, in favor of
Petitioner Jon Krakauer (Krakauer), which ordered
the release/inspection of certain student disciplinary
records. We affirm in part, reverse in part, and remand
for further proceedings. The Commissioner raises
several issues, which we restate as follows:
1.

Does Krakauer, a Colorado resident, have
standing to avail himself of the right to
know granted under Article II, Section 9 of
the Montana Constitution?

2.

Is the release of records responsive to Krakauer’s request prohibited by the Family
Educational Rights and Privacy Act of 1974
(FERPA), as amended, and/or by § 20-25515, MCA?

3.

How does Article II, Section 9 of the Montana Constitution apply to the request for
release of the subject student records?

4.

Did the District Court abuse its discretion
when it awarded attorney fees and costs to
Krakauer?

Because we remand for further proceedings, we do not
address the merits of the attorney fee issue. We vacate
the fee award so that the matter may be reconsidered
upon conclusion of the proceeding.
Procedural and Factual Background
¶ 2 This is a dispute over release of student
records related to allegations of sexual assault occurring

App.46a
near the Missoula campus of the University of Montana
(University). The underlying allegations of the case
were part of a broader campus cultural concern that
garnered local and national media attention. Krakauer,
a journalist and resident of Colorado, conducted an
investigation and published a book chronicling instances
of alleged sexual misconduct on or near the University
campus. This case involves one of those instances.
When Krakauer’s request for release of certain student
records related to the matter was denied by the Commissioner, Krakauer initiated this action by filing a
petition in the First Judicial District Court.
¶ 3 In support of his petition, Krakauer submitted documents that the United States District Court
for the District of Montana had previously unsealed and
released. Doe v. Univ. of Mont., No. CV 12-77-MDLC, 2012 U.S. Dist. LEXIS 88519 (D. Mont. June
26, 2012), available at https://perma.cc/3RRE-ETXB.1
There, a student (Doe) initiated the action under seal,
seeking a preliminary injunction halting the University’s disciplinary proceedings against him. The documents, now part of the record here, indicate that
after a female student made an allegation that Doe
had raped her in an off-campus apartment, the University initiated an investigation into a possible violation of the Student Conduct Code. Dean of Students
Charles Couture determined that Doe committed
sexual intercourse without consent, and as sanctions,
recommended Doe’s immediate expulsion from the
1 The United States District Court ordered that the documents,
including the letters and findings of the Dean, the University
Court, and University President Royce Engstrom, would have
students’ names, personal information, and pertinent dates
redacted.

App.47a
University and restriction from all University property and University-sponsored events. Doe, represented by counsel, appealed the Dean’s determination to the University Court, a body made up of
faculty, staff, and students appointed to hear disciplinary matters.
¶ 4 The University Court conducted a hearing and
concluded by a 5-2 vote that Doe had committed
sexual intercourse without consent, and further
concluded by a unanimous vote of 7-0 that he should
be sanctioned by expulsion from the University. Pursuant to the Student Conduct Code, Doe requested
that the University Court’s determination be reviewed
by President Engstrom. President Engstrom’s review
considered whether the evidence provided a reasonable basis for the findings and disciplinary sanction,
and whether procedural errors were so substantial as
to deny a fair hearing to either party. President
Engstrom upheld the University Court’s findings and
proposed sanction, and found no procedural error
that denied a fair hearing.
¶ 5 As the final step in the disciplinary appeal
process, Doe appealed President Engstrom’s decision
to the Commissioner, whose office acknowledged receipt
of the appeal. This is the last step in the process documented in the records released by the U.S. District
Court in Doe. Nothing more is documented there or
in the record here about the Commissioner’s subsequent
actions in the case.
¶ 6 Krakauer filed a request with the Commissioner’s office on January 17, 2014, naming a particular student and asking for “the opportunity to inspect
or obtain copies of public records that concern the
actions of the Office of the Commissioner of Higher

App.48a
Education in July and August 2012 regarding the ruling
by the University Court of the University of Montana
in which student . . . was found guilty of rape and
was ordered expelled from the University.” Krakauer
asserted factual connections between the federal Doe
case and a highly-publicized state criminal proceeding
that had been initiated against the then-starting
quarterback of the University’s football team. He
maintained that the student Doe and the quarterback
were the same person, and his request to the Commissioner named the student specifically. Krakauer
postulated that the Commissioner must have overturned the University Court’s and President Engstrom’s
decision and sanction of expulsion, noting that the
student had “remained in school and continued to participate as the Grizzly quarterback.”
¶ 7 The Commissioner refused to acknowledge
that such records existed, and further refused to
permit inspection or release of any such documents,
asserting that federal and state law prevent him
from doing so. Krakauer initiated this action on February 12, 2014, citing the right to know under the
Montana Constitution. Upon cross-motions for summary judgment, and after holding a hearing, the District Court granted summary judgment to Krakauer,
and ordered the Commissioner to “make available for
inspection and/or copying within 21 days” the requested
records, with students’ names, birthdates, social
security numbers, and other identifying information
redacted.
¶ 8 The Commissioner appealed and we initially
dismissed the case without prejudice, as the District
Court had not yet entered an order addressing the
attorney fee issue. The District Court awarded fees to

App.49a
Krakauer on June 19, 2015, and the Commissioner
again undertook an appeal.
Standards of Review
¶ 9 “We conduct de novo review of summaryjudgment orders, performing the same analysis as does
a district court pursuant to Rule 56 of the Montana
Rules of Civil Procedure.” Lorang v. Fortis Ins. Co.,
2008 MT 252, ¶ 36, 345 Mont. 12, 192 P.3d 186 (citing
LaTray v. City of Havre, 2000 MT 119, ¶ 14, 299 Mont.
449, 999 P.2d 1010).
¶ 10 Substantively, Krakauer’s Petition was
based upon the constitutional right to know, and the
Commissioner likewise raises constitutional issues.
“Our review of questions involving constitutional law
is plenary. A district court’s resolution of an issue
involving a question of constitutional law is a conclusion
of law which we review to determine whether the
conclusion is correct.” Bryan v. Yellowstone Cnty.
Elementary Sch. Dist. No. 2, 2002 MT 264, ¶ 16, 312
Mont. 257, 60 P.3d 381 (internal citation omitted)
(citing Schuff v. A.T. Klemens & Son, 2000 MT 357,
¶ 28, 303 Mont. 274, 16 P.3d 1002).
Discussion
¶ 11 1. Does Krakauer, a Colorado resident, have
standing to avail himself of the right to know granted
under Article II, Section 9 of the Montana Constitution?
¶ 12 The Commissioner argues that Krakauer,
as a resident of Colorado, does not have standing to
pursue his Petition, because he is not a party intended
to benefit from the Montana Constitutional right to

App.50a
know provision, and related statutes. The Commissioner argues this privilege was created and enacted
for the sole benefit of Montana citizens, to allow
them access to the workings of their own government.
¶ 13 In Schoof v. Nesbit, 2014 MT 6, 373 Mont.
226, 316 P.3d 831, we clarified the standing requirements, and more specifically the required showing
for injury, under Article II, Section 9 of the Montana
Constitution. After doing so for purposes of that case,
we noted, “It is not appropriate in this case to
address the parameters of standing for right to know
and right of participation claims that may arise in
other contexts.” Schoof, ¶ 25. Later the same year,
we addressed another standing argument related to
Article II, Section 9 of the Montana Constitution, in
Shockley v. Cascade Cnty., 2014 MT 281, 376 Mont.
493, 336 P.3d 375. There, we held that the Montana
Constitution does not prohibit a citizen of one Montana
county from requesting public documents from a public
body in another county. Shockley, ¶ 22. We declined
to address “the question of whether standing extends
beyond Montana citizens[.]” Shockley, ¶ 23. That
question arises here.
¶ 14 Article II, Section 9 of the Montana Constitution is short and clear. “No person shall be deprived
of the right to examine documents or to observe the
deliberations of all public bodies or agencies of state
government and its subdivisions, except in cases in
which the demand of individual privacy clearly exceeds
the merits of public disclosure.” The Commissioner
asks this Court to consider that, while the actual constitutional language uses the word “person,” the
enabling statutes use the word “citizen” in describing

App.51a
the persons having the right to inspect public documents. Compare § 2-6-102, MCA (2013) (“Every citizen
has a right to inspect and take a copy of any public
writings of this state. . . . ”) (repealed 2015), and 2015
Mont. Laws 1484, 1486 (effective date Oct. 1, 2015)
(“Except as provided in subsections (2) and (3), every
person has a right to examine and obtain a copy of
any public information of this state.”). The Commissioner also cites to the use of the word “citizen” in
transcripts of debates about the issue during the
Montana Constitutional Convention.
¶ 15 As we have previously stated, Article II,
Section 9 of the Montana Constitution is “unambiguous
and capable of interpretation from the language of
the provision alone.” Great Falls Tribune Co. v. Day,
1998 MT 133, ¶ 30, 289 Mont. 155, 959 P.2d 508 (citing

Great Falls Tribune v. District Court of Eighth Judicial
Dist., 186 Mont. 433, 437, 608 P.2d 116, 119 (1980)).
We have also stated that the provision is “unique,
clear and unequivocal,” and that “[w]e are precluded,
by general principles of constitutional construction,
from resorting to extrinsic methods of interpretation.”2

2 The Commissioner correctly points out that we noted the language of the Constitutional Convention in Shockley, ¶ 20. However, we cited to the Verbatim Transcript in order to illustrate
the general goal of Article II, Section 9 of the Montana Constitution—namely, government transparency and accountability.
While the quotes we cited were illustrative of the general purpose of the provision, resorting to these extrinsic sources was
unnecessary for interpretation. Because the constitutional
convention delegates ultimately used the word “person” when
describing the right to know, and in light of the amended
wording of the open record statutory scheme (referenced above),
which now also uses the term “person,” we are not persuaded by
the Commissioner’s argument.

App.52a

Associated Press v. Bd. of Pub. Educ., 246 Mont. 386,

391, 804 P.2d 376, 379 (1991). We thus rely on the
language of the provision itself, which expressly provides that “no person” shall be deprived of the right to
examine documents or observe the deliberations of
public bodies, except when required by the demands
of individual privacy.
¶ 16 “Since the alleged injury is premised on the
violation of constitutional and statutory rights, standing depends on ‘whether the constitutional or statutory
provision . . . can be understood as granting persons
in the plaintiff’s position a right to judicial relief.’”
Schoof, ¶ 21 (citing Warth v. Seldin, 422 U.S. 490,
500, 95 S. Ct. 2197, 2206 (1975)). Therefore, under
the plain language of the provision, we hold that
Krakauer, though an out-of-state resident, has standing to invoke the right to know guarantees under
Article II, Section 9 of the Montana Constitution.3
¶ 17 2. Is the release of records responsive to
Krakauer’s request prohibited by the Family Educational Rights and Privacy Act of 1974 (FERPA), as
amended, and/or by § 20-25-515, MCA?
¶ 18 The Commissioner contends that because
Krakauer’s records request referenced a student by
name, FERPA prohibits his office from releasing any
records responsive to Krakauer’s request. The Com3 The standing of an out-of-state resident has not previously been
presented to the Court as a contested legal issue, but, as a practical
matter, out-of-state corporate residents have often availed
themselves of the rights under Article II, Section 9 of the Montana
Constitution. See, e.g., Associated Press, Inc., a New York notfor-profit corporation registered to do business in Montana v.
Mont. Dep’t of Revenue, 2000 MT 160, 300 Mont. 233, 4 P.3d 5.

App.53a
missioner argues that § 20-25-515, MCA, likewise prohibits him from releasing the requested records.
Krakauer responds that FERPA is essentially spending
clause legislation that does not actually prohibit the
University or the Commissioner from releasing records,
that one of the explicit exceptions to FERPA’s general
prohibition on the release of student records applies
in this context, and that § 20-25-515, MCA, actually
permits the release of the requested records.
a.

General Applicability of FERPA

¶ 19 Krakauer argues that FERPA “simply does
not prohibit anything”; it merely conditions federal
funding on confidentiality compliance. He cites to Bd.
of Trs. v. Cut Bank Pioneer Press, 2007 MT 115, ¶ 24,
337 Mont. 229, 160 P.3d 482, where we stated that
FERPA has been described as “spending legislation.”
Krakauer contends that the Commissioner’s fear of
losing federal funding is “wholly speculative,” and
points out that, in its amicus brief, the United States
has conspicuously refrained from “any claim or assertion that . . . the [Montana University System] will
suffer any penalty” if it releases the requested documents. Krakauer asserts that “FERPA’s spending legislation merely sets conditions on the receipt of federal
funds and cannot forbid or prohibit any state action.”
¶ 20 Congress enacted FERPA to “protect the
privacy of students and their parents.” Pioneer Press,
¶ 24; see also 34 C.F.R. § 99.2 (“The purpose of this
part is to set out requirements for the protection of
privacy of parents and students. . . . ”). FERPA prohibits
educational institutions and agencies from having a
policy or practice of releasing education records or
personally identifiable information contained in edu-

App.54a
cation records, and conditions receipt of federal monies
on those institutions’ compliance with its directives.
See 20 U.S.C. § 1232g. The University, as a recipient
of federal funds, agreed in its Program Participation
Agreement to comply with “The Family Educational
Rights and Privacy Act of 1974 and the implementing
regulations . . . [,]” and thereby assumed the risk the
Secretary of Education would withhold future funds
in the event of substantial non-compliance. See 20
U.S.C. § 1234c(a)(1).
¶ 21 Krakauer is seeking records related to a
specific student’s disciplinary proceedings, and the
Commissioner argues that Krakauer’s particular
request fell squarely under FERPA’s prohibitions. The
Commissioner offers that another kind of request
would have been handled differently by his office: “If
Krakauer had wanted an understanding of how the
Commissioner’s office handles appeals related to
student conduct code complaints . . . , he could have
requested all decisions resolving complaints for some
appropriate specified period of time, and he would
have received the Commissioner’s decisions for a
variety of cases with the names, dates and any other
personally identifiable information redacted.”
¶ 22 Title 20, Section 1232g(a)(4)(A) of U.S. Code
provides: “For the purposes of this section, the term
‘education records’ means, . . . , those records, files, documents, and other materials which—(i) contain information directly related to a student; and (ii) are
maintained by an educational agency or institution
or by a person acting for such agency or institution.”
(Emphasis added.) In Pioneer Press, ¶ 27, we noted
that several jurisdictions had interpreted the term
“education records” to exclude disciplinary records.

App.55a
However, since that decision, as the Commissioner
and amicus United States point out, not only have
FERPA regulations been broadened, but courts have
recognized that disciplinary records constitute “education records” under FERPA. See State ex rel.
ESPN, Inc. v. Ohio State Univ., 970 N.E.2d 939, 94647 (Ohio 2012) (“we agree with the Sixth Circuit and
hold that the [student disciplinary] records here generally constitute ‘education records’ subject to
FERPA . . . . The records here—insofar as they contain
information identifying student-athletes—are directly
related to the students”).4 FERPA regulations also
now confirm that disciplinary records fall within the
purview of the Act, authorizing limited, non-consensual
release of student disciplinary records in certain circumstances. See, e.g., 34 C.F.R. § 99.31(a)(13) & (14).
Based upon the understanding that the term “education records” encompasses disciplinary records, the
Commissioner correctly asserted that the records at
issue here fall under the application of FERPA.
¶ 23 It is also apparent to us that the Commissioner, as Chief Executive Officer of the Montana
University System (MUS), was properly cognizant of
the heavy strings that FERPA attached to the MUS’
federal funding. Although FERPA has been characterized as “spending legislation,” we find Krakauer’s
argument that it “prohibits nothing” delusive. FERPA
4 We distinguished such holdings in Pioneer Press on the ground
that releasing records with all personally identifiable information
redacted would not violate FERPA. Pioneer Press, ¶ 31. However,
Krakauer’s request listed a specific student by name, thus requiring the Commissioner’s office to necessarily release personally
identifying information regarding the student. See 34 C.F.R.
§ 99.3 (see “Personally Identifiable Information” at (g)).

App.56a
is more than mere words in the wind. As outlined
above, the University, a unit of the MUS, promised to
abide by FERPA’s directives in exchange for federal
funding. By signing the Program Participation
Agreement, the University acknowledged the potential
consequence of loss of federal funding in the event
that it violated FERPA. See United States v. Miami
Univ., 294 F.3d 797, 808 (6th Cir. 2002) (“Even in the
absence of statutory authority, the United States has
the inherent power to sue to enforce conditions
imposed on the recipients of federal grants. ‘Legislation enacted pursuant to the spending power [, like
the FERPA,] is much in the nature of a contract: in
return for federal funds, the States agree to comply
with federally imposed conditions.’”) (citing Pennhurst
State Sch. & Hosp. v. Halderman, 451 U.S. 1, 101 S.
Ct. 1531 (1981)). Whether or not FERPA explicitly
prohibits state action, the financial risk it imposes
upon MUS for violation of the statute is a real one.
As the Commissioner stated, “The MUS should not be
put in the position of predicting what decisions might
be made by the federal government.”
b.

Applicability of FERPA to the Subject Documents

¶ 24 FERPA prohibits institutions from having
a “‘policy or practice of permitting the release of education records (or personally identifiable information
contained therein . . . ) of students without the written
consent of the students or their parents.’” Miami
Univ., 294 F.3d at 806 (internal brackets omitted)
(citing 20 U.S.C. § 1232g(b)(1)). The regulation defines
“Personally Identifiable Information” to include information such as a student’s name, family names, date
of birth, or “other information that, alone or in
combination, is linked or linkable to a specific student

App.57a
that would allow a reasonable person . . . to identify the
student with reasonable certainty[.]” 34 C.F.R. § 99.3
(see “Personally Identifiable Information” at (a)–(f)).
Since our decision in Pioneer Press, this definition
has been expanded to include “[i]nformation requested
by a person who the educational agency or institution
reasonably believes knows the identity of the student
to whom the education record relates.” 34 C.F.R.
§ 99.3 (see “Personally Identifiable Information” at
(g)). The records in question facially fall within the
restrictions of FERPA, and the Commissioner rightly
considered FERPA’s requirements in determining
whether to release them. As noted by amicus United
States, “[W]here a request targets education records
relating to a particular student, identified by name,
FERPA’s protections unquestionably apply.” Under
these provisions, had the Commissioner released the
documents that Krakauer originally requested, using
the specific student’s name, he would have violated
the statute. FERPA and its accompanying regulatory
scheme, including its expanded definition of “Personally
Identifiable Information,” prohibited the unilateral
release of the requested documents by the Commissioner, as Krakauer clearly knew the identity of the
student that he named specifically in his request.
c.

Exceptions Permitting Release Under FERPA

¶ 25 While FERPA generally prohibits the release
of student educational records and personally identifiable information in those records, the records do not
necessarily recede into the recesses of Chateau d’If,
never to see the light of day. FERPA contains several
non-consensual exceptions that permit an institution
to release educational records. See, e.g., 20 U.S.C.
§ 1232g(b)(1)(c); 20 U.S.C. § 1232g(b)(3).

App.58a
¶ 26 Krakauer argues that the requested records
must be made available under the exception that provides for release of the final results of a disciplinary
proceeding “if the institution determines as a result
of that disciplinary proceeding that the student committed a violation of the institution’s rules or policies
with respect to such crime or offense.” 20 U.S.C.
§ 1232g(b)(6)(B).5 He argues that the exception
“explicitly authorizes disclosure of records related to
the Commissioner’s decision since it is, undisputedly,
the ‘final result’ of the [MUS]’s disciplinary proceeding against [the named student].” The information
permitted to be released under this exception is
limited, as “final results” include “only the name of
the student, the violation committed, and any sanction
imposed by the institution on that student[,]” and
other information, including “the name of any other
student, such as a victim or witness,” can only be
released upon the written consent of those other
persons. 20 U.S.C. § 1232g(b)(6)(C)(i)-(ii). As noted by
the Commissioner, this narrow exception permits
release of limited information about “a violation” of
certain University rules, and the sanction imposed.
Thus, if no violation was found to have occurred, this
exception, by its own terms, would not apply. The
record before us here does not indicate whether the
Commissioner ultimately held that a violation occurred,
and thus, we are unable to now determine whether
this exception authorized release of limited information related to Krakauer’s request. However, upon
remand and after conducting an in camera review of
the records, the District Court may consider the
5 The District Court did not rule on the applicability of this
exception.

App.59a
applicability of this exception along with the other
considerations set forth below.
¶ 27 Additionally, FERPA authorizes release of
personally identifiable information in education records
when “such information is furnished in compliance
with judicial order, or pursuant to any lawfully issued
subpoena, upon condition that parents and the students
are notified6 of all such orders or subpoenas. . . . ” 20
U.S.C. § 1232g(b)(2)(B); 34 C.F.R. § 99.31(a)(9)(i). This
exception broadly permits release of personally identifiable information pursuant to a “judicial order, or
pursuant to any lawfully issued subpoena,” neither
restricting the orders to those issued by particular,
such as federal, courts nor limiting the legal basis or
grounds for release of the records. 20 U.S.C. § 1232g
(b)(2)(B) FERPA thus generally authorizes the release
of records upon orders from courts acting properly
within their jurisdiction. Krakauer’s petition sought
an order pursuant to this exception.
d.

Section 20-25-515, MCA

¶ 28 Notably, Montana law operates similarly
to FERPA. Chapter 357, Laws of Montana (1973),
was entitled “An Act Requiring Montana Colleges
6 The federal statute and corresponding regulation both require
that such notice would be given to the student or parent in advance
of the issuance of any subpoena or court order that might release
such documents. Even if, as in this case, the subject student is not a
party to the lawsuit, an opportunity is provided for the student
(or parents) to be heard before such records are released. “The
educational agency or institution may disclose information . . . only
if the agency or institution makes a reasonable effort to notify
the parent or eligible student of the order or subpoena in advance
of compliance, so that the parent or eligible student may seek protective action. . . . ” 34 C.F.R. § 99.31(a)(9)(ii).

App.60a
and Universities to Develop Procedures to Protect a
Student’s Right to Privacy Concerning . . . His College
or University Records,” and stated it was “the
legislature’s intent that an institution of the university
system of Montana is obligated to respect a student’s
right to privacy” in the student’s records. 1973 Mont.
Laws 706. As codified from that 1973 Act, § 20-25515, MCA, states:
A university or college shall release a
student’s academic record only when requested by the student or by a subpoena issued
by a court or tribunal of competent jurisdiction. A student’s written permission must be
obtained before the university or college
may release any other kind of record unless
such record shall have been subpoenaed by
a court or tribunal of competent jurisdiction.7
State law thus also prohibits disclosure of student
records, but, similar to FERPA, permits release when
“subpoenaed by a court or tribunal of competent
jurisdiction.” Section 2025-515, MCA.
¶ 29 Krakauer argues that § 20-25-515, MCA,
“does not condition a university’s disclosure of student
records on a court order. It merely requires a subpoena,
which in Montana can be effectuated at any time by
an issuing party’s counsel of record.” The Commissioner
replies that, under Krakauer’s interpretation, the
statute would have no meaning because “a party would
only need to file a lawsuit and request the records
through subpoena,” and, in any event, the District
Court did not issue a subpoena here.
7 Section 20-25-516(1), MCA, also requires that academic records
“be kept separate from disciplinary and all other records.”

App.61a
¶ 30 The District Court ordered the records be
made available for inspection in its Memorandum and
Order, not by a subpoena. Answering the Commissioner’s argument, a reading of the statute as enacted
in 1973 makes it clear that the Legislature intended
student records would be subject to release following
legal process conducted “by a court or tribunal of competent jurisdiction,” and did not intend to restrict
that legal process exclusively to the issuance of a
“subpoena,” the purpose of which is to compel a
person’s attendance in a court or proceeding. See
§ 26-2-102, MCA. The statute is satisfied by the
issuance of a court order upon completion of that
legal process. Answering Krakauer’s argument, merely
filing a lawsuit and requesting a records subpoena
without a court’s consideration of a student’s privacy
interests would fail to satisfy the statute’s requirements that student privacy be protected and that
release of records be prohibited until a court or
tribunal conducts that legal process. In Montana, the
law regarding a student’s privacy is governed by the
Montana Constitution, by which a student’s right to
privacy in his or her records is balanced against the
public’s right to know and obtain the records. That
process must be completed before requested records
can be released pursuant to the applicable judicial
exceptions in FERPA and § 20-25-515, MCA.
¶ 31 3. How does Article II, Section 9 of the
Montana Constitution apply to the request for release
of the subject student records?
¶ 32 The Commissioner challenges the District
Court’s determination that the student records at
issue should be released, arguing that the court
“incorrectly shifted the balance between the right to

App.62a
privacy and the right to know in favor of Krakauer
and his book deal and against the well-established
privacy rights of the student named in his request[.]”
In response, Krakauer argues that the public’s right
to know outweighs the privacy expectation in the
records here because the specific student at issue has
a diminished expectation of privacy, which the District
Court correctly determined.
¶ 33 The District Court emphasized the public
exposure of the events in question, noting that “the
entire incident, from the initial administrative investigation to the conclusion of the criminal trial, is a
matter of public record. The only aspect of the
lengthy process that is not a matter of public record
is the action taken by the Commissioner.” Citing
approvingly of the U.S. District Court’s reasoning in
Doe that “while there may be good reasons to keep
secret the names of students involved in a University
disciplinary proceeding, the Court can conceive of no
compelling justification to keep secret the manner in
which the University deals with those students,” the
District Court determined that the subject student
“does not have a reasonable expectation of privacy
regarding the redacted records of the Commissioner,”
and therefore ruled that the merits of public disclosure
outweighed “the individual privacy rights of the student
in this case.” The court did not conduct an in camera
review of the records, but broadly ordered the Commissioner “to make available for inspection and/or
copying” to Krakauer the records responsive to his
request, subject to redaction of student identification
information, presumably to be accomplished by the
Commissioner.

App.63a
¶ 34 Our concerns over the principles applied by
the District Court in the constitutional balancing
process, as well as the unique considerations under
the federal and state law applicable to student records,
compel us to reverse the District Court’s order and to
remand this matter with instructions to the District
Court to conduct an in camera review of the requested
records, and to re-apply the constitutional balancing
test to those records in accordance with the following
analysis of the interests here at issue.
¶ 35 Article II, Section 9 of the Montana Constitution provides that “[n]o person shall be deprived of
the right to examine documents . . . of all public
bodies or agencies of state government and its
subdivisions, except in cases in which the demand of
individual privacy clearly exceeds the merits of public
disclosure.” As we have explained, “[t]his constitutional
provision generally requires information regarding
state government to be disclosed to the public, except
in cases where the demand of individual privacy clearly
exceeds the merits of public disclosure.” Associated
Press, Inc., ¶ 24. Indeed, “our constitution gives a
high priority to the public’s right to know.” Lence v.
Hagadone Inv. Co., 258 Mont. 433, 447, 853 P.2d 1230,
1239 (1993), overruled on separate grounds by Sacco
v. High Country Indep. Press, 271 Mont. 209, 896 P.2d
411 (1995). Krakauer asserts an interest in the process
that the Commissioner employed in reviewing the
student’s appeal and points out: “It cannot be denied
that the entire rape culture at the University, and
universities in general, has become one of increasing
public import and concern[,]” and “The University’s
compliance with its Title IX obligations is also one of
public import and interest.” We acknowledge that

App.64a
Krakauer’s interest in the MUS’ policies in responding
to and handling complaints of alleged sexual assault
are important matters of concern to the public.
¶ 36 However, as the District Court correctly
noted, “[T]he right to know is not absolute. It requires
a balancing of the competing constitutional interests
in the context of the facts of each case, to determine
whether the demands of individual privacy clearly
exceed the merits of public disclosure.” Associated
Press, Inc., ¶ 24 (bold in original) (citations and internal quotation marks omitted). Pursuant to the Montana
Constitution, we have established a two-part test in
order to strike a balance between the needs for government transparency and individual privacy: (1)
“whether the person involved had a subjective or actual
expectation of privacy[,]” and (2) “whether society is
willing to recognize that expectation as reasonable.”
Great Falls Tribune Co. v. Day, 1998 MT 133, ¶ 20,
289 Mont. 155, 959 P.2d 508 (citation omitted).
¶ 37 In the context of this particular case, as
discussed above, the national and state legislatures
have taken the affirmative action of enacting legislation
establishing the privacy interests of students in their
records, as a matter of law. This action sets this case
apart from others involving general privacy interests,
and courts must honor the unique privacy protection
legislatively cloaked around the subject records by
factoring that enhanced privacy interest into the
balancing test.8 We have implicitly recognized this
8 We have previously recognized enhanced or reduced privacy
interests as part of the determination of whether society would
recognize the privacy interest as reasonable, depending on the
circumstances. See Great Falls Tribune Co. v. Cascade Cnty.
Sheriff, 238 Mont. 103, 107, 775 P.2d 1267, 1269 (1989) (“[L]aw

App.65a
interest in the past, Pioneer Press, ¶ 36, and since
then, as noted above, stricter FERPA regulations have
been adopted. We cite, merely for illustrative purposes
because it does not contemplate Montana law, the
phrasing of the increased burden that must be shown
by a petitioner in order to access protected student
records, provided by the United States District Court
for the Middle District of Pennsylvania:
When a third-party seeks disclosure of education records covered by FERPA, the trial
judge, in exercise of discretion, must conduct
a balancing test in which the privacy interests
of the students are weighed against the
genuine need of the party requesting the information. While FERPA does not create a
privilege, it does represent the strong public
policy of protecting the privacy of student
records. Courts balance the potential harm
to the privacy interests of students with the
importance and relevance of the sought information to resolving the claims before the
court.

enforcement officers occupy positions of great public trust.
Whatever privacy interest the officers have in the release of
their names as having been disciplined, it is not one which
society recognizes as a strong right.”); Billings Gazette v. City of
Billings, 2013 MT 334, ¶ 49, 372 Mont. 409, 313 P.3d 129
(“Where the status of the employee necessitates a high level of
public trust, such as an elected official or high level employee,
the expectation of privacy in misconduct may be found to be
significantly lower than for an administrative employee.
Similarly, an employee may have a lower expectation of privacy
in misconduct related to a duty of public trust, such as responsibility for spending public money or educating children.”).

App.66a

Moeck v. Pleasant Valley Sch. Dist., No. 3:13-CV-1305,

2014 U.S. Dist. LEXIS 142431, at *6-7 (M.D. Pa. Oct.
7, 2014) (internal citations omitted) (emphasis added).
This enhanced privacy interest must be considered
and factored into the constitutional balancing test on
remand.
¶ 38 The District Court should not have concluded, without noting the unique facts here, that the
student at issue “does not have a reasonable expectation of privacy regarding the redacted records of
the Commissioner,” in reliance on Doe. The U.S. District Court in Doe was not presented, as here, with a
records request explicitly identifying a particular
student. Rather, the Doe case involved an unnamed
litigant. While redaction may have served to protect
the privacy interest of the unnamed litigant in Doe,
and may well provide a privacy safety net in many
situations, redaction of records provided in response
to a request about a particular student may well be
completely futile. As amicus United States points out,
“when an educational institution is asked to disclose
education records about a particular person, then no
amount of redaction in [the] records themselves will
protect the person’s identity, because the requestor
knows exactly whom the records are about.” Obviously,
records provided in response to a request naming a
particular student will be about that student, whether
redacted or not, and thus, there is more of machination
than of cooperation in Krakauer’s offer, repeated at
oral argument, to accept redacted records in response
to his request. Consequently, on remand, the District
Court must consider whether the futility of redaction
affects the privacy analysis and the ultimate determination about what records can be released, if any.

App.67a
¶ 39 We have recognized the efficacy of an in
camera review of requested records by a district court
to ensure that privacy interests are protected. Billings
Gazette, ¶ 42; Jefferson Cnty. v. Mont. Standard,
2003 MT 304, ¶ 19, 318 Mont. 173, 79 P.3d 805 (“it is
proper for a district court to conduct such an in
camera inspection in order to balance the privacy
rights of all of the individuals involved in the case
against the public’s right to know.”). As these cases
note, in camera review is particularly appropriate
when the interests of third parties are involved. As
the Commissioner stated at oral argument, the
requested records could also include information
pertaining to student members of the University Court,
the victim, and other University students who acted
as witnesses in the multiple-step process, and counsel
hinted that the records are extensive. On remand,
the District Court should review the requested documents in camera, and in the event it determines to
release any document after conducting the balancing
test, every precaution should be taken to protect the
personal information about other persons contained
in the documents.
¶ 40. We have stated that, when conducting the
balancing test, a district court must consider all of
the relevant facts of each case. See Associated Press,
Inc., ¶ 24 (“It requires a balancing of the competing
constitutional interests in the context of the facts of
each case, to determine whether the demands of individual privacy clearly exceed the merits of public disclosure.”). Both parties argue at great length about
various factors at issue here, such as the publicity that
has followed this case, the source of the original
request, the reasons behind the request, the named

App.68a
student’s status as an athlete at a publicly-funded
university, and the prior litigation, all of which may
be considered and weighted by the District Court when
conducting the balancing test. We decline to address
these issues individually in favor of the District
Court’s application of the balancing test on remand.
¶ 41 Finally, the Commissioner argues that an
order by the District Court requiring release of documents pursuant to Krakauer’s request would “create
binding precedent” establishing a “policy or practice”
of the MUS to release personally identifiable information, in violation of FERPA. However, we disagree.
As noted in Miami University, “Once the conditions
and the funds are accepted, the school is indeed
prohibited from systematically releasing education
records without consent.” 294 F.3d at 809 (emphasis
added). A court order for release entered in one case
does not require MUS to commence systematically
releasing student records. Each case turns on its
individual facts and circumstances, assessed and
weighed through the balancing test. While court decisions do set precedent, MUS will nonetheless still
evaluate each request on the basis of its individual
facts, assessing the request in light of the precedent
that has been created by litigation. This review is not
a systematic policy or practice of releasing student
records in violation of FERPA, which provides an
exception for the release of such information “in
compliance with judicial order, or pursuant to any
lawfully issued subpoena[.]” 20 U.S.C. § 1232g(b)(2)(B).
If the MUS believes a request cannot be fulfilled
without violating FERPA and state protections, that
decision can be reviewed by the courts following the
filing of a petition by either MUS or the requestor.

App.69a
Conclusion
¶ 42 Having concluded that the records in question in this case appear to fall under the “Personally
Identifiable Information” protection granted by FERPA,
and also having concluded that FERPA and state
statute provide an exception for release of information
pursuant to a lawfully issued court order, we remand
this case to the District Court for an in camera review
of the documents in question. After giving due consideration to the unique interests at issue in this case,
as discussed herein, the District Court will re-conduct
the constitutional balancing test and determine what, if
any, documents may be released and what redactions
may be appropriate. As noted above, the exception to
FERPA that allows for release of documents pursuant to a court order requires advance notice to the
affected student or parents, and a district court must
comply with this directive before releasing protected
information. See Opinion, ¶ 27 n. 6. Because we remand
this case for further proceedings, the award of attorney
fees is vacated.
¶ 43 Reversed and remanded for further proceedings consistent with this Opinion.

App.70a
/s/ Jim Rice
We concur:
/s/ Mike McGrath
/s/ Beth Baker
/s/ James Jeremiah Shea
/s/ Michael E. Wheat
/s/ John C. Brown
District Court Judge John C. Brown sitting for Justice
Patricia Cotter

App.71a
DISSENTING OPINION OF
JUSTICE LAURIE MCKINNON
Justice Laurie McKinnon dissenting.
¶ 44 Preliminarily, I disagree with the Court’s
resolution of two smaller issues: our decision to
remand for an in camera review to determine if an
exception to nondisclosure applies pursuant to 20
U.S.C. § 1232g(b)(6)(B) and our failure to rule on the
Commissioner’s request regarding attorney fees.
¶ 45 With respect to these issues, I agree with
the Court that had the Commissioner released documents pursuant to Krakauer’s request for a specific
student’s records, the Commissioner would have
violated FERPA and its accompanying regulatory
scheme. Opinion, ¶ 24. I depart from the Court, however, in our decision to remand for a determination of
whether 20 U.S.C. § 1232g(b)(6)(B) applies, which is
part of FERPA and the regulatory scheme. Pursuant to
this provision of FERPA, a university may disclose to
the public the final results of disciplinary proceedings
against an alleged perpetrator of a crime of violence
or nonforcible sex offense, but only if the university
determines that the student violated the university’s
rules or policies with respect to the offense. The Commissioner has stated on several occasions that this
provision is inapplicable. As the Court states, “if no
violation was found to have occurred, this exception, by
its own terms, would not apply.” Opinion, ¶ 26. I
therefore would not remand for the District Court to
consider the applicability of this exception when
counsel for the Commissioner has represented, following
acknowledgment of the specific exception, the inapplicability of the subsection. Indeed, it is apparent

App.72a
that the reason Krakauer is interested in obtaining
all of the student’s records is that the Commissioner
found no violation. Further, as the Court properly
notes, this narrow exception would only permit release
of limited information related to the name of the
student, the violation committed, and any sanction
imposed by the institution. Opinion, ¶ 26. The record
already establishes that no sanctions were imposed;
the Commissioner has represented, through counsel,
that the specific exception is inapplicable; and Krakauer’s request identifies the student by name. It is
therefore pointless to remand for an in camera review
to determine whether the exception applies.
¶ 46 Montana law also prohibits the Commissioner
from releasing the student’s academic records in
response to Krakauer’s request. Section 20-25-515,
MCA, prohibits the release of a student’s records
absent consent of the student or “subpoena [issued]
by a court or tribunal of competent jurisdiction.” At
the time the Commissioner denied Krakauer’s request,
the student had not consented to the release of his
records and a subpoena or court order had not issued.
Therefore, the Commissioner correctly refused to disclose the student’s academic records in response to
Krakauer’s request. The Court nonetheless fails to
find that the Commissioner’s actions in following
both federal and state law within the context of a discretionary award of attorney fees pursuant to § 2-3221, MCA, does not warrant a conclusion that
Krakauer be responsible for his own fees and costs.
Given the conclusion reached by the Court—that the
Commissioner was required to follow FERPA and § 2025-515, MCA—I would hold that the Commissioner is
not responsible for Krakauer’s fees and costs since

App.73a

Krakauer has pursued an exception to FERPA and

Montana law. Given the context of FERPA, the federal
regulatory scheme, and Montana law, it would be unreasonable to conclude that the Commissioner should be
held responsible for Krakauer’s fees and costs.
¶ 47 A larger concern, however, is the Court’s
decision to remand these proceedings for an in camera
review by the District Court and our abbreviated
analysis of the balancing test to be employed.1 In the
context of this particular case, we have left unanswered
many of the questions raised by the parties which, in
my opinion, were incorrectly resolved as a matter of
law by the District Court. Our guidance to the District
Court is essentially that, “[t]his enhanced privacy
interest must be considered and factored into the
constitutional balancing test on remand.” Opinion,
¶ 37. In an attempt to describe “this enhanced privacy
interest,” we cite “phrasing” from another jurisdiction,
“merely for illustrative purposes,” but are unwilling
to a set forth a standard, rule, or appropriate analysis
regarding a statutorily protected enhanced privacy
interest. In my opinion, we have failed to address the
parties’ arguments. If correct legal principles and
analyses are applied by this Court while considering
the specificity of Krakauer’s request, it is not necessary
to remand these proceedings to the District Court for
an in camera review and balancing of privacy interests
and the right to know.
¶ 48 When considering the disclosure of confidential information, the constitutional right to know
1 Krakauer arguably foreclosed his opportunity for an in camera
review of the records when he represented to the District Court
and this Court that an in camera review was not necessary.

App.74a
granted by Article II, Section 9 of the Montana Constitution, must be balanced with the constitutional
right of privacy granted by Article II, Section 10 of the
Montana Constitution. We have stated that when
balancing these competing interests, a court must
perform a two-part test: (1) whether the individual
has a subjective or actual expectation of privacy; and
(2) whether society is willing to recognize that expectation as reasonable. Bozeman Daily Chronicle v.
City of Bozeman Police Dep’t., 260 Mont 218, 225,
859 P.2d 435, 439 (1993). We have on many occasions
determined that society is not willing to recognize as
reasonable the privacy interest of individuals who
hold positions of public trust when the information
sought bears on that individual’s ability to perform
public duties. See Great Falls Tribune v. Cascade Cnty.
Sheriff, 238 Mont. 103, 107, 775 P.2d 1267, 1269 (1989)
(the public’s right to know outweighed the privacy
interests of three disciplined police officers in the
public release of their names because police officers
hold positions of “great public trust”); Bozeman Daily
Chronicle, 260 Mont. at 227, 859 P.2d at 440–41
(investigative documents associated with allegations
of sexual intercourse without consent by an off-duty
police officer were proper matters for public scrutiny
because “such alleged misconduct went directly to
the police officer’s breach of his position of public
trust . . . ”); Svaldi v. Anaconda-Deer Lodge Cnty., 2005
MT 17, ¶ 31, 325 Mont. 365, 106 P.3d 548, (a public
school teacher entrusted with the care and instruction
of children held a position of public trust and therefore
the public had a right to view records from an investigation into the teacher’s abuse of students); and
Billings Gazette v. City of Billings, 2013 MT 334,
¶ 49, 372 Mont. 409, 313 P.3d 129 (“an employee may

App.75a
have a lower expectation of privacy in misconduct
related to a duty of public trust, such as responsibility for spending public money or educating children.”).
¶ 49 These cases, referred to by the Court in the
Opinion, ¶ 37, n.8, are examples of a reduced expectation of privacy—reduced because the privacy interest
is unreasonable and therefore not one that society is
willing to recognize. They are examples of how a
reduced expectation of privacy is balanced against
the right of the public to know how its public monies
are spent or its public institutions are managed.
Undisputedly public employees have no statutory
protection for their privacy rights when the information
relates to the ability of the individual to perform his
public duties. Bozeman Daily Chronicle, 260 Mont. at
226–27, 859 P.2d at 440–41. Here, in contrast, we are
applying an enhanced privacy interest, with significant
protections afforded that interest by the Montana
Legislature in Title 20, Chapter 25. In addition to
§ 20-25-515, MCA, prohibiting the release of student
records unless there is consent or a lawfully issued
subpoena, universities are prohibited from requiring
students to waive privacy rights, § 20-25-512, MCA;
students must be given written notice before university
officials may enter their rooms, § 20-25-513, MCA;
and academic transcripts may only contain information
of an academic nature, § 20-25-516, MCA. The existence
of these student privacy protections and the absence
of any applicable exception establish both the actual
expectation of privacy and the reasonableness of that
expectation. Accordingly, when the privacy rights of
the student may not be protected by redacting
“personally identifiable information” the student’s
right of privacy in school records outweighs the public’s

App.76a
right to know because that privacy interest has been
statutorily determined to be reasonable. Once we have
found an actual expectation of privacy that is reasonable, we must protect that privacy interest. See Bozeman Daily Chronicle, 260 Mont. at 228, 859 P.2d at
441. (“In this case . . . the victim of the alleged sexual
assault and the witnesses involved in the investigation have a subjective or actual expectation of privacy
which society is willing to recognize as reasonable.
Accordingly, the privacy rights of the alleged victim
and of the witnesses outweigh the public’s right to
know and must be accorded adequate protection in the
release of any of the investigative documents at
issue.”) Thus, whenever we cannot adequately protect a
recognized reasonable expectation of privacy, the
records may not be disclosed. The Court has presented
no authority to the contrary.
¶ 50 Montana law does not distinguish between
types of students. The protected interest a student
has in his education records is not diminished if the
information is already public or if there has been
publicity about an event involving the student. Information in a student disciplinary proceeding is broader
than that presented in a criminal proceeding, where
a defendant receives numerous constitutional and
statutory protections. Student education records exist
primarily to assist the university in the education of
its students. The fact that information revealed
through the evolution of a criminal proceeding may
also be duplicated within the broader student disciplinary file is irrelevant to whether the student
maintains his privacy rights in his education records.
The occurrence of a criminal proceeding, which must
be public, does not serve to strip a student’s privacy

App.77a
interests from his confidential education files. The
purposes and objectives underlying these separate
proceedings are distinct and we should articulate as
much for the trial courts. The laws protecting a
student’s education records are neither limited nor
lessened because a student has been charged with a
criminal offense or is being scrutinized by the media.
This remains true even though that student may be a
star quarterback for a Montana university, a redshirt
freshman from a small, rural Montana town, or any
other student in whom the public may have a particular
interest.
¶ 51 In agreeing with the Court that a student’s
education records enjoy “the unique privacy protection
[that is] legislatively cloaked around the subject
records,” Opinion, ¶ 37, I do not contend that a student’s
privacy right is absolute. Many proceedings in other
jurisdictions have balanced FERPA, state statutory
provisions protecting the confidentiality of student
records, and countervailing interests in disclosure See
Ragusa v. Malverne Union Free Sch. Dist., 549 F.
Supp. 2d 288, 293–94 (E.D.N.Y. 2008) (ordering the
production of relevant education records in a discrimination case); Catrone v. Miles, 160 P.3d 1204, 1210–
12 (Ariz. Ct. App. 2007) (holding that education records
could be ordered to be produced in a medical malpractice case and noting “the protections afforded to
educational records by statute do not prohibit, but
rather permit, disclosure pursuant to court order”);
Gaumond v. Trinity Repertory Co., 909 A.2d 512, 518
(R.I. 2006) (holding that FERPA does not bar the
production of relevant education records pursuant to
court order in a personal injury case). In many of
these instances, the records were relevant to litiga-

App.78a
tion that did not involve the records themselves. See
Gaumond, 909 A.2d at 518 (distinguishing prior cases
where public disclosure was sought by newspapers
and was not granted).
¶ 52 In the context of Krakauer’s request for the
specific student’s records, the student’s enhanced
privacy interest would receive no protection. As the
Court observes, “[o]bviously, records provided in
response to a request naming a particular student
will be about that student. . . . ” Opinion, ¶ 38. Here,
Krakauer requested a specific student’s records by
name, because he wanted the specific student’s
records. Had he been interested in the process by
which the Commissioner handled complaints of sexual
assault, his request would not have been specific as
to the student. Krakauer’s request of the Commissioner
was to “inspect or obtain copies of public records that
concern the actions of the Office of the Commissioner
of Higher Education in July and August 2012, regarding
the ruling by the University Court of the University
of Montana in which student [name redacted] was found
guilty of rape and expelled from the University.”
With the exception of 20 U.S.C. § 1232g(b)(6)(B),
which the Commissioner indicated was inapplicable,
state and federal privacy laws clearly prohibited the
Commissioner from disclosing the records based upon
the specificity of the request. Significant to the
resolution of these proceedings, Krakauer did not
make his request in a manner which would allow the
student’s “unique” privacy right—cloaked with legislative protection, Opinion, ¶ 37—to receive any
semblance of protection through, for example, redaction
of personally identifiable information. If Krakauer
had wanted an understanding of how the Commis-

App.79a
sioner’s office handles appeals related to the student
conduct code and, in particular, sexual assaults, he
could have requested all decisions resolving complaints for an appropriate specified period of time.
Such an interest is substantial and appropriately protected by our constitutional and statutory provisions
concerning the public’s right to know. It is undisputed
that the Commissioner would have responded to such
a request by supplying the student education records
with personally identifiable information redacted in a
manner which would have also protected the student’s
substantial privacy interest in his education records.
Thus, given the manner in which Krakauer has made
his request, any “balancing” of interests that could
include protection of the student’s enhanced privacy
interest is unobtainable. It is clear that what Krakauer
sought were particular student records for the
publication of his book. Although this Court has precedent for the disclosure of confidential records of a
particular person, those cases exist in the context of a
reduced expectation of privacy of public employees. The
student here is not a public employee, but a student
—and Montana law does not distinguish between
types of students and their expectation of privacy.
Their records are uniformly private. Disclosure here
violates not just the federal protections provided by
FERPA, but also our own law in Montana.
¶ 53 I would reverse the judgment of the District
Court. I would conclusively decide the issue of attorney fees and costs in favor of the Commissioner.
Remand for in camera review is not necessary given
the manner in which the request for records was made
and that, as a result, no protection can be accorded

App.80a
the student’s substantial and weighty privacy interests.
I would affirm on issue one.
/s/ Laurie McKinnon

App.81a

MEMORANDUM AND ORDER ON
CROSS MOTIONS FOR SUMMARY JUDGMENT
KRAKAUER V. STATE, 2014 MONT. DIST. LEXIS 33
(SEPTEMBER 12, 2014)
FIRST JUDICIAL DISTRICT COURT OF MONTANA
LEWIS AND CLARK COUNTY
________________________
JON KRAKAUER,

Petitioner,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

Respondent.

________________________
Cause No. CDV-2014-117

Before: Kathy SEELEY, District Court Judge.
MEMORANDUM AND ORDER ON
CROSS MOTIONS FOR SUMMARY JUDGMENT
Petitioner Jon Krakauer (Krakauer) filed this
lawsuit to obtain release of documents or records held
by the Office of the Commissioner of Higher Education
(Commissioner) regarding actions taken in July and
August 2012 in disciplinary proceedings conducted by

App.82a
the University of Montana against a student identified
in the parties’ briefs as Jordan Johnson.
Krakauer, a writer, alleges he is seeking research
information for a book dealing in part with the manner
in which the University of Montana and the Commissioner of Higher Education handled a sexual assault
complaint against the student. According to
Krakauer he sought the information by letter to the
Commissioner in January 2014, but the Commissioner
refused to provide it. Krakauer then filed the instant
action asserting a right of access pursuant to Article
II, § 9 of the Montana Constitution and Mont. Code
Ann. § 2-6-102. In his answer, the Commissioner avers
that Krakauer does not have standing to bring his
claim. He further contends that he is barred from
releasing the requested documents by the provisions
of the federal Family Educational Rights and Privacy
Act (FERPA), 20 U.S.C. § 1232g, and by Mont. Code
Aim. 20-25-515, which provides strictures on the release
of university student information. Finally, the Commissioner alleges Krakauer’s claims are barred by
Mont. Code Ann. § 2-9-103(1), which affords statutory protection from liability for government agents
or employees acting in an official capacity.1
Both parties have filed motions for summary
judgment which have been briefed and argued. Neither
contends that there are genuine issues of material
fact to be resolved. The Court concludes that Krakauer’s
motion should be granted and the Commissioner’s
motion denied.
1 The Commissioner asserted application of this statute as an
affirmative defense in his answer, but argued in his briefing
that it precluded an award of attorney fees.

App.83a
Standard of Review
Summary judgment is appropriate when “the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” Rule
56(c)(3), M. R. Civ. P. “All reasonable inferences that
may be drawn from the evidence must be drawn in favor
of the party opposing summary judgment.” Hopkins v.
Super. Metal Workings Sys., LLC, 2009 MT 48, ¶ 5,
349 Mont. 292, 203 P.3d 803 (citing Schmidt v. Wash.
Contractors Group, Inc., 1998 MT 194, ¶ 7, 290 Mont.
276, 964 P.2d 34).
Because the Court must consider cross-motions
for summary judgment, it is required to evaluate each
party’s motion on its own merits. “[The fact that both
parties moved for summary judgment does not establish
the absence of genuine issues of material fact. We
must evaluate each motion on its own merits and take
care in each instance to draw all reasonable inferences
against the party whose motion is under consideration.”
Steadele v. Colony Ins. Co., 2011 MT 208, ¶ 14, 361
Mont. 459, 260 P.3d 145 (other citations omitted).
Discussion
1.

Standing

The Commissioner contends that because Krakauer is a resident of Colorado and not a Montana
citizen, he has no standing to bring the instant action.
He cites Mont. Code Ann. § 2-6-102, which states in
part: “(1) Every citizen has a right to inspect and
take a copy of any public writings of this state, except
as provided in 22-1-1103, 22-3-807, or subsection (3)

App.84a
of this section and as otherwise expressly provided by
statute.” He references Mont. Code Ann. § 1-1-402 as
defining a citizen as one who resides in this state.
He also relies on the transcripts of the 1972
Montana Constitutional Convention relative to the
adoption of Article II, § 9, citing to instances in which
the term “citizen” is utilized. The Commissioner’s
perspective is that the drafters intended the provision
to apply to Montana citizens only.
The express provisions of the Montana Constitution control and, as stated by the Montana Supreme
Court in 2014:
“Statutory language must be construed according to its plain meaning, and if the language
is clear and unambiguous, no further interpretation is required.” Weber v. Interbel Tel.
Coop., Inc., 2003 MT 320, ¶ 10, 318 Mont.
295, 80 P.3d 88. When resolving disputes of
constitutional construction, we apply the rules
of statutory construction and give a broad
and liberal interpretation to the Constitution. The intent of the framers of the Constitution controls and is determined from the
plain language of the words used. Bryan [v.
Yellowstone Co. Elem. Sch. Dist. No. 2, 2002
MT 264,] ¶ 23 [312 Mont. 257, 60 P.3d 381]
(citation omitted).

Willems v. State, 2014 MT 82,¶ 17, 374 Mont. 343,
325 P.3d 1204.

Although the term “citizen” is used in Mont. Code
Aim. § 2-6-102, Article II, section 9 of the Montana
Constitution utilizes broader language: “No person
shall be deprived of the right to examine documents

App.85a
or to observe the deliberations of all public bodies or
agencies of state government and its subdivisions,
except in cases in which the demand of individual
privacy clearly exceeds the merits of public disclosure.”
The broad and plain language of the constitution
makes Article § 9 applicable to persons, not only to
citizens of Montana.
The Commissioner’s reliance on the U.S. Supreme
Court case of McBurney v. Young, 133 S. Ct. 1709 (Va.
2013), is of little assistance. McBurney affirmed the
ruling of the Fourth Circuit Court of Appeals that
Virginia’s freedom of information act did not violate
federal constitutional provisions by limiting information
access to Virginia residents. The language of the
Virginia statute specifically provided that “all public
records shall be open to inspection and copying by
any citizens of the Commonwealth.” Id., 133 S. Ct. at
1713. Thus, the Virginia statute specifically limited
access to Virginia citizens. The McBurney court noted
that there are other states limiting freedom of information laws to that state’s citizens. Id., 133 S. Ct. at
1714. However, McBurney does not discuss a state
constitutional provision similar to Montana’s.
The Court concludes that the scope of Article II,
§ 9 is broader than that urged by the Commissioner.
Krakauer has standing to bring this action.
2.

Family Educational Rights and Privacy Act

FERPA provides in relevant part that an educational institution is subject to loss of federal funds if
it engages in “a policy or practice” of releasing educational records or other personally identifiable information of students without consent or exception. 20

App.86a
U.S.C. § 1232(g)(b)(1) and (2). Section 34 C.F.R. § 99.3
defines “education records” as records: “(1) Directly
related to a student; and (2) Maintained by an educational agency or institution or by a party acting for
the agency or institution.”
The Commissioner asserts that FERPA prevents
him from even acknowledging that the requested
records exist, and, if they do, he cannot release them
without violating the provisions of the act and
potentially incurring the loss of millions of dollars in
federal funding. He cites United States v. Miami Univ.,
294 F.3d 797 (Ohio 6th Cir. 2002), which affirmed a
district court decision holding that disciplinary
records are educational records as defined in FERPA
and as such cannot be released without consent. The
circuit court stated: “Under FERPA, schools and educational agencies receiving federal financial assistance must comply with certain conditions. . . . Once
the conditions and the funds are accepted, the school
is indeed prohibited from systematically releasing
education records without consent.” Id., 294 F.3d at
809.
In the Commissioner’s view, the fact that Krakauer
requested the records of the student by name made it
impossible for him to release any records that did not
contain identifying information. He argues that even
if the information is available from an ancillary
source, he is still prohibited from releasing it under
the strictures of FERPA as interpreted by the federal
office that administers FERPA compliance.
Krakauer disagrees with the Commissioner’s
interpretation of FERPA. Quoting Board of Trustees
v. Cut Bank Pioneer Press, 2007 MT 115, ¶ 24, 337
Mont. 229, 160 P.3d 482, he argues that the law simply

App.87a
imposes funding penalties if an educational institution
engages in the practice of releasing educational records
that contain personally identifying information.
In Pioneer Press, the supreme court reversed a
district court decision that disallowed a local press
request for student discipline records. Pioneer Press
filed the suit to gain access to such records pursuant
to Article II, § 9, the right to know provision of the
Montana Constitution. Id., ¶ 1. The district court
determined that FERPA prohibited disclosure and
trumped any state statute or constitutional provision
relied on by the press to support its request.
The supreme court disagreed, holding that FERPA
did not prohibit disclosure of redacted records. Pioneer
Press was not seeking personal identifying information;
instead it wanted information concerning the administrative action taken against disciplined students.
Id., ¶ 36.
Krakauer is likewise not seeking the name or
names of students involved in the administrative
process. He asserts that he is willing to accept redacted
records that disguise all personally identifying information. In this regard, the supreme court in Pioneer
Press, stated at ¶ 31: “Thus, regardless of whether
disciplinary records constitute “education records”
under FERPA, or whether redacted records remain
“education records” under FERPA, the end result is
clear: FERPA does not prevent the public release of
redacted student disciplinary records, and the District Court erred in so concluding herein.”
The Commissioner argues that the holding in
Pioneer Press would likely be different if it had been
decided after the amendment to 34 C.F.R. § 99.3 was

App.88a
adopted in 2008. This addition to the regulation, codified as 34 C.F.R. § 99.3(g) prohibits release of “[i]nformation requested by a person who the educational
agency or institution reasonably believes knows the
identity of the student to whom the education record
relates.” According to the Commissioner, even if
redacted records were supplied, since Krakauer knows
the student’s identity, disclosure would be in violation
of the act.
But the student’s identity is not the focus of
Krakauer’s request. It is apparent from the briefs
and arguments of counsel that his request is more in
line with that in Pioneer Press—Krakauer seeks
information about the processes occurring once the
case reached the Commissioner’s office. In Pioneer
Press the court noted:
It is clear that Pioneer is not requesting the
identity of the students involved in the BB
shooting incident; rather, it simply wants to
know what disciplinary action the Board
took. The discipline imposed by the Board
on students of the school, particularly
students involved in potentially injurious
actions, is a matter of public concern.

Id., ¶ 36.
In construing the application of FERPA it is
significant to note that 20 U.S.C. § 1232g(b)(1) and
(b)(2) both predicate the funding strictures on educational institutions that have “a policy or practice” of
releasing proscribed information. Moreover, in the
case relied on by the Commissioner, United States v.
Miami Univ., the circuit court appears to recognize
the fact that the intent of the act is broader than the

App.89a
unique nature of the request in this case, stating that
an educational institution accepting funds “is indeed
prohibited from systematically releasing education
records without consent.” Id., 294 F.3d at 809 (emphasis
added).
The plain meaning of the language used in FERPA
makes it clear that the purpose of the act is to
discourage a system or practice allowing disclosure of
personal student information. The Court concludes
that FERPA does not preclude release of the records
in the circumstances presented in this case.
3. Mont. Code Ann. § 20-25-515
This statute provides:
A university or college shall release a student’s
academic record only when requested by the
student or by a subpoena issued by a court
or tribunal of competent jurisdiction. A
student’s written permission must be obtained
before the university or college may release
any other kind of record unless such record
shall have been subpoenaed by a court or
tribunal of competent jurisdiction.
According to Krakauer, his counsel could obtain
the records by subpoena pursuant to the provisions of
Rule 45, M. R. Civ. P., which allows an attorney to issue
a subpoena as officer of a court in which the attorney
is authorized to practice.
A subpoena is issued under the authority or
auspices of a court compelling the presence of a witness
and/or documents. It is the authority of the court
that supports the process. (See e.g. Rule 45, M. R. Civ.
P.; Mont. Code Ann. § 26-2-102). The subpoena power

App.90a
is subsumed in the Court’s jurisdiction and authority
to rule in this case. In determining that the records
should be made available, the Court’s Order is not inconsistent with the provisions of 20-25-515.
4.

Right to Know and Right of Privacy

Krakauer also asserts that the public right to
know guaranteed by Article II, § 9 of the Constitution
of Montana, overrides the statutory restrictions of
20-25-515. The Commissioner correctly points out that
the right to know is not absolute; it must be balanced
with the constitutional right of privacy provided in
Article II, § 10.
Article II, § 9, of the Montana Constitution allows
examination of documents of public bodies or agencies
of state government “except in cases in which the
demand of individual privacy clearly exceeds the merits
of public disclosure.”
In Great Falls Tribune v. Montana Public Service
Commission, 2003 MT 359, ¶ 54, 319 Mont. 38, 82 P.3d

876, the supreme court acknowledged a constitutional
presumption that documents held by public officials
are open to public inspection. But in Lincoln County
Commission v. Nixon, et al., 1998 MT 298, ¶¶ 15, 16,
292 Mont. 42, 968 P.2d 1141, the court noted the limitations of Article II, § 9:
The “right to know” is not an absolute right.
It is balanced by the “demand of individual
privacy,” a right which is also guaranteed
by Montana’s Constitution: “The right of
individual privacy is essential to the wellbeing of a free society and shall not be
infringed without the showing of a compelling

App.91a
state interest.” Art. II, Sec. 10, Mont. Const.
A constitutionally protected privacy interest
exists when a person has a subjective or
actual expectation of privacy which society
is willing to recognize as reasonable.
(Citation omitted.)
In considering whether a privacy interest is constitutionally protected, the supreme court established a
balancing test: “This Court has used a two-part test in
determining whether a person has a constitutionallyprotected privacy interest. First, we determine whether
the person has a subjective or actual expectation of
privacy. Next, we evaluate whether society is willing
to recognize that expectation as reasonable.” Great
Falls Tribune Co. v. Cascade County Sheriff, 238
Mont. 103, 105, 775 P.2d 1267, 1268 (1989) (citation
omitted). Accord, Billings Gazette v. City of Billings,
2011 MT 293, ¶ 21, 362 Mont. 522, 267 P.3d 11;
Yellowstone County v. Billings Gazette, 2006 MT
218, ¶¶ 20-21, 333 Mont. 390, 143 P.3d 135.
Many Montana cases address the interplay
between privacy interests and the right to know,
covering myriad factual situations ranging from confidential criminal justice information to job evaluations. The Court in this case must likewise examine
the situation based on the two-part test enunciated
and adopted by the supreme court in this lengthy
body of case law. Significantly, the analysis is unique
to the facts of each case as recognized by the court in
Missoulian v. Board of Regents of Higher Education,
207 Mont. 513, 529, 675 P.2d 962, 971 (1984):
The more specific closure standard of the
constitutional and statutory provisions

App.92a
requires this Court to balance the competing
constitutional interests in the context of the
facts of each case, to determine whether the
demands of individual privacy clearly exceed
the merits of public disclosure. Under this
standard, the right to know may outweigh
the right of individual privacy, depending
on the facts.
The Commissioner argues that even though the
student involved here was the subject of considerable
public exposure, including legal proceedings that
received state and national attention, those developments have no bearing on the student’s privacy rights
in his educational records under either FERPA or
Mont. Code Ann. § 20-25-515. He contends the public’s
right to know is clearly outweighed by the privacy
rights that have been afforded to students by FERPA,
Mont. Code Ann. § 20-25-515, and the Montana Constitution.
The Court concludes otherwise. In the context of
a privacy analysis, the Commissioner provides no
support for his perspective that public exposure of
the facts relating to Krakauer’s request is separate
and distinct from the administrative process. As
Krakauer points out, and Exhibits 4 and 5 attached
to his affidavit confirm, the entire incident, from the
initial administrative investigation to the conclusion
of the criminal trial, is a matter of public record. The
only aspect of the lengthy process that is not a matter
of public record is the action taken by the Commissioner.
In John Doe v. University of Montana, 2012 U.S.
Dist. LEXIS 88519, federal district judge Christensen
considered a challenge to the University disciplinary

App.93a
proceedings involving the student whose records are
at issue in this case. The student sought a preliminary
injunction to prohibit the University from proceeding
with the administrative process before the University
Court. In the course of the proceeding, the court
sealed the file initially, but subsequently determined
that the file should be unsealed and the proceeding
dismissed. Citing In re McClatchy Newspapers, Inc.
v. US. District Court for the Eastern District, 288
F.3d 369, 374 (Cal. 9th Cir. 2002), the court reasoned:
“The University of Montana is a public institution,
and while there may be good reasons to keep secret
the names of students involved in a University disciplinary proceeding, the Court can conceive of no compelling justification to keep secret the manner in
which the University deals with those students.” Doe,
2012 U.S. Dist. at 9.
Judge Christensen’s determination focused on the
process rather than related student information, and
in reaching his conclusion, also ordered redaction of
student identifying information.
The student does not have a reasonable expectation
of privacy regarding the redacted records of the Commissioner. The Court concludes that the merits of
public disclosure outweigh the individual privacy
rights of the student in this case.
5.

Mont. Code Ann. § 2-9-103(1)
This statute provides:
If an officer, agent, or employee of a governmental entity acts in good faith, without
malice or corruption, and under the authority
of law and that law is subsequently declared

App.94a
invalid as in conflict with the constitution of
Montana or the constitution of the United
States, that officer, agent, or employee, any
other officer, agent, or employee of the
represented governmental entity, or the
governmental entity is not civilly liable in
any action in which the individuals or governmental entity would not have been liable
if the law had been valid.
The Commissioner relies on Mont. Code Ann. § 29-103(1) in asserting that, should Krakauer prevail
in this matter, he should not be awarded attorney
fees and costs. He notes that while the case involves
neither a challenge to the constitutionality of a
statute nor a claim for damages, “the spirit of fairness
embodied” in the statute should prevail.
The Court concludes that the statute has no
application to the instant case and although Krakauer
requests attorney fees in his petition, the Court is not
in a position to rule on that request at this juncture.
The Court will consider simultaneous briefs on the
attorney fee issue filed within 30 days of the date of
this Memorandum and Order.
Based on the foregoing,
IT IS HEREBY ORDERED that:
1. Krakauer’s motion for summary judgment is
GRANTED.
2. The Commissioner’s motion for summary
judgment is DENIED.
3. The Commissioner’s office shall arrange to
make available for inspection and/or copying within
21 days of the date of this Memorandum and Order

App.95a
the records requested in pages four and five of Krakauer’s petition subject to the following conditions:
Each and every reference to a student’s name,
birth date, social security number, address and/or
telephone number must be redacted. This Order applies
to any information in the file that is in any form,
including hard copy or digital form. The Commissioner’s
office shall review all information to ensure compliance
with this Memorandum and Order.
DATED this 12th day of September 2014.
/s/ Kathy Seeley
District Court Judge

App.96a

OPINION OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MONTANA,
MISSOULA DIVISION,
DOE V. UNIV. OF MONT., NO. CV-12-77-M-DLC
(JUNE 26, 2012)
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MONTANA, MISSOULA DIVISION
________________________
JOHN DOE,

Plaintiff,
v.
THE UNIVERSITY OF MONTANA,

Defendant.

________________________
No. CV-12-77-M-DLC

Before: Dana L. CHRISTENSEN,
United State District Judge.
Opinion by: DANA L. CHRISTENSEN
There have been at least five prosecutions alleging
sexual assault under the Student Conduct Code of the
University of Montana in the last five months; this
case arises out of one of them. Plaintiff John Doe, a
University student, challenges a disciplinary proceeding
currently underway at the University, in which he is
accused of violating the Student Conduct Code by
sexually assaulting a fellow student at an off-campus

App.97a
residence. Plaintiff Doe filed this action seeking a
preliminary injunction prohibiting the University
from going forward with a University Court proceeding
against him. On May 10, 2012, this Court issued an
Order denying Doe’s request for a temporary restraining
order, but granting Doe’s motion to proceed anonymously and for a protective order sealing the case
file. The University Court proceeding took place as
scheduled and resulted in a 5-2 vote finding Doe
guilty of violating the Student Conduct Code. The
University Court voted 7-0 to impose the punishment
of expulsion. In light of these events, this Court
expressed doubts as to whether there remain viable
claims to be adjudicated in this federal action, and as
to the continued propriety of maintaining this case
under seal. After hearing the arguments of the parties,
this Court is convinced that neither this case, nor the
secrecy surrounding it, can continue.
Plaintiff Doe’s Complaint alleges three Counts: a
violation of Doe’s rights under Title IX of the Education Amendments of 1972, 20 U.S.C. §§ 1681-1688
(Count I); a breach of contract claim (Count II); and a
federal Equal Protection claim (Count III). Doe claims
he was subject to a biased investigation and that the
University imposed a lower standard of proof at his
University Court proceeding than is called for under
the Student Conduct Code in effect at the time of the
alleged violation. The only relief sought in Doe’s
Complaint is an injunction prohibiting the University
Court proceeding from going forward. That proceeding
has now occurred, and a decision has been rendered.
On the face of the Complaint as currently pled, no
further relief is available for Doe in this Court. It
was for this reason that the Court instructed the

App.98a
parties to show cause why this action should not be
dismissed as moot. “When the possibility of injury to
the plaintiffs ceases, the case is rendered moot and
[the court lacks] jurisdiction to decide it.” American
Civil Liberties Union of Nevada v. Masto, 670 F.3d
1046, 1062 (9th Cir. 2012).
Having been advised of the Court’s concern that
it no longer has subject matter jurisdiction over this
action, Plaintiff Doe moved to dismiss the Complaint
without prejudice in open court on June 22, 2012.
The University did not oppose the motion. Accordingly,
this action will be dismissed without prejudice pursuant
to Fed. R. Civ. P. 41(a)(2).
There is one outstanding matter that must be
addressed before this case is dismissed, and that is
the status of the case file. The Court sealed the file in
its May 10, 2012, Order, granting Plaintiff Doe’s
unopposed motion for a protective order. The Court
gave the following explanation for granting the motion:
At this stage, the Court finds that a protective
order is justified because there is still an
anonymous accuser in the underlying action,
and because this federal case arises from a
closed University disciplinary proceeding in
which all parties are entitled to confidentiality. In light of the outcome on the motion
for temporary restraining order, all that
would be achieved by requiring Doe to proceed publicly at this stage would be the
embarrassment of all parties involved. The
protective order is issued based on the
current posture of this case, and may be
revisited and revised or withdrawn should
this litigation proceed.

App.99a
Doc. No. 11 at 11.
The next document filed in this case was a stipulated motion to modify the Court’s protective order
to allow Plaintiff Doe’s counsel to provide a copy of
the Court’s May 10, 2012, Order to the Missoula County
Attorney. Despite repeated requests from the Court for
an explanation as to why such a selective modification
of the protective order is warranted, the parties have
offered no support for the request other than to indicate
at the June 22, 2012, hearing that the Missoula
County Attorney has requested the document. From
the Court’s perspective, it is impossible to consider
the pending request for modification of the protective
order without also re-examining the original basis for
the protective order and whether the reasons for
sealing this file remain persuasive.
Therefore, the Court now revisits its Order sealing
the file. In addressing this issue, it is useful to begin
with a brief summary of the state of the law on public
access to federal court proceedings. The general public
has a presumptive common-law right to inspect and
copy judicial records and documents so as to satisfy
“the citizen’s desire to keep a watchful eye on the
workings of public agencies[.]” Nixon v. Warner
Communications. Inc., 435 U.S. 589, 597 (1978). The
public’s right of access is not absolute, however, and
may yield in certain instances where there is a clear
risk that the contents of the court’s file will be used
for an improper purpose. Id. at 598. Protective orders
have been upheld, for example, where public access
would divulge information harmful to a litigant’s
competitive standing in business, expose minor victims
of sex crimes to further trauma, jeopardize the privacy

App.100a
of jurors,1 facilitate abuse of the civil discovery process, or alert a criminal suspect to the existence of an
unexecuted search warrant. In re McClatchy Newspapers. Inc., 288 F.3d 369, 374 (9th Cir. 2002) (collecting cases). However, “injury to official reputation is
an insufficient reason ‘for repressing speech that would
otherwise be free.’’’ Id. (quoting Landmark Communications. Inc. v. Virginia, 435 U.S. 829, 841-42 (1978)).
A party seeking a protective order must justify
the request with a showing of “good cause.” Phillips
v. General Motors Corp., 307 F.3d 1206, 1210 (9th Cir.
2002); Fed. R. Civ. P. 26(c). The “good cause” standard requires the party seeking protection to show
that “specific prejudice or harm will result if no protective order is granted.” Id. at 1210-11. Whether a
protective order is called for, and what degree of protection is necessary, are questions committed to the
“broad discretion o[f] the trial court.” Seattle Times
Co. v. Rhinehart, 467 U.S. 20, 36 (1984).
Throughout this litigation the parties have failed
to justify their request for secrecy with reference to
the existing case law. Both sides have cited concern
for the anonymity of the accuser in the Student Conduct
Code proceeding, and Plaintiff Doe has forcefully
argued that he too should be afforded the opportunity
to proceed anonymously. For the reasons first articulated in the May 10, 2012, Order, the Court agrees
that the confidential nature of the University’s disciplinary proceeding justifies the protection of the
privacy of the individual students involved, including
the accuser, the accused, witnesses to the alleged
1 Court believes that the members of the University Court served
in a capacity analogous to that of jurors.

App.101a
events, and the members of the University Court. But
the need for individual privacy does not justify sealing
this entire case file. That greater degree of protection
must be supported by a separate and compelling
showing of good cause beyond the mere need to protect
the students who are parties to a confidential proceeding from undue harassment or embarrassment.
Neither party has satisfied this standard.
Plaintiff Doe argues this case should be kept
sealed because if the contents of the file are made
public, it may influence the decisionmaking of law
enforcement officials with regard to any investigation
or potential criminal prosecution of Plaintiff Doe.
That is not a sufficient reason to seal this case under
the good cause standard requiring a showing of specific
prejudice or harm to the party seeking protection.
The Missoula County Attorney, like all other
prosecutors in Montana, is subject to a binding ethical
responsibility to charge only those cases that are supported by probable cause. See Rule 3.8(a), Montana
Rules of Professional Conduct. The determination
whether to charge Plaintiff Doe with a crime must be
made based on the investigative record available to
the prosecutor, and without consideration for or
reference to the outcome of a university administrative
disciplinary proceeding, and certainly without regard
for the contents of the case file in an ancillary federal
civil case. Plaintiff Doe’s argument requires the Court
to assume that a prosecutor will breach his or her
ethical obligations, and such speculation lacks the
specificity of harm that is necessary for a showing of
good cause. Moreover, Plaintiff Doe’s identity remains
protected, which should eliminate any risk that he

App.102a
will suffer adverse criminal consequences if this case
is unsealed.2
The University has likewise steadfastly argued
that this case should be sealed, but has not offered a
justification beyond concern for the privacy of the
accuser. The Court is aware that the University’s
Student Code of Conduct mandates that all disciplinary
proceedings remain confidential, but in the Court’s
judgment the only legitimate basis for such secrecy is
to protect the privacy of the individual students
involved. The University of Montana is a public institution, and while there may be good reasons to keep
secret the names of students involved in a University
disciplinary proceeding, the Court can conceive of no
compelling justification to keep secret the manner in
which the University deals with those students. Although the University has not explicitly argued that
unsealing the file will do harm to the official reputation
of any University personnel, such a concern is an
insufficient legal basis to justify sealing this case in
any event. McClatchy Newspapers, 288 F.3d at 374.
Reduced to its essence, the joint request to keep
this case file sealed reflects a determination by the
parties, based on their respective individual interests,
that they will mutually benefit from maintaining the
secrecy of this federal proceeding. This approach was
evident at the June 22, 2012, hearing, when the
discussion turned to the Missoula County Attorney’s
role in the pending motion to modify the protective
order. Plaintiff Doe stated that the County Attorney
2 Left unanswered in this Order is the threshold question of
whether the University Court proceedings would ever be relevant
or admissible in any criminal prosecution.

App.103a
has requested a copy of the Court’s May 10, 2012,
Order, and that Doe wishes to satisfy that request.
Thus, in Doe’s judgment, his interest in keeping this
matter sealed yields to his superseding interest in
satisfying the County Attorney. And the mere fact
that the County Attorney is aware of this case means
that somehow, someone has notified the County
Attorney of the existence of this sealed proceeding,
leading this Court to conclude that its original Order
sealing this record may have been an exercise in futility.
During the same hearing, the University offered a
guarded answer when asked by the Court if the University had supplied the County Attorney with documents related to the Student Conduct Code proceeding. This failure by the University to answer a
relevant and important question left the Court with
the impression that it, too, was being supplied with
selective information.
In short, both parties want this case sealed to
protect their privacy interests and reputations, but
also want the case to be selectively unsealed when it
will serve their interests for other reasons.
This is an approach that clearly favors the
litigants, and the Court cannot fault the parties and
their counsel for their zealous advocacy. But lost in
all of this is the valid and compelling interest of the
people in knowing what the University of Montana is
up to. It has been established that the prevalent and
long-standing approach of the federal courts is to
reject secret proceedings. There are very few exceptions
to this rule. The principle of openness in the conduct
of the business of public institutions is all the more
important here, where the subject matter of the liti-

App.104a
gation is a challenge to the administrative disciplinary process of a state university.
This is an open forum to participants and observers
alike, and must remain so, as transparency is crucial
to the legitimacy of a public institution. The Court
finds no good cause exists for a protective order
continuing to seal this case, and therefore the file
must be unsealed. With respect to the individual
students involved in the Student Conduct Code proceeding, as well as the witnesses and University
Court members involved in that proceeding, the Court
finds that the interests of those individuals in avoiding
undue embarrassment, harassment, and disclosure of
sensitive private information outweigh the public’s
need to know their names. See Does I-XXIII v.
Advanced Textile Corp., 214 F.3d 1058. 1068-69 (9th
Cir. 2000). Accordingly, any identifying information
as to those individuals will be redacted in the unsealed
case file.3
By unsealing this matter, the Court relinquishes
control over the contents of the case file and with it
the ability to insure that the information therein is
not misused to “promote public scandal.” Nixon, 435
U.S. at 598 (quoting In re Caswell, 18 R.I. 835, 836
(1893)). With regard to what is done with the contents
of this file once it becomes public, it is worth noting
the observations of the Ninth Circuit in McClatchy
Newspapers:

3 These redactions include a handful of dates surrounding the
underlying events, which if disclosed would possibly result in
the identification of the individuals whose anonymity the Court
seeks to protect.

App.105a
A decent newspaper will not publish [the
witness’] accusations without also publishing
the skepticism of [the witness’] credibility
shared by the district judge and the office of
the United States Attorney. If less scrupulous
papers omit these significant doubts, these
papers themselves will be of a character
carrying little credibility.
288 F.3d at 374. The Court comes to this decision
having given careful consideration to the United
States Supreme Court’s holding that a federal court
need not “permit [its] files to serve as reservoirs of
libelous statements for press consumption.” Nixon,
435 U.S. at 598. This Court can only hope that the
media will disseminate the contents of the Court file
in a prudent and even-handed manner.
Based on the foregoing, IT IS HEREBY
ORDERED:
1. The parties’ stipulated motion to modify the
protective order sealing this case (Doc. No. 12) is
DENIED;
2. The parties’ respective motions to substitute
redacted documents (Doc. Nos. 18 and 19) are DENIED
as moot in light of the Court’s decision to unseal the
case file;
3. Plaintiff Doe’s unopposed motion to dismiss
this action without prejudice is GRANTED, and this
case is DISMISSED WITHOUT PREJUDICE pursuant
to Fed. R. Civ. P. 41(a)(2);
4. The Clerk of Court is directed to make the
entire case file available to the public as an attachment
to this Order, subject to Court-imposed redactions to

App.106a
preserve the anonymity of Plaintiff Doe, the accuser
in the underlying proceeding, any witnesses in the
underlying proceeding, and the members of the University Court.
DATED this 26th day of June, 2012.
/s/ Dana L. Christensen
United State District Judge

App.107a
ORDER OF THE
SUPREME COURT OF MONTANA
DENYING PETITION FOR REHEARING
(AUGUST 6, 2019)
IN THE SUPREME COURT OF
THE STATE OF MONTANA
________________________
JON KRAKAUER,

Petitioner Appellee,
and Cross-Appellant,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

v.

Respondent and
Appellant,

JOHN DOE,

Intervenor and
Appellant.

________________________
No. DA-18-0374

Before: Laurie McKINNON,
Dirk M. SANDEFUR, Ingrid GUSTAFSON,
James JEREMIAH SHEA, Justices.

App.108a
Petitioner, Appellee, and Cross-Appellant Jon
Krakauer (Krakauer) filed a petition for rehearing of
this Court’s July 3, 2019, Opinion reversing the District
Court’s order requiring the Commissioner to disclose
a student’s disciplinary records and dismissing Krakauer’s original petition with prejudice. Krakauer v.
State, 2019 MT 153, 396 Mont. 247, ___ P.3d ___.
Krakauer contends this Court relied on a previouslyrejected right-to-know analysis and that the Opinion
conflicts with other rules governing access to public
records under Article II, Section 9, of the Montana
Constitution. He specifically argues the Court (1)
failed to address or reconcile this case with T.L.S. v.
Mont. Advocacy Program, 2006 MT 262, 334 Mont. 146,
144 P.3d 818; (2) failed to correctly address, analyze,
and reconcile FERPA’s provisions with Montana’s rightto-know case law; and (3) failed to address other
arguments essential to the case’s resolution. Respondent
and Appellant, the Commissioner, objects to the
petition.
This Court seldom grants petitions for rehearing.
M. R. App. P. 20 provides that the Court will consider
a petition for rehearing only on very limited grounds:
(1) “That it overlooked some fact material to the decision”; (2) “That it overlooked some question presented
by counsel that would have proven decisive to the
case”; or (3) “That its decision conflicts with a statute
or controlling decision not addressed. . . . ”
Having fully considered Krakauer’s petition and
the Commissioner’s response, the Court concludes rehearing is not warranted under M. R. App. P. 20 in
this case. The Court did not overlook any fact material
to decision or overlook any question presented by
counsel that would have proven decisive to the case.

App.109a
Further, the Court did not fail to address a statute or
a controlling decision that conflicts with the Opinion.
IT IS THEREFORE ORDERED that the petition
for rehearing is DENIED.
The Clerk is directed to provide copies of this
Order to all parties and counsel of record.
Dated this 6th day of August, 2019.
/s/ Laurie McKinnon
/s/ Dirk M. Sandefur
/s/ Ingrid Gustafson
/s/ James Jeremiah Shea

App.110a
STATUTORY PROVISION
FAMILY EDUCATIONAL RIGHTS AND
PRIVACY ACT (FERPA), 20 U.S.C. § 1232g
§ 1232g. Family educational and privacy rights
(a) Conditions for availability of funds to educational agencies or institutions; inspection and review
of education records; specific information to be made
available; procedure for access to education records;
reasonableness of time for such access; hearings;
written explanations by parents; definitions.
(1)
(A) No funds shall be made available under any
applicable program to any educational agency or
institution which has a policy of denying, or
which effectively prevents, the parents of
students who are or have been in attendance at
a school of such agency or at such institution, as
the case may be, the right to inspect and review
the education records of their children. If any
material or document in the education record of
a student includes information on more than one
student, the parents of one of such students
shall have the right to inspect and review only
such part of such material or document as
relates to such student or to be informed of the
specific information contained in such part of
such material. Each educational agency or
institution shall establish appropriate procedures for the granting of a request by parents for
access to the education records of their children
within a reasonable period of time, but in no

App.111a
case more than forty—five days after the request
has been made.
(B) No funds under any applicable program shall
be made available to any State educational
agency (whether or not that agency is an educational agency or institution under this section)
that has a policy of denying, or effectively prevents, the parents of students the right to inspect
and review the education records maintained by
the State educational agency on their children
who are or have been in attendance at any school
of an educational agency or institution that is
subject to the provisions of this section.
(C) The first sentence of subparagraph (A) shall
not operate to make available to students in
institutions of postsecondary education the following materials:
(i)

financial records of the parents of the
student or any information contained therein;

(ii) confidential letters and statements of recommendation, which were placed in the
education records prior to January 1, 1975,
if such letters or statements are not used for
purposes other than those for which they
were specifically intended;
(iii) if the student has signed a waiver of the
student’s right of access under this subsection in accordance with subparagraph (D),
confidential recommendations—
(I)

respecting admission to any educational agency or institution,

App.112a
(II) respecting an application for employment, and
(III) respecting the receipt of an honor or
honorary recognition.
(D) A student or a person applying for admission may waive his right of access to confidential
statements described in clause (iii) of subparagraph (C), except that such waiver shall apply to
recommendations only if (i) the student is, upon
request, notified of the names of all persons
making confidential recommendations and (ii)
such recommendations are used solely for the
purpose for which they were specifically intended.
Such waivers may not be required as a condition
for admission to, receipt of financial aid from, or
receipt of any other services or benefits from
such agency or institution.
(2) No funds shall be made available under any
applicable program to any educational agency or
institution unless the parents of students who are
or have been in attendance at a school of such
agency or at such institution are provided an
opportunity for a hearing by such agency or
institution, in accordance with regulations of the
Secretary, to challenge the content of such
student’s education records, in order to insure that
the records are not inaccurate, misleading, or
otherwise in violation of the privacy rights of
students, and to provide an opportunity for the
correction or deletion of any such inaccurate,
misleading, or otherwise inappropriate data contained therein and to insert into such records a
written explanation of the parents respecting the
content of such records.

App.113a
(3)

For the purposes of this section the term “educational agency or institution” means any public
or private agency or institution which is the
recipient of funds under any applicable program.

(4)
(A) For the purposes of this section, the term
“education records” means, except as may be
provided otherwise in subparagraph (B), those
records, files, documents, and other materials
which—
(i)

contain information directly related to a
student; and

(ii) are maintained by an educational agency or
institution or by a person acting for such
agency or institution.
(B) The term “education records” does not
include—
(i)

records of instructional, supervisory, and
administrative personnel and educational
personnel ancillary thereto which are in the
sole possession of the maker thereof and
which are not accessible or revealed to any
other person except a substitute;

(ii) records maintained by a law enforcement
unit of the educational agency or institution
that were created by that law enforcement
unit for the purpose of law enforcement;
(iii) in the case of persons who are employed by
an educational agency or institution but who
are not in attendance at such agency or
institution, records made and maintained in

App.114a
the normal course of business which relate
exclusively to such person in that person’s
capacity as an employee and are not available for use for any other purpose; or
(iv) records on a student who is eighteen years
of age or older, or is attending an institution
of postsecondary education, which are made
or maintained by a physician, psychiatrist,
psychologist, or other recognized professional or paraprofessional acting in his professional or paraprofessional capacity, or assisting in that capacity, and which are made,
maintained, or used only in connection with
the provision of treatment to the student,
and are not available to anyone other than
persons providing such treatment, except
that such records can be personally reviewed
by a physician or other appropriate professional of the student’s choice.
(5)
(A) For the purposes of this section the term
“directory information” relating to a student
includes the following: the student’s name,
address, telephone listing, date and place of
birth, major field of study, participation in officially recognized activities and sports, weight
and height of members of athletic teams, dates
of attendance, degrees and awards received, and
the most recent previous educational agency or
institution attended by the student.
(B) Any educational agency or institution making
public directory information shall give public
notice of the categories of information which it

App.115a
has designated as such information with respect
to each student attending the institution or
agency and shall allow a reasonable period of
time after such notice has been given for a
parent to inform the institution or agency that
any or all of the information designated should
not be released without the parent’s prior consent.
(6) For the purposes of this section, the term
“student” includes any person with respect to
whom an educational agency or institution maintains education records or personally identifiable
information, but does not include a person who
has not been in attendance at such agency or
institution.
(b) Release of education records; parental consent
requirement; exceptions; compliance with judicial
orders and subpoenas; audit and evaluation of Federally—supported education programs; recordkeeping.
(1) No funds shall be made available under any
applicable program to any educational agency or
institution which has a policy or practice of
permitting the release of educational records (or
personally identifiable information contained therein other than directory information, as defined in
paragraph (5) of subsection (a)) of students without the written consent of their parents to any
individual, agency, or organization, other than to
the following—
(A) other school officials, including teachers
within the educational institution or local educational agency, who have been determined by
such agency or institution to have legitimate
educational interests, including the educational

App.116a
interests of the child for whom consent would
otherwise be required;
(B) officials of other schools or school systems in
which the student seeks or intends to enroll,
upon condition that the student’s parents be
notified of the transfer, receive a copy of the
record if desired, and have an opportunity for a
hearing to challenge the content of the record;
(C) (i) authorized representatives of (I) the
Comptroller General of the United States, (II) the
Secretary, or (III) State educational authorities,
under the conditions set forth in paragraph (3),
or (ii) authorized representatives of the Attorney
General for law enforcement purposes under the
same conditions as apply to the Secretary under
paragraph (3);
(D) in connection with a student’s application
for, or receipt of, financial aid;
(E) State and local officials or authorities to
whom such information is specifically allowed to
be reported or disclosed pursuant to State statute
adopted—
(i)

before November 19, 1974, if the allowed
reporting or disclosure concerns the juvenile
justice system and such system’s ability to
effectively serve the student whose records
are released, or

(ii) after November 19, 1974, if—
(I)

the allowed reporting or disclosure concerns the juvenile justice system and
such system’s ability to effectively serve,

App.117a
prior to adjudication, the student whose
records are released; and
(II) the officials and authorities to whom
such information is disclosed certify in
writing to the educational agency or
institution that the information will not
be disclosed to any other party except
as provided under State law without
the prior written consent of the parent
of the student.[;]
(F) organizations conducting studies for, or on
behalf of, educational agencies or institutions for
the purpose of developing, validating, or administering predictive tests, administering student
aid programs, and improving instruction, if such
studies are conducted in such a manner as will
not permit the personal identification of students
and their parents by persons other than representatives of such organizations and such information will be destroyed when no longer needed for
the purpose for which it is conducted;
(G) accrediting organizations in order to carry
out their accrediting functions;
(H) parents of a dependent student of such
parents, as defined in section 152 of the Internal
Revenue Code of 1986 [26 USCS § 152];
(I) subject to regulations of the Secretary, in connection with an emergency, appropriate persons
if the knowledge of such information is necessary
to protect the health or safety of the student or
other persons;
(J)

App.118a
(i)

the entity or persons designated in a Federal grand jury subpoena, in which case the
court shall order, for good cause shown, the
educational agency or institution (and any
officer, director, employee, agent, or attorney for such agency or institution) on which
the subpoena is served, to not disclose to
any person the existence or contents of the
subpoena or any information furnished to
the grand jury in response to the subpoena;
and

(ii) the entity or persons designated in any other
subpoena issued for a law enforcement purpose, in which case the court or other issuing
agency may order, for good cause shown, the
educational agency or institution (and any
officer, director, employee, agent, or attorney for such agency or institution) on which
the subpoena is served, to not disclose to
any person the existence or contents of the
subpoena or any information furnished in
response to the subpoena;
(K) the Secretary of Agriculture, or authorized
representative from the Food and Nutrition
Service or contractors acting on behalf of the
Food and Nutrition Service, for the purposes of
conducting program monitoring, evaluations,
and performance measurements of State and
local educational and other agencies and institutions receiving funding or providing benefits of
1 or more programs authorized under the Richard
B. Russell National School Lunch Act (42 U.S.C.
1751 et seq.) or the Child Nutrition Act of 1966
(42 U.S.C. 1771 et seq.) for which the results will

App.119a
be reported in an aggregate form that does not
identify any individual, on the conditions that—
(i)

any data collected under this subparagraph
shall be protected in a manner that will not
permit the personal identification of students
and their parents by other than the authorized representatives of the Secretary; and

(ii) any personally identifiable data shall be
destroyed when the data are no longer needed
for program monitoring, evaluations, and performance measurements; and
(L) an agency caseworker or other representative
of a State or local child welfare agency, or tribal
organization (as defined in section 4 of the
Indian Self—Determination and Education Assistance Act (25 U.S.C. 450b)), who has the right to
access a student’s case plan, as defined and
determined by the State or tribal organization,
when such agency or organization is legally responsible, in accordance with State or tribal law,
for the care and protection of the student, provided that the education records, or the personally
identifiable information contained in such records,
of the student will not be disclosed by such
agency or organization, except to an individual
or entity engaged in addressing the student’s
education needs and authorized by such agency or
organization to receive such disclosure and such
disclosure is consistent with the State or tribal
laws applicable to protecting the confidentiality
of a student’s education records.
Nothing in subparagraph (E) of this paragraph shall
prevent a State from further limiting the number or

App.120a
type of State or local officials who will continue to
have access thereunder.
(2) No funds shall be made available under any
applicable program to any educational agency or
institution which has a policy or practice of
releasing, or providing access to, any personally
identifiable information in education records other
than directory information, or as is permitted
under paragraph (1) of this subsection unless—
(A) there is written consent from the student’s
parents specifying records to be released, the
reasons for such release, and to whom, and with
a copy of the records to be released to the
student’s parents and the student if desired by
the parents, or
(B) except as provided in paragraph (1)(J), such
information is furnished in compliance with judicial order, or pursuant to any lawfully issued
subpoena, upon condition that parents and the
students are notified of all such orders or subpoenas in advance of the compliance therewith
by the educational institution or agency, except
when a parent is a party to a court proceeding
involving child abuse and neglect (as defined in
section 3 of the Child Abuse Prevention and
Treatment Act (42 U.S.C. 5101 note)) or dependency matters, and the order is issued in the
context of that proceeding, additional notice to
the parent by the educational agency or institution is not required.
(3) Nothing contained in this section shall preclude
authorized representatives of (A) the Comptroller
General of the United States, (B) the Secretary, or

App.121a
(C) State educational authorities from having
access to student or other records which may be
necessary in connection with the audit and
evaluation of Federally—supported education
programs, or in connection with the enforcement of
the Federal legal requirements which relate to such
programs: Provided, That except when collection of
personally identifiable information is specifically
authorized by Federal law, any data collected by
such officials shall be protected in a manner which
will not permit the personal identification of
students and their parents by other than those
officials, and such personally identifiable data shall
be destroyed when no longer needed for such audit,
evaluation, and enforcement of Federal legal
requirements.
(4)
(A) Each educational agency or institution shall
maintain a record, kept with the education
records of each student, which will indicate all
individuals (other than those specified in paragraph (1)(A) of this subsection), agencies, or
organizations which have requested or obtained
access to a student’s education records maintained by such educational agency or institution,
and which will indicate specifically the legitimate interest that each such person, agency, or
organization has in obtaining this information.
Such record of access shall be available only to
parents, to the school official and his assistants
who are responsible for the custody of such
records, and to persons or organizations authorized in, and under the conditions of, clauses (A)

App.122a
and (C) of paragraph (1) as a means of auditing
the operation of the system.
(B) With respect to this subsection, personal
information shall only be transferred to a third
party on the condition that such party will not
permit any other party to have access to such
information without the written consent of the
parents of the student. If a third party outside
the educational agency or institution permits
access to information in violation of paragraph
(2)(A), or fails to destroy information in violation
of paragraph (1)(F), the educational agency or
institution shall be prohibited from permitting
access to information from education records to
that third party for a period of not less than five
years.
(5) Nothing in this section shall be construed to
prohibit State and local educational officials
from having access to student or other records
which may be necessary in connection with the
audit and evaluation of any federally or State
supported education program or in connection with
the enforcement of the Federal legal requirements
which relate to any such program, subject to the
conditions specified in the proviso in paragraph (3).
(6)
(A) Nothing in this section shall be construed to
prohibit an institution of postsecondary education from disclosing, to an alleged victim of any
crime of violence (as that term is defined in section 16 of title 18, United States Code [18 USCS
§ 16]), or a nonforcible sex offense, the final
results of any disciplinary proceeding conducted

App.123a
by such institution against the alleged perpetrator
of such crime or offense with respect to such
crime or offense.
(B) Nothing in this section shall be construed to
prohibit an institution of postsecondary education from disclosing the final results of any disciplinary proceeding conducted by such institution
against a student who is an alleged perpetrator
of any crime of violence (as that term is defined
in section 16 of title 18 [18 USCS § 16], United
States Code), or a nonforcible sex offense, if the
institution determines as a result of that disciplinary proceeding that the student committed a
violation of the institution’s rules or policies
with respect to such crime or offense.
(C) For the purpose of this paragraph, the final
results of any disciplinary proceeding—
(i)

shall include only the name of the student,
the violation committed, and any sanction
imposed by the institution on that student;
and

(ii) may include the name of any other student,
such as a victim or witness, only with the
written consent of that other student.
(7)
(A) Nothing in this section may be construed to
prohibit an educational institution from disclosing information provided to the institution under
section 170101 of the Violent Crime Control and
Law Enforcement Act of 1994 (42 U.S.C. 14071)
concerning registered sex offenders who are required to register under such section.

App.124a
(B) The Secretary shall take appropriate steps
to notify educational institutions that disclosure
of information described in subparagraph (A) is
permitted.
(c) Surveys or data—gathering activities; regulations.
Not later than 240 days after the date of enactment of
the Improving America’s Schools Act of 1994 [enacted
Oct. 20, 1994], the Secretary shall adopt appropriate
regulations or procedures, or identify existing regulations or procedures, which protect the rights of privacy
of students and their families in connection with any
surveys or data—gathering activities conducted,
assisted, or authorized by the Secretary or an administrative head of an education agency. Regulations
established under this subsection shall include
provisions controlling the use, dissemination, and
protection of such data. No survey or data—gathering
activities shall be conducted by the Secretary, or an
administrative head of an education agency under an
applicable program, unless such activities are authorized by law.
(d) Students’ rather than parents’ permission or
consent. For the purposes of this section, whenever a
student has attained eighteen years of age, or is
attending an institution of postsecondary education,
the permission or consent required of and the rights
accorded to the parents of the student shall thereafter
only be required of and accorded to the student.
(e) Informing parents or students of rights under
this section. No funds shall be made available under
any applicable program to any educational agency or
institution unless such agency or institution effectively informs the parents of students, or the students,
if they are eighteen years of age or older, or are

App.125a
attending an institution of postsecondary education, of
the rights accorded them by this section.
(f) Enforcement; termination of assistance. The Secretary shall take appropriate actions to enforce this
section and to deal with violations of this section, in
accordance with this Act, except that action to terminate
assistance may be taken only if the Secretary finds
there has been a failure to comply with this section,
and he has determined that compliance cannot be
secured by voluntary means.
(g) Office and review board; creation; functions. The
Secretary shall establish or designate an office and
review board within the Department for the purpose
of investigating, processing, reviewing, and adjudicating violations of this section and complaints which
may be filed concerning alleged violations of this
section. Except for the conduct of hearings, none of
the functions of the Secretary under this section shall
be carried out in any of the regional offices of such
Department.
(h) Certain disciplinary action information allowable. Nothing in this section shall prohibit an educational agency or institution from—
(1) including appropriate information in the education record of any student concerning disciplinary action taken against such student for conduct
that posed a significant risk to the safety or
well—being of that student, other students, or
other members of the school community; or
(2) disclosing such information to teachers and school
officials, including teachers and school officials
in other schools, who have legitimate educational interests in the behavior of the student.

App.126a
(i)

Drug and alcohol violation disclosures.

(1) In general. Nothing in this Act or the Higher
Education Act of 1965 shall be construed to
prohibit an institution of higher education from
disclosing, to a parent or legal guardian of a
student, information regarding any violation of
any Federal, State, or local law, or of any rule
or policy of the institution, governing the use or
possession of alcohol or a controlled substance,
regardless of whether that information is contained in the student’s education records, if—
(A) the student is under the age of 21; and
(B) the institution determines that the student
has committed a disciplinary violation with respect
to such use or possession.
(2) State law regarding disclosure. Nothing in paragraph (1) shall be construed to supersede any
provision of State law that prohibits an institution of higher education from making the disclosure described in subsection (a).
(j)

Investigation and prosecution of terrorism.

(1) In general. Notwithstanding subsections (a)
through (i) or any provision of State law, the
Attorney General (or any Federal officer or
employee, in a position not lower than an Assistant Attorney General, designated by the Attorney General) may submit a written application to
a court of competent jurisdiction for an ex parte
order requiring an educational agency or
institution to permit the Attorney General (or
his designee) to—

App.127a
(A) collect education records in the possession of
the educational agency or institution that are
relevant to an authorized investigation or prosecution of an offense listed in section 2332b(g)(5)(B)
of title 18 United States Code [18 USCS § 232b
(g)(5)(B)], or an act of domestic or international
terrorism as defined in section 2331 of that title
[18 USCS § 2331]; and
(B) for official purposes related to the investigation or prosecution of an offense described in
paragraph (1)(A), retain, disseminate, and use
(including as evidence at trial or in other administrative or judicial proceedings) such records,
consistent with such guidelines as the Attorney
General, after consultation with the Secretary,
shall issue to protect confidentiality.
(2) Application and approval.
(A) In general. An application under paragraph
(1) shall certify that there are specific and
articulable facts giving reason to believe that the
education records are likely to contain information described in paragraph (1)(A).
(B) The court shall issue an order described in
paragraph (1) if the court finds that the application for the order includes the certification
described in subparagraph (A).
(3) Protection of educational agency or institution. An
educational agency or institution that, in good
faith, produces education records in accordance
with an order issued under this subsection shall
not be liable to any person for that production.

App.128a
(4) Record—keeping. Subsection (b)(4) does not
apply to education records subject to a court
order under this subsection.

App.129a
REGULATORY PROVISIONS
34 C.F.R. PARTS A AND D
34 C.F.R. § 99.1
§ 99.1 To which educational agencies or institutions
do these regulations apply?
(a) Except as otherwise noted in § 99.10, this
part applies to an educational agency or institution
to which funds have been made available under any
program administered by the Secretary, if—
(1) The educational institution provides educational services or instruction, or both, to
students; or
(2) The educational agency is authorized to
direct and control public elementary or secondary, or postsecondary educational institutions.
(b) This part does not apply to an educational
agency or institution solely because students attending
that agency or institution receive non—monetary
benefits under a program referenced in paragraph (a)
of this section, if no funds under that program are
made available to the agency or institution.
(c) The Secretary considers funds to be made
available to an educational agency or institution of
funds under one or more of the programs referenced
in paragraph (a) of this section—
(1) Are provided to the agency or institution by
grant, cooperative agreement, contract, subgrant,
or subcontract; or

App.130a
(2) Are provided to students attending the
agency or institution and the funds may be paid
to the agency or institution by those students for
educational purposes, such as under the Pell
Grant Program and the Guaranteed Student Loan
Program (Titles IV—A—1 and IV—B, respectively,
of the Higher Education Act of 1965, as amended).
(d) If an educational agency or institution receives
funds under one or more of the programs covered by
this section, the regulations in this part apply to the
recipient as a whole, including each of its components
(such as a department within a university).
34 C.F.R. § 99.2
§ 99.2 What is the purpose of these regulations?
The purpose of this part is to set out requirements
for the protection of privacy of parents and students
under section 444 of the General Education Provisions
Act, as amended.
34 C.F.R. § 99.3
§ 99.3 What definitions apply to these regulations?
The following definitions apply to this part:
Act means the Family Educational Rights and
Privacy Act of 1974, as amended, enacted as section 444
of the General Education Provisions Act.
(Authority: 20 U.S.C. 1232g)
Attendance includes, but is not limited to—
(a) Attendance in person or by paper correspondence, videoconference, satellite, Internet, or
other electronic information and telecommunica-

App.131a
tions technologies for students who are not physically present in the classroom; and
(b) The period during which a person is working under a work—study program.
(Authority: 20 U.S.C. 1232g)
Authorized representative means any entity or
individual designated by a State or local educational authority or an agency headed by an
official listed in § 99.31(a)(3) to conduct—with
respect to Federal or State-supported education
programs—any audit or evaluation, or any compliance or enforcement activity in connection with
Federal legal requirements that relate to these
programs.
(Authority: 20 U.S.C. 1232g(b)(1)(C), (b)(3), and (b)(5))
Biometric record, as used in the definition of
personally identifiable information, means a
record of one or more measurable biological or
behavioral characteristics that can be used for
automated recognition of an individual. Examples
include fingerprints; retina and iris patterns;
voiceprints; DNA sequence; facial characteristics; and handwriting.
(Authority: 20 U.S.C. 1232g)
Dates of attendance.
(a) The term means the period of time during
which a student attends or attended an educational agency or institution. Examples of dates of
attendance include an academic year, a spring
semester, or a first quarter.

App.132a
(b) The term does not include specific daily
records of a student’s attendance at an educational
agency or institution.
Directory information means information contained in an education record of a student that would
not generally be considered harmful or an invasion of
privacy if disclosed.
(a) Directory information includes, but is not
limited to, the student’s name; address; telephone
listing; electronic mail address; photograph; date
and place of birth; major field of study; grade
level; enrollment status (e.g., undergraduate or
graduate, full—time or part—time); dates of attendance; participation in officially recognized activities and sports; weight and height of members
of athletic teams; degrees, honors, and awards
received; and the most recent educational agency
or institution attended.
(b) Directory information does not include a
student’s—
(1) Social security number; or
(2) Student identification (ID) number, except
as provided in paragraph (c) of this
definition.
(c) In accordance with paragraphs (a) and (b) of
this definition, directory information includes—
(1) A student ID number, user ID, or other
unique personal identifier used by a student
for purposes of accessing or communicating
in electronic systems, but only if the identifier cannot be used to gain access to education records except when used in conjunction

App.133a
with one or more factors that authenticate the
user’s identity, such as a personal identification number (PIN), password or other
factor known or possessed only by the authorized user; and
(2) A student ID number or other unique
personal identifier that is displayed on a
student ID badge, but only if the identifier
cannot be used to gain access to education
records except when used in conjunction
with one or more factors that authenticate
the user’s identity, such as a PIN, password,
or other factor known or possessed only by
the authorized user.
(Authority: 20 U.S.C. 1232g(a)(5)(A))
Disciplinary action or proceeding means the
investigation, adjudication, or imposition of sanctions
by an educational agency or institution with respect
to an infraction or violation of the internal rules of
conduct applicable to students of the agency or
institution.
Disclosure means to permit access to or the release,
transfer, or other communication of personally identifiable information contained in education records
by any means, including oral, written, or electronic
means, to any party except the party identified as the
party that provided or created the record.
(Authority: 20 U.S.C. 1232g(b)(1) and (b)(2)) Early
childhood education program means—
(a) A Head Start program or an Early Head
Start program carried out under the Head Start
Act (42 U.S.C. 9831 et seq.), including a migrant

App.134a
or seasonal Head Start program, an Indian Head
Start program, or a Head Start program or an
Early Head Start program that also receives
State funding;
(b) A State licensed or regulated child care
program; or (c)A program that—
(1) Serves children from birth through age six
that addresses the children’s cognitive (including language, early literacy, and early
mathematics), social, emotional, and physical development; and
(2) Is—
(i)

A State prekindergarten program;

(ii) A program authorized under section
619 or part C of the Individuals with
Disabilities Education Act; or
(iii) A program operated by a local educational agency.
Educational agency or institution means any
public or private agency or institution to which this
part applies under § 99.1(a).
Education program means any program that is
principally engaged in the provision of education,
including, but not limited to, early childhood education, elementary and secondary education, postsecondary education, special education, job training,
career and technical education, and adult education,
and any program that is administered by an educational agency or institution.
(Authority: 20 U.S.C. 1232g(b)(3), (b)(5))
Education records

App.135a
(a) The term means those records that are:
(1) Directly related to a student; and
(2) Maintained by an educational agency or
institution or by a party acting for the
agency or institution.
(b) The term does not include:
(1) Records that are kept in the sole possession
of the maker, are used only as a personal
memory aid, and are not accessible or
revealed to any other person except a temporary substitute for the maker of the
record.
(2) Records of the law enforcement unit of an
educational agency or institution, subject to
the provisions of § 99.8.
(3)
(i)

Records relating to an individual who is
employed by an educational agency or
institution, that:
(A) Are made and maintained in the
normal course of business;
(B) Relate exclusively to the individual
in that individual’s capacity as an
employee; and
(C) Are not available for use for any
other purpose.

(ii) Records relating to an individual in
attendance at the agency or institution
who is employed as a result of his or
her status as a student are education

App.136a
records and not excepted under paragraph (b)(3)(i) of this definition.
(4) Records on a student who is 18 years of age
or older, or is attending an institution of
postsecondary education, that are:
(i)

Made or maintained by a physician,
psychiatrist, psychologist, or other
recognized professional or paraprofessional acting in his or her professional
capacity or assisting in a paraprofessional capacity;

(ii) Made, maintained, or used only in connection with treatment of the student;
and
(iii) Disclosed only to individuals providing
the treatment. For the purpose of this
definition, “treatment” does not include
remedial educational activities or activities that are part of the program of instruction at the agency or institution; and
(5) Records created or received by an educational agency or institution after an individual is
no longer a student in attendance and that are
not directly related to the individual’s attendance as a student.
(6) Grades on peer—graded papers before they
are collected and recorded by a teacher. (Authority:
20 U.S.C. 1232g(a)(4))
Eligible student means a student who has reached
18 years of age or is attending an institution of
postsecondary education.

App.137a
(Authority: 20 U.S.C. 1232g(d))
Institution of postsecondary education means an
institution that provides education to students
beyond the secondary school level; “secondary school
level” means the educational level (not beyond grade
12) at which secondary education is provided as determined under State law.
(Authority: 20 U.S.C. 1232g(d))
Parent means a parent of a student and includes
a natural parent, a guardian, or an individual acting
as a parent in the absence of a parent or a guardian.
(Authority: 20 U.S.C. 1232g)
Party means an individual, agency, institution,
or organization.
(Authority: 20 U.S.C. 1232g(b)(4)(A))
Personally Identifiable Information
The term includes, but is not limited to—
(a) The student’s name;
(b) The name of the student’s parent or other
family members;
(c) The address of the student or student’s
family;
(d) A personal identifier, such as the student’s
social security number, student number, or biometric record;
(e) Other indirect identifiers, such as the
student’s date of birth, place of birth, and mother’s
maiden name;

App.138a
(f) Other information that, alone or in combination, is linked or linkable to a specific student
that would allow a reasonable person in the school
community, who does not have personal knowledge of the relevant circumstances, to identify
the student with reasonable certainty; or
(g) Information requested by a person who the
educational agency or institution reasonably
believes knows the identity of the student to
whom the education record relates.
34 C.F.R. § 99.4
§ 99.4 What are the rights of parents?
An educational agency or institution shall give
full rights under the Act to either parent, unless
the agency or institution has been provided with
evidence that there is a court order, State statute,
or legally binding document relating to such
matters as divorce, separation, or custody that
specifically revokes these rights.
34 C.F.R. § 99.5
§ 99.5 What are the rights of students?
(a)
(1) When a student becomes an eligible student,
the rights accorded to, and consent required
of, parents under this part transfer from the
parents to the student.
(2) Nothing in this section prevents an educational agency or institution from disclosing
education records, or personally identifiable
information from education records, to a

App.139a
parent without the prior written consent of
an eligible student if the disclosure meets
the conditions in § 99.31(a)(8), § 99.31(a)
(10), § 99.31(a)(15), or any other provision
in § 99.31(a).
(b) The Act and this part do not prevent educational agencies or institutions from giving
students rights in addition to those given to
parents.
(c) An individual who is or has been a student
at an educational institution and who applies for
admission at another component of that institution
does not have rights under this part with respect
to records maintained by that other component,
including records maintained in connection with
the student’s application for admission, unless the
student is accepted and attends that other
component of the institution.
34 C.F.R. § 99.7
§ 99.7 What must an educational agency or institution
include in its annual notification?
(a)
(1) Each educational agency or institution shall
annually notify parents of students currently
in attendance, or eligible students currently
in attendance, of their rights under the Act
and this part.
(2) The notice must inform parents or eligible
students that they have the right to—
(i)

Inspect and review the student’s education records;

App.140a
(ii) Seek amendment of the student’s education records that the parent or eligible
student believes to be inaccurate,
misleading, or otherwise in violation of
the student’s privacy rights;
(iii) Consent to disclosures of personally identifiable information contained in the
student’s education records, except to the
extent that the Act and § 99.31 authorize disclosure without consent; and
(iv) File with the Department a complaint
under §§ 99.63 and 99.64 concerning
alleged failures by the educational agency
or institution to comply with the
requirements of the Act and this part.
(3) The notice must include all of the following:
(i)

The procedure for exercising the right
to inspect and review education records.

(ii) The procedure for requesting amendment
of records under § 99.20.
(iii) If the educational agency or institution
has a policy of disclosing education
records under § 99.31(a)(1), a specification
of criteria for determining who constitutes a school official and what constitutes a legitimate educational interest.
(b) An educational agency or institution may
provide this notice by any means that are
reasonably likely to inform the parents or eligible
students of their rights.

App.141a
(1) An educational agency or institution shall
effectively notify parents or eligible students who are disabled.
(2) An agency or institution of elementary or
secondary education shall effectively notify
parents who have a primary or home language
other than English.
34 C.F.R. § 99.8
§ 99.8 What provisions apply to records of a law
enforcement unit?
(a)
(1) Law enforcement unit means any individual, office, department, division, or other component of an educational agency or institution,
such as a unit of commissioned police officers or
non—commissioned security guards, that is
officially authorized or designated by that agency
or institution to—
(i)

Enforce any local, State, or Federal law, or
refer to appropriate authorities a matter for
enforcement of any local, State, or Federal
law against any individual or organization
other than the agency or institution itself;
or

(ii) Maintain the physical security and safety of
the agency or institution.
(2) A component of an educational agency or
institution does not lose its status as a law
enforcement unit if it also performs other, non—
law enforcement functions for the agency or
institution, including investigation of incidents

App.142a
or conduct that constitutes or leads to a disciplinary
action or proceedings against the student.
(b)
(1) Records of a law enforcement unit means
those records, files, documents, and other materials that are—
(i)

Created by a law enforcement unit;

(ii) Created for a law enforcement purpose; and
(iii)Maintained by the law enforcement unit.
(2) Records of a law enforcement unit does not
mean—
(i)

Records created by a law enforcement unit
for a law enforcement purpose that are
maintained by a component of the educational agency or institution other than the
law enforcement unit; or

(ii) Records created and maintained by a law
enforcement unit exclusively for a non—law
enforcement purpose, such as a disciplinary
action or proceeding conducted by the educational agency or institution.
(c)
(1) Nothing in the Act prohibits an educational
agency or institution from contacting its law
enforcement unit, orally or in writing, for the
purpose of asking that unit to investigate a
possible violation of, or to enforce, any local,
State, or Federal law.
(2) Education records, and personally identifiable
information contained in education records, do
not lose their status as education records and

App.143a
remain subject to the Act, including the disclosure provisions of § 99.30, while in the possession
of the law enforcement unit.
(d) The Act neither requires nor prohibits the
disclosure by an educational agency or institution of
its law enforcement unit records.
34 C.F.R. § 99.30
§ 99.30 Under what conditions is prior consent
required to disclose information?
(a) The parent or eligible student shall provide
a signed and dated written consent before an
educational agency or institution discloses
personally identifiable information from the
student’s education records, except as provided in
§ 99.31.
(b) The written consent must:
(1) Specify the records that may be disclosed;
(2) State the purpose of the disclosure; and
(3) Identify the party or class of parties to
whom the disclosure may be made.
(c) When a disclosure is made under paragraph
(a) of this section:
(1) If a parent or eligible student so requests,
the educational agency or institution shall
provide him or her with a copy of the
records disclosed; and
(2) If the parent of a student who is not an
eligible student so requests, the agency or
institution shall provide the student with a
copy of the records disclosed.

App.144a
(d) “Signed and dated written consent” under
this part may include a record and signature in
electronic form that—
(1) Identifies and authenticates a particular
person as the source of the electronic
consent; and (2)Indicates such person’s
approval of the information contained in the
electronic consent.
34 C.F.R. § 99.31
§ 99.31 Under what conditions is prior consent not
required to disclose information?
(a) An educational agency or institution may disclose
personally identifiable information from an education
record of a student without the consent required by
§ 99.30 if the disclosure meets one or more of the
following conditions:
(1)
(i)
(A) The disclosure is to other school officials,
including teachers, within the agency or
institution whom the agency or institution
has determined to have legitimate educational
interests.
(B) A contractor, consultant, volunteer, or other
party to whom an agency or institution has
outsourced institutional services or functions
may be considered a school official under
this paragraph provided that the outside
party—

App.145a
(1) Performs an institutional service or function for
which the agency or institution would otherwise
use employees;
(2) Is under the direct control of the agency or institution with respect to the use and maintenance
of education records; and
(3) Is subject to the requirements of § 99.33(a) governing the use and redisclosure of personally
identifiable information from education records.
(ii) An educational agency or institution must
use reasonable methods to ensure that school
officials obtain access to only those education
records in which they have legitimate educational
interests. An educational agency or institution
that does not use physical or technological access
controls must ensure that its administrative
policy for controlling access to education records
is effective and that it remains in compliance
with the legitimate educational interest requirement in paragraph (a)(1)(i)(A) of this section.
(2) The disclosure is, subject to the requirements of
§ 99.34, to officials of another school, school system,
or institution of postsecondary education where
the student seeks or intends to enroll, or where
the student is already enrolled so long as the
disclosure is for purposes related to the student’s
enrollment or transfer.
(3) The disclosure is, subject to the requirements of
§ 99.35, to authorized representatives of—
(i)

The Comptroller General of the United
States;

(ii) The Attorney General of the United States;

App.146a
(iii) The Secretary; or
(iv) State and local educational authorities.
(4)
(i)

The disclosure is in connection with financial aid for which the student has applied or
which the student has received, if the information is necessary for such purposes as to:
(A) Determine eligibility for the aid;
(B) Determine the amount of the aid;
(C) Determine the conditions for the aid; or
(D) Enforce the terms and conditions of the
aid.

(ii) As used in paragraph (a)(4)(i) of this section,
financial aid means a payment of funds provided to an individual (or a payment in kind
of tangible or intangible property to the
individual) that is conditioned on the individual’s attendance at an educational agency
or institution.
(5)
(i) The disclosure is to State and local officials
or authorities to whom this information is specifically—
(A) Allowed to be reported or disclosed pursuant
to State statute adopted before November
19, 1974, if the allowed reporting or disclosure
concerns the juvenile justice system and the
system’s ability to effectively serve the
student whose records are released; or

App.147a
(B) Allowed to be reported or disclosed pursuant
to State statute adopted after November 19,
1974, subject to the requirements of § 99.38.
(ii) Paragraph (a)(5)(i) of this section does not
prevent a State from further limiting the
number or type of State or local officials to whom
disclosures may be made under that paragraph.
(6)
(i) The disclosure is to organizations conducting
studies for, or on behalf of, educational agencies
or institutions to:
(A) Develop, validate, or administer predictive
tests;
(B) Administer student aid programs; or
(C) Improve instruction.
(ii) Nothing in the Act or this part prevents a
State or local educational authority or agency
headed by an official listed in paragraph (a)(3) of
this section from entering into agreements with
organizations conducting studies under paragraph
(a)(6)(i) of this section and redisclosing personally
identifiable information from education records
on behalf of educational agencies and institutions
that disclosed the information to the State or
local educational authority or agency headed by an
official listed in paragraph (a)(3) of this section
in accordance with the requirements of § 99.33(b).
(iii) An educational agency or institution may
disclose personally identifiable information under
paragraph (a)(6)(i) of this section, and a State or
local educational authority or agency headed by

App.148a
an official listed in paragraph (a)(3) of this section
may redisclose personally identifiable information
under paragraph (a)(6)(i) and (a)(6)(ii) of this
section, only if—
(A) The study is conducted in a manner that
does not permit personal identification of
parents and students by individuals other
than representatives of the organization
that have legitimate interests in the information;
(B) The information is destroyed when no longer
needed for the purposes for which the study
was conducted; and
(C) The educational agency or institution or the
State or local educational authority or agency
headed by an official listed in paragraph
(a)(3) of this section enters into a written
agreement with the organization that—
(1) Specifies the purpose, scope, and
duration of the study or studies and the
information to be disclosed;
(2) Requires the organization to use personally identifiable information from
education records only to meet the purpose or purposes of the study as stated
in the written agreement;
(3) Requires the organization to conduct
the study in a manner that does not
permit personal identification of parents
and students, as defined in this part, by
anyone other than representatives of the

App.149a
organization with legitimate interests;
and
(4) Requires the organization to destroy all
personally identifiable information when
the information is no longer needed for
the purposes for which the study was
conducted and specifies the time period
in which the information must be
destroyed.
(iv) An educational agency or institution or
State or local educational authority or Federal
agency headed by an official listed in paragraph
(a)(3) of this section is not required to initiate a
study or agree with or endorse the conclusions or
results of the study.
(v) For the purposes of paragraph (a)(6) of this
section, the term organization includes, but is
not limited to, Federal, State, and local agencies,
and independent organizations.
(7)

The disclosure is to accrediting organizations to
carry out their accrediting functions.

(8) The disclosure is to parents, as defined in § 99.3,
of a dependent student, as defined in section 152 of
the Internal Revenue Code of 1986.
(9)
(i) The disclosure is to comply with a judicial
order or lawfully issued subpoena.
(ii) The educational agency or institution may
disclose information under paragraph (a)(9)(i) of
this section only if the agency or institution
makes a reasonable effort to notify the parent or

App.150a
eligible student of the order or subpoena in
advance of compliance, so that the parent or
eligible student may seek protective action, unless
the disclosure is in compliance with—
(A) A Federal grand jury subpoena and the court
has ordered that the existence or the contents
of the subpoena or the information furnished
in response to the subpoena not be disclosed;
(B) Any other subpoena issued for a law enforcement purpose and the court or other issuing
agency has ordered that the existence or the
contents of the subpoena or the information
furnished in response to the subpoena not
be disclosed; or
(C) An ex parte court order obtained by the
United States Attorney General (or designee
not lower than an Assistant Attorney General)
concerning investigations or prosecutions of
an offense listed in 18 U.S.C. 2332b(g)(5)(B)
or an act of domestic or international terrorism as defined in 18 U.S.C. 2331.
(iii)
(A) If an educational agency or institution initiates legal action against a parent or student,
the educational agency or institution may
disclose to the court, without a court order
or subpoena, the education records of the
student that are relevant for the educational
agency or institution to proceed with the
legal action as plaintiff.
(B) If a parent or eligible student initiates legal
action against an educational agency or insti-

App.151a
tution, the educational agency or institution
may disclose to the court, without a court
order or subpoena, the student’s education
records that are relevant for the educational
agency or institution to defend itself.
(10) The disclosure is in connection with a health or
safety emergency, under the conditions described
in § 99.36.
(11) The disclosure is information the educational
agency or institution has designated as “directory information”, under the conditions described
in § 99.37.
(12) The disclosure is to the parent of a student who
is not an eligible student or to the student.
(13) The disclosure, subject to the requirements in
§ 99.39, is to a victim of an alleged perpetrator of
a crime of violence or a non—forcible sex offense.
The disclosure may only include the final results
of the disciplinary proceeding conducted by the
institution of postsecondary education with respect
to that alleged crime or offense. The institution
may disclose the final results of the disciplinary
proceeding, regardless of whether the institution
concluded a violation was committed.
(14)
(i) The disclosure, subject to the requirements in
§ 99.39, is in connection with a disciplinary proceeding at an institution of postsecondary education. The institution must not disclose the final
results of the disciplinary proceeding unless it
determines that—

App.152a
(A) The student is an alleged perpetrator of a
crime of violence or non—forcible sex offense;
and
(B) With respect to the allegation made against
him or her, the student has committed a
violation of the institution’s rules or policies.
(ii) The institution may not disclose the name
of any other student, including a victim or witness, without the prior written consent of the
other student.
(iii) This section applies only to disciplinary proceedings in which the final results were reached
on or after October 7, 1998.
(15)
(i) The disclosure is to a parent of a student
at an institution of postsecondary education
regarding the student’s violation of any Federal,
State, or local law, or of any rule or policy of the
institution, governing the use or possession of
alcohol or a controlled substance if—
(A) The institution determines that the student
has committed a disciplinary violation with
respect to that use or possession; and
(B) The student is under the age of 21 at the
time of the disclosure to the parent.
(ii) Paragraph (a)(15) of this section does not
supersede any provision of State law that
prohibits an institution of postsecondary education from disclosing information.
(16) The disclosure concerns sex offenders and other
individuals required to register under section

App.153a
170101 of the Violent Crime Control and Law
Enforcement Act of 1994, 42 U.S.C. 14071, and
the information was provided to the educational
agency or institution under 42 U.S.C. 14071 and
applicable Federal guidelines.
(b)
(1) De—identified records and information. An educational agency or institution, or a party that
has received education records or information
from education records under this part, may
release the records or information without the
consent required by § 99.30 after the removal of
all personally identifiable information provided
that the educational agency or institution or
other party has made a reasonable determination that a student’s identity is not personally
identifiable, whether through single or multiple
releases, and taking into account other
reasonably available information.
(2) An educational agency or institution, or a party
that has received education records or information from education records under this part, may
release de—identified student level data from
education records for the purpose of education
research by attaching a code to each record that
may allow the recipient to match information
received from the same source, provided that—
(i) An educational agency or institution or other
party that releases de—identified data under paragraph (b)(2) of this section does not disclose any
information about how it generates and assigns
a record code, or that would allow a recipient to
identify a student based on a record code;

App.154a
(ii) The record code is used for no purpose other
than identifying a de—identified record for purposes of education research and cannot be used
to ascertain personally identifiable information
about a student; and
(iii) The record code is not based on a student’s
social security number or other personal information.
(c) An educational agency or institution must use
reasonable methods to identify and authenticate the
identity of parents, students, school officials, and any
other parties to whom the agency or institution discloses personally identifiable information from education records.
(d) Paragraphs (a) and (b) of this section do not require an educational agency or institution or any
other party to disclose education records or information from education records to any party, except for
parties under paragraph (a)(12) of this section.
34 C.F.R. § 99.32
§ 99.32 What recordkeeping requirements exist
concerning requests and disclosures?
(a)
(1) An educational agency or institution must maintain a record of each request for access to and
each disclosure of personally identifiable information from the education records of each student, as
well as the names of State and local educational
authorities and Federal officials and agencies
listed in § 99.31(a)(3) that may make further
disclosures of personally identifiable information

App.155a
from the student’s education records without
consent under § 99.33(b).
(2) The agency or institution shall maintain the
record with the education records of the student
as long as the records are maintained.
(3) For each request or disclosure the record must
include:
(i) The parties who have requested or received
personally identifiable information from the education records; and
(ii) The legitimate interests the parties had in
requesting or obtaining the information.
(4) An educational agency or institution must obtain
a copy of the record of further disclosures maintained under paragraph (b)(2) of this section and
make it available in response to a parent’s or
eligible student’s request to review the record required under paragraph (a)(1) of this section.
(5) An educational agency or institution must record
the following information when it discloses personally identifiable information from education
records under the health or safety emergency
exception in § 99.31(a)(10) and § 99.36:
(i) The articulable and significant threat to the
health or safety of a student or other individuals
that formed the basis for the disclosure; and
(ii) The parties to whom the agency or institution disclosed the information.
(b)
(1) Except as provided in paragraph (b)(2) of this
section, if an educational agency or institution

App.156a
discloses personally identifiable information from
education records with the understanding authorized under § 99.33(b), the record of the disclosure required under this section must include:
(i) The names of the additional parties to which
the receiving party may disclose the information
on behalf of the educational agency or institution;
and
(ii) The legitimate interests under § 99.31 which
each of the additional parties has in requesting
or obtaining the information.
(2)
(i) A State or local educational authority or
Federal official or agency listed in § 99.31(a)(3)
that makes further disclosures of information from
education records under § 99.33(b) must record
the names of the additional parties to which it
discloses information on behalf of an educational
agency or institution and their legitimate interests
in the information under § 99.31 if the information was received from:
(A) An educational agency or institution that
has not recorded the further disclosures
under paragraph (b)(1) of this section; or
(B) Another State or local educational authority
or Federal official or agency listed in
§ 99.31(a)(3).
(ii) A State or local educational authority or
Federal official or agency that records further
disclosures of information under paragraph (b)
(2)(i) of this section may maintain the record by
the student’s class, school, district, or other appro-

App.157a
priate grouping rather than by the name of the
student.
(iii) Upon request of an educational agency or
institution, a State or local educational authority
or Federal official or agency listed in § 99.31
(a)(3) that maintains a record of further disclosures
under paragraph (b)(2)(i) of this section must
provide a copy of the record of further disclosures to the educational agency or institution
within a reasonable period of time not to exceed
30 days.
(c) The following parties may inspect the record
relating to each student:
(1) The parent or eligible student.
(2) The school official or his or her assistants who
are responsible for the custody of the records.
(3) Those parties authorized in § 99.31(a) (1) and (3)
for the purposes of auditing the recordkeeping
procedures of the educational agency or institution.
(d) Paragraph (a) of this section does not apply if
the request was from, or the disclosure was to:
(1) The parent or eligible student;
(2) A school official under § 99.31(a)(1);
(3) A party with written consent from the parent or
eligible student;
(4) A party seeking directory information; or
(5) A party seeking or receiving records in accordance
with § 99.31(a)(9)(ii)(A) through (C). (Approved

App.158a
by the Office of Management and Budget under
control number 1880—0508)
34 C.F.R. § 99.33
§ 99.33 What limitations apply to the redisclosure of
information?
(a)
(1) An educational agency or institution may disclose personally identifiable information from an
education record only on the condition that the
party to whom the information is disclosed will
not disclose the information to any other party
without the prior consent of the parent or
eligible student.
(2) The officers, employees, and agents of a party
that receives information under paragraph (a)(1)
of this section may use the information, but only
for the purposes for which the disclosure was
made.
(b)
(1) Paragraph (a) of this section does not prevent an
educational agency or institution from disclosing
personally identifiable information with the understanding that the party receiving the information
may make further disclosures of the information
on behalf of the educational agency or institution
if—
(i) The disclosures meet the requirements of
§ 99.31; and
(ii)

App.159a
(A) The educational agency or institution has
complied with the requirements of § 99.32(b);
or
(B) A State or local educational authority or
Federal official or agency listed in § 99.31
(a)(3) has complied with the requirements of
§ 99.32(b)(2).
(2) A party that receives a court order or lawfully
issued subpoena and rediscloses personally
identifiable information from education records
on behalf of an educational agency or institution
in response to that order or subpoena under
§ 99.31(a)(9) must provide the notification required under § 99.31(a)(9)(ii).
(c) Paragraph (a) of this section does not apply to
disclosures under §§ 99.31(a)(8), (9), (11), (12), (14),
(15), and (16), and to information that postsecondary
institutions are required to disclose under the
Jeanne Clery Disclosure of Campus Security Policy
and Campus Crime Statistics Act, 20 U.S.C. 1092(f)
(Clery Act), to the accuser and accused regarding the
outcome of any campus disciplinary proceeding
brought alleging a sexual offense.
(d) An educational agency or institution must
inform a party to whom disclosure is made of the
requirements of paragraph (a) of this section except
for disclosures made under §§ 99.31(a)(8), (9), (11), (12),
(14), (15), and (16), and to information that postsecondary institutions are required to disclose under
the Clery Act to the accuser and accused regarding
the outcome of any campus disciplinary proceeding
brought alleging a sexual offense.

App.160a
34 C.F.R. § 99.34
§ 99.34 What conditions apply to disclosure of
information to other educational agencies or institutions?
(a) An educational agency or institution that discloses an education record under § 99.31(a)(2) shall:
(1) Make a reasonable attempt to notify the parent
or eligible student at the last known address of
the parent or eligible student, unless:
(i) The disclosure is initiated by the parent or
eligible student; or
(ii) The annual notification of the agency or institution under § 99.7 includes a notice that the
agency or institution forwards education records
to other agencies or institutions that have
requested the records and in which the student
seeks or intends to enroll or is already enrolled
so long as the disclosure is for purposes related
to the student’s enrollment or transfer;
(2) Give the parent or eligible student, upon request,
a copy of the record that was disclosed; and
(3) Give the parent or eligible student, upon request,
an opportunity for a hearing under Subpart C.
(b) An educational agency or institution may disclose an education record of a student in attendance
to another educational agency or institution if:
(1) The student is enrolled in or receives services
from the other agency or institution; and (2) The
disclosure meets the requirements of paragraph
(a) of this section.

App.161a
34 C.F.R. § 99.35
§ 99.35 What conditions apply to disclosure of information for Federal or State program purposes?
(a)
(1) Authorized representatives of the officials or
agencies headed by officials listed in § 99.31(a)(3)
may have access to education records in connection with an audit or evaluation of Federal or
State supported education programs, or for the
enforcement of or compliance with Federal legal
requirements that relate to those programs.
(2) The State or local educational authority or agency
headed by an official listed in § 99.31(a)(3) is
responsible for using reasonable methods to
ensure to the greatest extent practicable that
any entity or individual designated as its authorized representative—
(i) Uses personally identifiable information only
to carry out an audit or evaluation of Federal—
or State—supported education programs, or for
the enforcement of or compliance with Federal
legal requirements related to these programs;
(ii) Protects the personally identifiable information from further disclosures or other uses,
except as authorized in paragraph (b)(1) of this
section; and
(iii) Destroys the personally identifiable information in accordance with the requirements of
paragraphs (b) and (c) of this section.
(3) The State or local educational authority or agency
headed by an official listed in § 99.31(a)(3) must

App.162a
use a written agreement to designate any authorized representative, other than an employee.
The written agreement must—
(i) Designate the individual or entity as an
authorized representative;
(ii) Specify—
(A) The personally identifiable information from
education records to be disclosed;
(B) That the purpose for which the personally
identifiable information from education
records is disclosed to the authorized representative is to carry out an audit or evaluation of Federal—or State—supported education programs, or to enforce or to comply
with Federal legal requirements that relate
to those programs; and
(C) A description of the activity with sufficient
specificity to make clear that the work falls
within the exception of § 99.31(a)(3), including a description of how the personally identifiable information from education records
will be used;
(iii) Require the authorized representative to
destroy personally identifiable information from
education records when the information is no
longer needed for the purpose specified;
(iv) Specify the time period in which the information must be destroyed; and
(v) Establish policies and procedures, consistent
with the Act and other Federal and State confidentiality and privacy provisions, to protect

App.163a
personally identifiable information from education records from further disclosure (except back
to the disclosing entity) and unauthorized use,
including limiting use of personally identifiable
information from education records to only authorized representatives with legitimate interests
in the audit or evaluation of a Federal—or State
—supported education program or for compliance
or enforcement of Federal legal requirements
related to these programs.
(b) Information that is collected under paragraph
(a) of this section must—
(1) Be protected in a manner that does not permit
personal identification of individuals by anyone
other than the State or local educational authority or agency headed by an official listed in
§ 99.31(a)(3) and their authorized representatives, except that the State or local educational
authority or agency headed by an official listed
in § 99.31(a)(3) may make further disclosures of
personally identifiable information from education records on behalf of the educational agency
or institution in accordance with the requirements of § 99.33(b); and
(2) Be destroyed when no longer needed for the purposes listed in paragraph (a) of this section.
(c)

Paragraph (b) of this section does not apply if:

(1) The parent or eligible student has given written
consent for the disclosure under § 99.30; or
(2) The collection of personally identifiable information is specifically authorized by Federal law.

App.164a
34 C.F.R. § 99.36
§ 99.36 What conditions apply to disclosure of
information in health and safety emergencies?
(a) An educational agency or institution may disclose personally identifiable information from an
education record to appropriate parties, including
parents of an eligible student, in connection with an
emergency if knowledge of the information is necessary to protect the health or safety of the student or
other individuals.
(b) Nothing in this Act or this part shall prevent an
educational agency or institution from—
(1) Including in the education records of a student
appropriate information concerning disciplinary
action taken against the student for conduct that
posed a significant risk to the safety or well—
being of that student, other students, or other
members of the school community;
(2) Disclosing appropriate information maintained
under paragraph (b)(1) of this section to teachers
and school officials within the agency or
institution who the agency or institution has
determined have legitimate educational interests
in the behavior of the student; or
(3) Disclosing appropriate information maintained
under paragraph (b)(1) of this section to teachers
and school officials in other schools who have
been determined to have legitimate educational
interests in the behavior of the student.
(c) In making a determination under paragraph (a)
of this section, an educational agency or institution
may take into account the totality of the circumstances

App.165a
pertaining to a threat to the health or safety of a
student or other individuals. If the educational agency
or institution determines that there is an articulable
and significant threat to the health or safety of a
student or other individuals, it may disclose information from education records to any person whose
knowledge of the information is necessary to protect
the health or safety of the student or other individuals. If, based on the information available at the
time of the determination, there is a rational basis
for the determination, the Department will not substitute its judgment for that of the educational
agency or institution in evaluating the circumstances
and making its determination.
34 C.F.R. § 99.37
§ 99.37 What conditions apply to disclosing directory
information?
(a) An educational agency or institution may disclose
directory information if it has given public notice to
parents of students in attendance and eligible students
in attendance at the agency or institution of:
(1) The types of personally identifiable information
that the agency or institution has designated as
directory information;
(2) A parent’s or eligible student’s right to refuse to
let the agency or institution designate any or all
of those types of information about the student
as directory information; and
(3) The period of time within which a parent or
eligible student has to notify the agency or
institution in writing that he or she does not
want any or all of those types of information

App.166a
about the student designated as directory information.
(b) An educational agency or institution may disclose
directory information about former students without
complying with the notice and opt out conditions in
paragraph (a) of this section. However, the agency or
institution must continue to honor any valid request
to opt out of the disclosure of directory information
made while a student was in attendance unless the
student rescinds the opt out request.
(c) A parent or eligible student may not use the right
under paragraph (a)(2) of this section to opt out of
directory information disclosures to—
(1) Prevent an educational agency or institution
from disclosing or requiring a student to disclose
the student’s name, identifier, or institutional
email address in a class in which the student is
enrolled; or
(2) Prevent an educational agency or institution
from requiring a student to wear, to display
publicly, or to disclose a student ID card or
badge that exhibits information that may be
designated as directory information under § 99.3
and that has been properly designated by the
educational agency or institution as directory
information in the public notice provided under
paragraph (a)(1) of this section.
(d) In its public notice to parents and eligible
students in attendance at the agency or institution
that is described in paragraph (a) of this section, an
educational agency or institution may specify that
disclosure of directory information will be limited to
specific parties, for specific purposes, or both. When

App.167a
an educational agency or institution specifies that
disclosure of directory information will be limited to
specific parties, for specific purposes, or both, the
educational agency or institution must limit its
directory information disclosures to those specified in
its public notice that is described in paragraph (a) of
this section.
(e) An educational agency or institution may not
disclose or confirm directory information without
meeting the written consent requirements in § 99.30
if a student’s social security number or other non—
directory information is used alone or combined with
other data elements to identify or help identify the
student or the student’s records.
34 C.F.R. § 99.38
§ 99.38 What conditions apply to disclosure of information as permitted by State statute adopted after
November 19, 1974, concerning the juvenile justice
system?
(a) If reporting or disclosure allowed by State
statute concerns the juvenile justice system and the
system’s ability to effectively serve, prior to adjudication, the student whose records are released, an educational agency or institution may disclose education
records under § 99.31(a)(5)(i)(B).
(b) The officials and authorities to whom the records
are disclosed shall certify in writing to the educational
agency or institution that the information will not be
disclosed to any other party, except as provided
under State law, without the prior written consent of
the parent of the student.

App.168a
34 C.F.R. § 99.39
§ 99.39 What definitions apply to the nonconsensual
disclosure of records by postsecondary educational
institutions in connection with disciplinary proceedings concerning crimes of violence or non—forcible
sex offenses?
As used in this part:
Alleged perpetrator of a crime of violence is a
student who is alleged to have committed acts
that would, if proven, constitute any of the
following offenses or attempts to commit the
following offenses that are defined in appendix A
to this part:
Arson
Assault offenses
Burglary
Criminal homicide—manslaughter by negligence
Criminal homicide—murder and nonnegligent
manslaughter
Destruction/damage/vandalism of property
Kidnapping/abduction
Robbery
Forcible sex offenses.
Alleged perpetrator of a nonforcible sex offense
means a student who is alleged to have committed
acts that, if proven, would constitute statutory
rape or incest. These offenses are defined in
appendix A to this part.

App.169a
Final results means a decision or determination,
made by an honor court or council, committee,
commission, or other entity authorized to resolve
disciplinary matters within the institution. The
disclosure of final results must include only the
name of the student, the violation committed,
and any sanction imposed by the institution
against the student.
Sanction imposed means a description of the disciplinary action taken by the institution, the
date of its imposition, and its duration.
Violation committed means the institutional
rules or code sections that were violated and any
essential findings supporting the institution’s
conclusion that the violation was committed.

App.170a
APPELLEE PETITION FOR REHEARING
FILED IN KRAKAUER II
(JULY 18, 2019)
IN THE SUPREME COURT OF THE
STATE OF MONTANA
________________________
JON KRAKAUER,

Petitioner Appellee
and Cross-Appellant,
v.
STATE OF MONTANA, by and through its
COMMISSIONER OF HIGHER EDUCATION
CLAYTON T. CHRISTIAN,

v.

Respondent, Appellant
and Cross-Appellee,

JOHN DOE,

Appellant and
Intervenor.

________________________
No. DA-18-0374

On Appeal from the Montana First Judicial
District Court Lewis and Clark County,
The Hon. Mike Menahan, Presiding.

App.171a
Peter Michael Meloy
Meloy Law Firm
P.O. Box 1241
Helena, MT 59624

Attorney for Appellee
and Cross-Appellant
David R. Paoli
Paoli Law Firm, P.C
P.O. Box 8131
Missoula, MT 59802

Attorneys for Appellant and
Intervenor

Vivian V. Hammill
Helen C. Thigpen
Special Assistant Attorneys
General
Office of the Commissioner of
Higher Education
Montana University System
500 No. Park Ave.
Helena, MT 59620-3201

Attorneys for Appellant and CrossAppellee

App.172a
Comes now the Appellee in the captioned matter,
Jon Krakauer, and pursuant to Rule 20, M. R. App. P.,
hereby petitions for rehearing of the Court’s Opinion
reversing the district court and denying access to the
Commissioner’s records detailing the reversal of the
Doe’s expulsion from the University of Montana. The
majority relied on a right-to-know analysis previously rejected by this Court and the Opinion conflicts
with well-established rules governing access to
records under Article II, Section 9 of the Montana
Constitution.
Statement of Case
Jon Krakauer (Krakauer) requested records from
the Commissioner of Higher Education (Commissioner) related to a certain student disciplinary proceeding at the University of Montana. The Commissioner
declined to comply with the request. Krakauer brought
an action under Article II, Section 9 of the Montana
Constitution asserting the right to examine the documents in question. The district court ordered disclosure of the records.
The Commissioner appealed the district court
order and after briefing and oral argument, this
Court in a 6-1 decision remanded the matter back to
the district court for an in-camera inspection of the
requested documents. Justice Laurie McKinnon
dissented.
On remand, the Commissioner produced the
records for the district court and after reviewing the
records in-camera, the district court, again, ordered
disclosure of the records.

App.173a
The Commissioner appealed this second disclosure
order and the matter was considered without oral
argument on the briefs of the parties. Of the original
Court, only Chief McGrath, and Justices Baker, Rice,
Shea and McKinnon had participated in the oral
argument in the first appeal.
On this second appeal, the Court reversed the
district court relying upon the legal principles contained in the McKinnon dissenting opinion accompanying the first appeal. This second Opinion is
flawed in three major respects. First, it relies upon
decisions exalting the right to privacy over the rightto-know previously rejected by this Court. Second, its
central lynchpin is based on a novel reading of federal law that naming a student in a records’ request
bars disclosure of student records because redaction
is futile. Third, the Opinion’s analysis contains glaring
omissions related to arguments raised by Krakauer
regarding the inapplicability of FERPA. These arguments are central to the resolution of the issue
presented, yet never addressed or analyzed by the
Court.
The rule announced in the Opinion guts Montanan’s right-to-know and renders requests for student
records immune from the constitutional guarantees
of access under Article II, Section 9. This is so,
because a requestor of records containing arguably
private information about a student must establish
that the student has no privacy interest, has waived
that interest or society does not recognize that interest
to be reasonable under the circumstances. If the
requestor names the student in order to address the
central existence of privacy issue under the balancing
test, redaction becomes futile and, the majority ruling

App.174a
precludes access. A person’s actual or subjective
expectation of privacy simply cannot be analyzed
without identifying the person implicated. The majority
opinion tacitly recognizes this dilemma when it cites
to Doe’s status as a prominent high-profile athlete
and actually utilizes this fact in tis privacy analysis.
The Court’s Opinion presents the classic circulus in
probando as its premise relies on the truth of its conclusion and is untenable.
Rule 20(1)(a)(ii) and (iii), M. R. App. P., authorize
rehearing when the Court “overlooked some question
presented by counsel that would have proven decisive”
or when the “decision conflicts with a statute of
controlling decision not addressed” by the Court.
Krakauer seeks rehearing on the basis that this
Court’s majority Opinion:
1)

failed to address or reconcile its ruling and
rationale with the Court’s previous pronouncement in T.L.S. v. Mont. Advocacy Program,
2006 MT 262, 334 Mont. 146, 144 P.3d 818;

2)

failed to correctly address, analyze, and
reconcile FERPA’s provisions with controlling
Montana right-to-know jurisprudence;

3)

failed to address arguments essential to the
resolution of the case.

As argued below, any or all of these reasons
justify this Court’s rehearing of the majority opinion.

App.175a
ARGUMENT
I.

The Majority Relies on a Case Which Has Not
Controlled Right-to-Know Jurisprudence Since
2006.

Writing for the majority, Justice McKinnon
starts her analysis with citation to Missoulian v. Bd
of Regents, 207 Mont. 513, 675 P.2d 962 (1984) for
the proposition that in right-to-know cases the courts
must balance the Article II, Section 10 constitutional
right to privacy with the Article II, Section 9
guarantees of access to government records: “The
rights exist in tension with one another and conflict
when the public seeks to examine documents [in
which] an individual asserts a privacy interest . . .
[b]ecause neither right is absolute we must balance
the competing constitutional rights when they
conflict.” (Majority Opinion, ¶ 11).

Missoulian court relied heavily upon
Montana Human Rights Div. v. City of Billings, 199
The

Mont. 434, 441-42, 649 P.2d 1283, 1287-88 (1982). In
Montana Human Rights Div., this Court determined
the circumstances under which a subpoena for government employees personnel records were protected
from disclosure under the right of privacy, Article II,
Section 10. In resolving the case, the Court cited
David Gorman’s 1978 Law Review article, Rights in
Collision: The Individual Right of Privacy and the
Public Right to Know, 39 Mont. L. Rev. 249-267
(1978) and concluded that the subpoena could only be
enforced if there was a compelling state interest as
required by Article II, Section 10. The right to know
guarantees of Article II section 9 were never discussed in the case, let alone balanced.

App.176a
Unfortunately, the ruling in Montana Human
Rights Div. served as the basis for the Court’s
Missoulian decision. In the Missoulian case, the
Missoulian newspaper sued the Board of Regents to
gain access to the periodic evaluations the Board performed of the various Presidents of the University
system. The Missoulian wanted to observe these
discussions to report to its readers how these public
officials were performing. The Missoulian argued
that university presidents can have no reasonable
expectation of privacy except in the narrow areas of
personal health and family which do not affect job
performance.
The Court rejected this argument and reiterated
its holding in Montana Human Rights Division “that
a privacy interest will yield only to a compelling state
interest.” The Court then announced it would “balance
the competing constitutional interests in the context
of the facts of each case, to determine whether the
demands of individual privacy clearly exceed the
merits of public disclosure. Under this standard, the
right to know may outweigh the right of individual
privacy, depending on the facts.” (This language is
virtually identical to the McKinnon majority Opinion,
¶ 12.) By doubling down on the right of privacy with
the compelling interest standard of Section 10, the
Court concluded that the demands of individual
privacy of the presidents clearly exceeded the merits
of public disclosure.
In 2006, the Court recognized the fallacy of
coupling Article II, Section 9, right-to-know
reasoning with the compelling interest requirement
of Section 10. In T.L.S., the Court rejected the
doubling-up standard by ruling “the constitutional

App.177a
right to examine documents of public bodies is presumed in the absence of a showing of individual
privacy rights sufficient to override that right. Thus,
once it is determined that requested documents are
documents of public bodies subject to public inspection
pursuant to Article II, Section 9, it is incumbent
upon the party asserting individual privacy rights to
establish that the privacy interests clearly exceed the
merits of public disclosure.” T.L.S., ¶ 28. The Court
concluded that the district court erred in applying
both the privacy provision of Section 9 and Section
10.
Yet, this rule is precisely what Justice McKinnon
utilized to strike the balance in favor of the student’s
privacy. Although couched in the long-established
Article II, Section 9 balancing language, the majority
clearly imposed the Section 10 higher burden on disclosure than that contemplated by the right-to-know
provision. While this Court in Krakauer I announced
a heightened standard for students in the balancing
test, the majority opinion went a step further and
deferred to it. This was error and a basis for rehearing.
II.

The Majority’s Interpretation of FERPA’S Unnamed Student Standard Is Untenable and
Conflicts with Well-Established Right-to-Know
Jurisprudence.

In the majority Opinion, the Court faults Krakauer for identifying the student about whom the
records pertain. Explaining that FERPA prohibits
disclosure of personally identifiable information contained in the requested records, the majority posits
that by naming the student the requestor has rendered

App.178a
redaction futile. According to the majority Opinion,
naming the student causes Doe’s privacy to “receive
no protection at all in the constitutional inquiry and
balancing because redaction is futile.” Opinion, ¶ 35.
As stated earlier, such logic is circular.
Indeed, the flip side of the proposition is also
accurate. If the requestor does not name the student,
there is no way to establish that the student in
question has either waived or has no protectable
privacy interest in the records. The effect of this
notion is to render all student records private,
regardless of the public interest in disclosure.
Such a rule flies in the face of well-established
and long-followed right-to know jurisprudence in
Montana. FERPA is a federal statute, not a blanket
trump card for the protections of Article II, section 9,
Mont. Const. Indeed, FERPA has “been given limited
scope where [it] conflict[s] with state freedom of
information laws”). John E. Theuman, J.D., Validity,
Construction and Application of FERPA, 112 ALR
Fed 1 (West Group 2015).
Under this Court’s analytical scheme, the inquiry
must first be on whether the person involved had a
subjective or actual expectation of privacy. If the
person cannot be named there’s no way for a requestor
to establish: 1) the interest has been waived; 2) by
the person’s conduct the facts contained in the records
have already been disclosed; or 3) what the nature of
the privacy interest might be. The Court’s ruling-that
by naming the student in a records’ request, redaction
cannot be achieved and FERPA is violated—makes it
impossible for a requestor to establish the first prong
of the analysis. FERPA would always prevail over

App.179a
Montana’s right-to-know provision. Certainly, the Court
did not intend this consequence of its ruling.
Accordingly, the rationale and analysis in the
majority Opinion is based on faulty interpretation of
FERPA and contradictory to Montana law. It should
be revisited.
III. The Court Failed to Address Arguments Essential
to the Resolution of the Case
A. The Court Fails to Reconcile its Ruling with
FERPA’s Court Order and State Law
Exceptions
The Court’s Opinion fails to address or consider
FERPA’s “court order” exception in § 1232g which
applies regardless of the Act’s “personal identifying
information” restriction. The majority references this
provision in ¶ 19, but does not discuss or reconcile it
with its ultimate ruling, nor its previous opinion in
Krakauer I, ¶ 27, where the Court acknowledged that
this exception “broadly permits” the “release of personally identifiable information in education records”
without limitation or restriction as to “the legal basis
or grounds for release.” Krakauer is entitled to a judicial ruling as to why this exception is inapplicable.
The Court also fails to rule on the applicability
of § 1232g(b)(2), which explicitly provides that state
law governing disclosure is not preempted:
State law regarding disclosure
Nothing in paragraph (1) shall be construed
to supersede any provision of State law that
prohibits an institution of higher education

App.180a
from making the disclosure described in
subsection (a).
In other words, if Article II, Section 9 authorizes
the disclosure of personally identifiable information,
FERPA does not prohibit the same. Yet the Court
does not address this provision, but assumes the
applicability of FERPA.
B. The Court Has Failed to Address Krakauer’s
Threshold FERPA Arguments
In Krakauer I, ¶ 47, Justice McKinnon in her
dissent faulted the Court for not reaching all of the
issues presented to it, such as FERPA preemption
and the preliminary question of whether the Act
applies to Krakauer’s request because there is no
established “pattern or practice” at the University of
Montana. Indeed, Krakauer has argued all along
that the proscriptions in FERPA are triggered only
by a systematic policy or practice of releasing student
records not an individual instance of non-compliance.
Yet, this Court has not explicitly addressed this issue
despite noting previously in Board of Trs. v. Cut
Bank Pioneer Press, 2007 MT 115, ¶ 24, 337 Mont.
229, 160 P.3d 482, that FERPA is merely “spending
legislation” and does “not create individual rights”
(citing Gonzaga University v. Doe, 536 U.S. 273, 27981 (2002)). Krakauer is entitled to a ruling on these
issues.
CONCLUSION
This case is not about Krakauer’s desire to
obtain Doe’s student records and the Court misspoke
when it presumed it was. Opinion, ¶ 46 (“Krakauer’s
assertion of his constitutional right to know must be

App.181a
seen for what it is: Krakauer is only interested in Doe’s
educational records because Doe is a high-profile
athlete. Krakauer wants to know if the Commissioner showed favoritism towards Doe in the handling of
Doe’s sexual assault investigation because of that
status”). Rather, the case is about the state’s highest
educational tribunal’s final decision to reverse a
student’s expulsion. The public is entitled to know
the basis for such a decision, especially when the
student involved was accused of rape on campus. As
all of the student disciplinary documents have already
been released by a federal judge, any cries of “privacy”
have long ceased to exist. The only “private” matter
kept secret is the Commissioner’s decision, which has
nothing to do with Doe’s privacy interests.
Krakauer has satisfied the prerequisites for the
Court’s rehearing of this case under Rule 20, M. R.
App. P., and respectfully requests the same on any or
all of the aforementioned bases.
Dated this 17th day of July, 2019.
By: /s/ Peter Michael Meloy
Attorney for Petitioner

